No. ________

IN THE

Supreme Court of the United States

d

THE NATIONAL RETIREMENT FUND ,

ET AL .,

—v.—

Petitioners,

METZ CULINARY MANAGEMENT, INC .,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

RONALD E. RICHMAN
Counsel of Record
MAX GARFIELD
ANDREW B. LOWY
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, New York 10022
(212) 756-2000
ronald.richman@srz.com
max.garfield@srz.com
andrew.lowy@srz.com
Counsel for Petitioners

i
QUESTION PRESENTED
The Employee Retirement Income Security Act
(“ERISA”) imposes withdrawal liability on employers
that withdraw from underfunded multiemployer
pension plans. Withdrawal liability is intended to
address underfunding by requiring withdrawing
employers to pay their allocable share of a plan’s
unfunded vested benefits. The underfunding problem
has worsened dramatically, in large part, due to the
2007-to-2009 recession and the coronavirus pandemic.
Section 4213 of ERISA governs an actuary’s selection
of assumptions to calculate withdrawal liability. It
requires that the assumptions be the actuary’s “best
estimate of anticipated experience under the plan.”
Section 4211 of ERISA requires that withdrawal
liability be calculated “as of” the last day of the plan
year immediately prior to the year in which an
employer withdrew (the “Measurement Date”).
Neither Section 4213 nor Section 4211 of ERISA
impose a deadline by which actuaries must select
assumptions. The Second Circuit’s decision, requiring
actuaries to select assumptions on or before the
Measurement Date, interferes with actuaries’
selection of appropriate assumptions, placing
multiemployer pension plans at risk of not collecting
appropriate amounts of withdrawal liability.
The question presented is:
Whether ERISA prohibits multiemployer pension
plan actuaries from selecting actuarial assumptions to
calculate withdrawal liability, after the Measurement
Date, even when such assumptions are based on their
“best estimate of anticipated experience under the
plan” and professional standards governing actuaries.

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules,
petitioners the National Retirement Fund and the
Board of Trustees of the National Retirement Fund,
each on behalf of the Legacy Plan of the National
Retirement Fund, state that they are not corporations,
that they have no parent company, and that no
publicly held corporation owns 10% or more of their
stock.

iii
TABLE OF CONTENTS
PAGE

QUESTION PRESENTED ...................................................... i
CORPORATE DISCLOSURE STATEMENT ...................... ii
TABLE OF AUTHORITIES ................................................. vi
PETITION FOR A WRIT OF CERTIORARI ....................... 1
OPINIONS BELOW............................................................... 1
JURISDICTION ..................................................................... 1
STATUTORY PROVISIONS INVOLVED .......................... 1
STATEMENT OF THE CASE............................................... 2
A.

THE PARTIES ............................................... 2

B.

THE FUND ACTUARY’S SELECTION
OF AN INTEREST RATE ASSUMPTION
FOR WITHDRAWAL LIABILITY
PURPOSES AS OF DECEMBER 31, 2013 ... 3

C.

METZ’S WITHDRAWAL LIABILITY ........ 4

D.

ARBITRATION PROCEEDINGS ................. 5

E.

DISTRICT COURT PROCEEDINGS ........... 6

F.

THE SECOND CIRCUIT APPEAL............... 7

REASONS FOR GRANTING THE PETITION .................... 8
I.

The Second Circuit Improperly Engaged in
Judicial Lawmaking. ....................................... 9

iv
PAGE

II.

A.

The Second Circuit disregarded basic
principles of statutory interpretation. .. 9

B.

The legislative history does not support
the Second Circuit’s ruling. .............. 15

The Second Circuit’s Ruling Prevents
Actuaries and Arbitrators from Carrying Out
Their Statutory Obligations Under ERISA. .. 17
A.

The Second Circuit’s decision
interferes with an actuary’s ability to
make his or her “best estimate.” ....... 20

B.

The Second Circuit’s assertion that, as
a matter of law, actuaries may be
susceptible to bias contradicts the
premise underlying this Court’s
decision in Concrete Pipe. ................ 25

C.

The Second Circuit’s decision usurps
the role Congress reserved for
arbitrators. ......................................... 29

CONCLUSION ..................................................................... 31
Appendix A – Decision of the United States
Court of Appeals for the Second Circuit ................... 1a
Appendix B – Oral Argument Transcript in
front of the United States Court of Appeals
for the Second Circuit .............................................. 15a

v
PAGE

Appendix C – Decision of the United States
District Court for the Southern District
of New York.............................................................. 36a
Appendix D – Interim Award of Arbitrator
Ira F. Jaffe, Esq. ...................................................... 69a
Appendix E – Final Award of Arbitrator
Ira F. Jaffe, Esq. ...................................................... 93a
Appendix F – First Amended Complaint ................ 95a
Appendix G – Joint Stipulation of Facts............... 103a

vi
TABLE OF AUTHORITIES
PAGE(S)

CASES

Barnhart v. Sigmon Coal Co.,

534 U.S. 438 (2002) ........................................ 10, 15

Bates v. United States,

522 U.S. 23 (1997) .......................................... 10, 15

Block Commc’ns, Inc. v. Cent. States, Se.
& Sw. Areas Pension Fund,

AAA Case No. 11 621 2637 09, 2013
WL 7017979 (Dec. 23, 2013) ................................ 18

Chi. Truck Drivers, Helpers &
Warehouse Workers Union (Indep.)
Pension Fund v. CPC Logistics, Inc.,

698 F.3d 346 (7th Cir. 2012) .................... 18, 23, 30

Concrete Pipe & Prods. of Cal., Inc. v.
Constr. Laborers Pension Trust for S.
Cal.,

508 U.S. 602 (1993) .......................................passim

Embassy Indus. v. Local 365 UA
Pension Trust Fund,

AAA Case No. 13 621 01504 06
(2008) .................................................................... 18

Manhattan Ford Lincoln, Inc. v. UAW
Local 259 Pension Fund,

331 F. Supp. 365 (D.N.J. 2018) ............................ 18

vii
PAGE(S)

Miller & Son Paving, Inc. v. Teamsters
Pension Fund of Phil. & Vicinity,

Civil Action No. 15-4869, 2016 WL
4802752 (E.D. Pa. Sept. 14, 2016) ....................... 18

Milwaukee Brewery Workers’ Pension
Plan v. Joseph Schlitz Brewing Co.,

513 U.S. 414 (1995) .............................................. 10

N.Y. Times Co. v. Newspaper & Mail
Deliverers’-Publishers Pension Fund,

303 F. Supp. 3d 236 (S.D.N.Y. 2018) ................... 18

Russello v. United States,

464 U.S. 16 (1983) .......................................... 10, 15

Sherwin-Williams Co. v. New York State
Teamsters Conf. Pension and
Retirement Fund,

158 F.3d 387 (6th Cir. 1998) ................................ 29

Sotheby’s Inc. v. Local 814, IBT Pension
Fund,

AAA Case No. 13 621 03393 (1994) ..................... 18

Structure Tone, Inc. v. N.Y.C. Dist.
Council Carpenters Pension Fund,

AAA Case No. 01-16-0001-5514, 2017
WL 6034192 (Apr. 24, 2017) ................................ 18

Widoff’s Modern Bakery v. Bakery &
Confectionary Union & Indus. Int’l
Pension Fund,

AAA Case No. 11 621 01198 06
(2007) .................................................................... 18

viii
PAGE(S)

Statutes
29 U.S.C. § 1002(5), Section 3(5) of
ERISA ..................................................................... 2
29 U.S.C. § 1002(37), Section 3(37) of
ERISA ..................................................................... 2
29 U.S.C. § 1021(l), Section 101(l) of
ERISA ........................................................ 11,12, 21
29 U.S.C. § 1301(a)(10), Section
4001(a)(10) of ERISA............................................ 13
29 U.S.C. § 1381(b), Section 4201(b) of
ERISA ..................................................................... 3
29 U.S.C. § 1383, Section 4203 of
ERISA ............................................................... 2, 13
29 U.S.C. § 1385(c)(1), Section 4205(c)(1)
of ERISA ............................................................... 13
29 U.S.C. § 1387(b), Section 4207(b) of
ERISA ................................................................... 13
29 U.S.C. § 1388(e)(3), Section 4208(e)(3)
of ERISA ............................................................... 13
29 U.S.C. § 1391, Section 4211 of ERISA ..........passim
29 U.S.C. § 1393, Section 4213 of ERISA ..........passim
29 U.S.C. § 1394, Section 4214 of ERISA ..........passim
29 U.S.C. § 1399, Section 4219 of ERISA .... 11, 13, 14

ix
PAGE(S)

29 U.S.C. § 1401, Section 4221 of ERISA ......... passim
29 U.S.C. § 1403, Section 4223 of ERISA ................. 13
29 U.S.C. § 1404, Section 4224 of ERISA ................. 13
Other Authorities
Brief for Appellant Metz Culinary
Management, Inc., The National

Retirement Fund et al. v. Metz
Culinary Management, Inc.,

946 F.3d 146 (2d Cir. 2020) .................................. 28

H.R. Rep. No. 96-869, pt. 2 (1980)................ 15, 16, 17
Joint Comm. on Taxation, Present Law

Relating to Multiemployer Defined
Benefit Plans, JCX-30-18

(Apr. 17, 2018) ........................................................ 8

John J. Topoleski, Cong. Research Serv.,
R45311, Policy Options for
Multiemployer Defined Benefit
Pension Plans (2018) .............................................. 8

x
PAGE(S)

Actuarial Standards Board, Doc. No.
145, Actuarial Standard of Practice

No. 27: Selection of Economic
Assumptions for Measuring Pension
Obligations (Sept. 2007 rev. ed.,

Updated for Deviation Language
Effective May 1, 2011), available at
http://www.actuarialstandardsboard.
org/wp-content/ uploads/2014/10/
asop027_145.pdf ................................. 20, 21, 22, 24

Actuarial Standards Board, Doc. No. 172,

Actuarial Standard of Practice No. 27:
Selection of Economic Assumptions for
Measuring Pension Obligations (Sept.
2013 rev. ed.) available at

http://www.actuarialstandardsboard.
org/wp-content/uploads/2014/
02/asop027_172.pdf .............................................. 21

Pension Benefit Guaranty Corporation,
Introduction to Multiemployer Plans,

available at

https://www.pbgc.gov/prac/multiemploye
r/introduction-to-multiemployer-plans .................. 2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Second Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Second Circuit is reported at: 946 F.3d 146 (2d
Cir. 2020) and is reproduced at App. 1a-14a. The
decision of the United States District Court for the
Southern District of New York is reported at: Case No.
16-CV-2408-VEC, 2017 WL 1157156 (S.D.N.Y. Mar.
27, 2017) and is reproduced at App. 36a-68a.
JURISDICTION
The United States Court of Appeals for the Second
Circuit issued its opinion at issue here on January 2,
2020. App. 1a-14a. This Court has jurisdiction over
this matter pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
29 U.S.C. § 1391, Section 4211 of ERISA
29 U.S.C. § 1393, Section 4213 of ERISA
29 U.S.C. § 1394, Section 4214 of ERISA

2
STATEMENT OF THE CASE
A. THE PARTIES
Petitioners are the National Retirement Fund (the
“Fund”) and the Board of Trustees of the Fund (the
“Trustees”). The Fund is a Taft-Hartley trust fund,
established and maintained pursuant to Section
302(c)(5) of the Labor Management Relations Act, 29
U.S.C. § 186(c)(5). App. 96a, ¶ 4. The Fund, through
the Trustees of the Fund, sponsors and administers
the Legacy Plan of the National Retirement Fund (the
“Plan”). App. 97a, ¶ 5. Only the Trustees are
empowered to amend the Plan. See App. 97a, ¶ 5; see
infra pp. 12-13. The Plan is a multiemployer plan
within the meaning of Section 3(37) of ERISA, 29
U.S.C. § 1002(37). App. 97a, ¶ 6. It is one of
approximately 1,400 multiemployer pension plans
nationwide, which collectively have approximately
10,000,000 participants. Pension Benefit Guaranty
Corporation, Introduction to Multiemployer Plans,
available at https://www.pbgc.gov/prac/multiemployer/
introduction-to-multiemployer-plans (Apr. 22, 2020).
Respondent, Metz Culinary Management, Inc.
(“Metz”), is an employer within the meaning of Section
3(5) of ERISA, 29 U.S.C. § 1002(5). App. 97a, ¶ 11.
Metz was a contributing employer to the Plan until
May 16, 2014 when it incurred a complete withdrawal
from the Plan within the meaning of Section 4203(a) of
ERISA, 29 U.S.C. § 1383(a). See App. 104a, ¶ 2.

3
B. THE FUND ACTUARY’S SELECTION OF AN
INTEREST
RATE
ASSUMPTION
FOR
WITHDRAWAL LIABILITY PURPOSES AS OF
DECEMBER 31, 2013
When
an
employer
withdraws
from
a
multiemployer pension plan, the employer is assessed
withdrawal liability, the allocable share of the plan’s
unfunded vested benefits allocable to the employer.
See Section 4201(b) of ERISA, 29 U.S.C. § 1381(b).
ERISA requires that withdrawal liability be calculated
as of the last day of the plan year immediately prior to
the year in which the employer withdrew. See Section
4211 of ERISA, 29 U.S.C. § 1391. (The plan year in
which the withdrawal occurs is the “Withdrawal
Year.”) The Fund’s plan year for purposes of Section
4211 of ERISA is a calendar year (the “Plan Year”).
App. 105a, ¶ 5.
A plan’s actuary selects the assumptions used to
calculate an employer’s withdrawal liability. See
Section 4213 of ERISA, 29 U.S.C. § 1393; Concrete

Pipe & Prods. of Cal., Inc. v. Constr. Laborers Pension
Trust for S. Cal., 508 U.S. 602, 631-32 (1993). Prior to

October 2013, an actuary from Buck Consultants
(“Buck”) served as the Plan’s actuary. App. 105a, ¶ 7.
As the Plan’s actuary, the actuary from Buck selected
an interest rate assumption of 7.25% for the December
31, 2012 Measurement Date (i.e., for the purpose of
calculating withdrawal liability for withdrawals
occurring during the Fund’s 2013 Plan Year). App.
105a, ¶ 8. In or around October 2013, however, the
Fund selected a new actuary from Horizon Actuarial
Services, LLC (“Horizon”) to be the actuary for the
Plan. App. 105a, ¶ 9; App. 134a. As a result of the
Plan’s change in the Plan’s actuary, Buck did not select

4
an interest rate assumption for the purposes of
calculating withdrawal liability under the Plan for the
December 31, 2013 Measurement Date. App. 98a,
¶ 16.
In June 2014, Horizon informed the Fund’s
trustees that, following an assessment, the Fund’s
actuary had selected certain interest rates used by the
Pension Benefit Guaranty Corporation (the “PBGC,”
and such interest rates, the “PBGC Rates”) for its
interest rate assumption to calculate withdrawal
liability for the December 31, 2013 Measurement Date
(i.e., the interest rate assumption used to calculate
withdrawal liability for withdrawals from the Plan
occurring during the 2014 Plan Year). App. 105a106a, ¶ 10; App. 135a-137a.
C. METZ’S WITHDRAWAL LIABILITY
On or about June 16, 2014, the Fund sent Metz a
notice and demand letter for the payment of
withdrawal liability that Metz had incurred as a result
of its withdrawal from the Fund on May 16, 2014. App.
104a, ¶ 3; App. 108a-120a. In this letter, the Fund
assessed Metz withdrawal liability using the PBGC
Rate that Horizon had selected. App. 108a-120a. On
or about December 26, 2014, following the finalization
of its withdrawal liability calculation, the Fund issued
Metz a revised withdrawal liability assessment, also
using the PBGC Rate Horizon had selected, in the
amount of $997,734.00, payable in seventy quarterly
installments of $17,814.85, plus a final installment in
the amount of $16,233.36 (the “Fund’s Assessment”).
App. 104a-105a, ¶ 4; App. 121a-133a.

5
D. ARBITRATION PROCEEDINGS
On or about December 16, 2014, Metz commenced
an arbitration against the Fund, captioned Metz

Culinary Management, Inc. v. National Retirement
Fund, AAA Case No. 01-14-0002-2075 (the

“Arbitration”), by filing a demand for arbitration with
the American Arbitration Association (the “AAA”).
App. 99a, ¶ 22. In the Arbitration, Metz challenged
the Fund’s Assessment. Id. The AAA appointed Ira F.
Jaffe, Esq. to serve as the Arbitrator (the “Arbitrator”).
App. 99a, ¶ 23.

The Fund and Metz agreed that “a preliminary
issue” was “the interest assumption used by the Fund
to calculate [Metz’]s withdrawal liability” and that
such issue would be presented for ruling on the basis
of “written stipulations and briefing.” App. 70a.
Other than documents requested by Metz (and
produced by the Fund), no discovery occurred. App.
99a, ¶ 24. On April 15, 2015, the parties entered into
a Joint Stipulation of Facts (the “Stipulation”),
attaching certain documents, and submitted the
Stipulation to the Arbitrator. See App. 103a-142a.
On February 22, 2016, the Arbitrator issued an
interim award holding that the Fund’s application of
the PBGC Rates to calculate Metz’s withdrawal
liability was improper because the Fund had
“retroactively” imposed the Horizon PBGC Rate with
respect to withdrawals during the 2014 Plan Year (the
“Interim Award”). App. 91a; App. 99a, ¶ 25. In the
Interim Award, the Arbitrator did not make any
factual findings. App. 50a; App.71a-74a. Rather, he
recited some of the facts to which Metz and the Fund
stipulated. Id.

6
In the Interim Award, the Arbitrator directed the
Fund to recalculate Metz’s withdrawal liability using
the actuary from Buck’s 7.25% interest rate
assumption instead of the PBGC Rates used by the
actuary from Horizon. App. 99a, ¶¶ 26-27. On March
7, 2016, the Fund provided Metz with a new
calculation of Metz’s withdrawal liability. App. 99a, ¶
27.
On March 28, 2016, the Arbitrator issued a final
award in the Arbitration (the “Final Award”). App.
93a-94a; App. 100a, ¶ 29. In the Final Award, the
Arbitrator determined that no issues remained in the
Arbitration “other than claims that only need to be
decided should the holding contained in the Interim
Award be reversed,” and converted the Interim Award
to a final award. App. 94a.
E. DISTRICT COURT PROCEEDINGS
On March 31, 2016, the Fund filed a Complaint
(which it amended on April 21, 2016) with the District
Court pursuant to Section 4221(b)(2) of ERISA, 29
U.S.C. § 1401(b)(2), seeking to modify and/or vacate
the Final Award. App. 46a; App. 95a-102a. On May
4, 2016, Metz filed a Counterclaim with the District
Court, seeking enforcement of the Final Award. (See
Answers, Defenses And Counterclaim, ECF No. 16.)
On March 27, 2017, the District Court vacated the
Final Award. App. 67a. The District Court held that
“Section 4213 [of ERISA] does not prohibit the
retroactive application of actuarial assumptions
within a given plan year.” App. 65a. The District
Court also said that Section 4214 of ERISA’s
prohibition on the retroactive application of plan rules

7
or amendments did not have any applicability to this
dispute. See App. 64a-65a.
F. THE SECOND CIRCUIT APPEAL
On April 25, 2017, Metz filed a notice of appeal with
the District Court, commencing an appeal of the
District Court’s decision to the United States Court of
Appeals for the Second Circuit (the “Second Circuit”).
See App. 7a. On February 8, 2018, the Second Circuit
held oral argument before Circuit Judges Livingston,
Winter, and Chin. App. 15a. On January 2, 2020, the
Second Circuit issued its opinion reversing and
vacating the District Court’s ruling. App. 1a-14a. For
reasons described below, the Second Circuit held that
the actuary from Horizon impermissibly set the
interest rate assumption for withdrawal liability
following the Measurement Date for withdrawals
occurring in 2014, and that the Fund impermissibly
“retroactively” applied that interest rate to employers,
such as Metz, that withdrew from the Fund during the
2014 Plan Year. App. 12a.

8
REASONS FOR GRANTING THE PETITION
In 2018, the Staff of the Joint Committee on
Taxation reported to the Joint Select Committee on
the Solvency of Multiemployer Pension Plans that
94.4% of all multiemployer plans in the country are
underfunded, and when looking at all plans together,
they are underfunded by more than $495 billion
dollars. Joint Comm. on Taxation, Present Law
Relating to Multiemployer Defined Benefit Plans,
JCX-30-18, p. 55 (Apr. 17, 2018). The Congressional
Research Service has noted that “[s]ome experts refer
to a multiemployer plan ‘death spiral’ as an increasing
number of employers leave financially-troubled
multiemployer plans in order to avoid larger future
obligations to the plans.” John J. Topoleski, Cong.
Research Serv., R45311, Policy Options for
Multiemployer Defined Benefit Pension Plans pp. 2-3
(2018). The PBGC’s program for insuring pension
benefits of multiemployer plans is projected to become
insolvent in 2025. See id. at 5. A major recent
contributing factor to the multiemployer plan crisis
was the 2007-to-2009 recession. See id. at 14. Plan
assets suffered large losses as a result of the
accompanying stock market downturn and a decrease
in the number of contributing employers. See id. The
current coronavirus pandemic will further exacerbate
the multiemployer plan funding issues by decreasing
employer contributions and the investment return on
plan assets.
Plan actuaries need to be able to select actuarial
assumptions to calculate withdrawal liability, in
accordance with Section 4213 of ERISA and actuarial
practice, to reflect real world events that affect the

9
financial condition of pension plans. The Second
Circuit, however, ignored basic principles of statutory
interpretation and misconstrued Supreme Court
precedent. In doing so, the Second Circuit interfered
with an actuary’s ability to adjust actuarial
assumptions according to their “best estimate,” as
required under Section 4213 of ERISA and consistent
with actuarial standards of practice.
I. The Second Circuit Improperly Engaged in Judicial
Lawmaking.

A. The Second Circuit disregarded basic principles
of statutory interpretation.
The Second Circuit rewrote Section 4213 of ERISA
to impose a requirement on actuaries to
multiemployer pension plans that does not exist,
ignoring a basic principle of statutory interpretation.
Specifically, the Second Circuit imposed the
limitations in Section 4214(a) of ERISA on the
retroactive application of plan rules and amendments
by plan sponsors (i.e., multiemployer pension plan
trustees) to actuaries selecting actuarial assumptions.
Section 4213 of ERISA, not Section 4214, governs the
selection of actuarial assumptions by multiemployer
plan actuaries to calculate withdrawal liability. See
29 U.S.C. §§ 1393-94.
Section 4213 of ERISA does not limit the timing of
the adoption and application of actuarial assumptions
or impose any notice requirement. See 29 U.S.C. §
1393. The Second Circuit recognized this fact. App.
11a (stating that “Section 4213—unlike Section
4214—does not specifically address retroactivity . . . ”).
As a general principle of statutory interpretation,

10
when Congress did not include language in a
particular statutory provision where it could have—
but included the language elsewhere in the same
statute—then that language should not be imputed to
the provision. See Barnhart v. Sigmon Coal Co., 534
U.S. 438, 452 (2002) (providing “it is a general
principle of statutory construction that when Congress
includes particular language in one section of a statute
but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.”)
(internal citations omitted); see also Bates v. United
States, 522 U.S. 23, 29 (1997) (implying that the
presumption that Congress purposely includes or
excludes language in different provisions of a statute
is strong when such provisions are “enacted at the
same time”); Russello v. United States, 464 U.S. 16, 23
(1983) (interpreting consecutive subsections of a
statute and concluding that the “differing language in
the two subsections [does not] have the same meaning
in each.”). The Second Circuit’s disregard of this basic
principle of statutory interpretation sets a dangerous
precedent for improper judicial lawmaking.
Section 4213 and Section 4214 of ERISA serve
entirely different purposes and address different
actors with different roles and responsibilities. Under
Section 4213 of ERISA, a multiemployer pension
plan’s actuary is responsible for selecting the actuarial
assumptions and methods used to calculate an
employer’s withdrawal liability. 29 U.S.C. § 1393.
Withdrawal liability must be calculated “as of the last
day of the plan year preceding the year during which
the employer withdrew.”
Milwaukee Brewery
Workers’ Pension Plan v. Joseph Schlitz Brewing Co.,

11
513 U.S. 414, 418 (1995) (citing Section 4211 of ERISA,
29 U.S.C. § 1391). The “as of” requirement indicates
that Congress recognized that the elements necessary
to calculate an employer’s withdrawal liability would
not be available on the Measurement Date. The
Supreme Court said the requirement was “one of
administrative convenience” to allow the plan to use
“figures that it must prepare in any event for [an
annual] report required under ERISA . . . thereby
avoiding the need to generate new figures tied to the
date of actual withdrawal.” See id. The Plan’s
participant data and investment results are the same
as of the end of December 31, 2013 (the Measurement
Date) and the beginning of January 1, 2014. The
actuarial valuation Horizon did for filing with the
Plan’s annual report was completed after the
Measurement Date. See supra p. 4.
Congress’s recognition of the fact that the
information required to calculate withdrawal liability
may not be available until after the Measurement
Date is also evident in the requirement that a plan
assess withdrawal liability as soon as practicable.
Sections 4211 and 4219 of ERISA, 29 U.S.C. §§ 1391,
1399. It is also supported by the fact that Section
101(l) of ERISA requires, upon written request from
an employer, that a multiemployer plan provide the
requesting employer with an estimate of the
employer’s withdrawal liability as if the employer
withdrew in the year prior to the year in which the
request was made. 29 U.S.C. § 1021(l). For example,
an employer that requests a withdrawal liability
estimate from a multiemployer plan (whose plan year
is a calendar year) in 2014 would receive a withdrawal
liability estimate for a withdrawal on December 31,

12
2013. See id. at (l)(1)(A). That estimated withdrawal
liability would be calculated as of December 31, 2012—
the last day of the plan year preceding the plan year
in which the hypothetical withdrawal would occur.
See Section 4211 of ERISA, 29 U.S.C. § 1391. A plan’s
obligation to provide employers with estimates of
withdrawal liability under ERISA takes into account
the fact that the information necessary for an accurate
estimate is not always available before the
Measurement Date. If this were not true, there would
be no reason pension plans could not provide
withdrawal liability estimates for a 2014 withdrawal
using the assumptions in place as of December 31,
2013—not December 31, 2012.
By contrast, Section 4214 of ERISA does not
address or apply to actuaries or actuarial assumptions.
Instead, Section 4214 of ERISA prohibits the plan
trustees from applying changes in withdrawal liability
rules and plan amendments to contributing employers
who withdrew before the adoption of such rules and
amendments. 29 U.S.C. § 1394. Section 4214(b) of
ERISA also requires a plan sponsor to provide
employers and employee organizations with notice of
the adoption of certain rules and amendments. 29
U.S.C. § 1394(b). By its express terms, Section 4214 of
ERISA applies only to plan rules and amendments. 29
U.S.C. § 1394. It sets no restrictions or requirements
on the adoption of actuarial assumptions used to
calculate withdrawal liability. See id. In fact, the text
of Section 4214 of ERISA makes no mention of
actuarial assumptions whatsoever. Id.
Only plan trustees can adopt rules and
amendments, plan actuaries cannot. As the Second
Circuit acknowledged, ERISA does not define the

13
phrase “plan rule or amendment.” App. 11a (stating
“Section 4214 does not define ‘plan rules and
amendments’”). The terms “rule” and “amendment” with
respect to pension plans, however, are used repeatedly
throughout Part I of Subtitle E of Title IV of ERISA
(the Part to which Section 4214 of ERISA, 29 U.S.C. §
1394, applies).1 Each of those provisions establishes
that a “rule” or “amendment” is an action taken by the
plan sponsor (i.e., the trustees or plan administrator)
of a multiemployer plan, not an assumption
determined by the actuary. See Section 4001(a)(10) of
ERISA, 29 U.S.C. § 1301(a)(10) (defining “plan
sponsor” as “(A) the plan’s joint board of trustees, or
(B) if the plan has no joint board of trustees, the plan
administrator”). The Fund has a board of trustees who
have the authority to adopt rules or amendments. See
App. 97a, ¶ 5; see also Section 4001(a)(10) of ERISA,
29 U.S.C. § 1301(a)(10). The Fund’s actuary does not
have that authority. See id. By contrast, Section 4213
of ERISA, which covers actuarial assumptions, does
not refer to any “rule” or “amendment.” See 29 U.S.C.
§ 1393. Section 4213 of ERISA also does not set a time
period during which a plan must adopt actuarial
assumptions. That period is limited, however, by the
fact that ERISA requires that multiemployer plans
assess withdrawal liability as soon as practicable, once
an actuary makes their “best estimate” the actuarial
1

See Sections 4203(f), 4205(c)(1), 4205(d), 4207(b), 4208(e)(3),
4209(b), 4210(b)(2), 4211(c)(1), 4211(c)(4)(D), 4211(c)(5), 4211(d)(1),
4211(d)(2), 4219(c)(1)(C)(ii)(I), 4219(c)(3), 4219(c)(5), 4219(c)(7),
4223(b), and 4224 of ERISA, 29 U.S.C. §§ 1383(f), 1385(c)(1),
1385(d), 1387(b), 1388(e)(3), 1389(b), 1390(b)(2), 1391(c)(1),
1391(c)(4)(D), 1391(c)(5), 1391(d)(1), 1391(d)(2), 1399(c)(1)(C)(ii)(I),
1399(c)(1)(C)(iii), 1399(c)(3), 1399(c)(5), 1399(c)(7), 1403(b), 1404.
Part I of Subtitle E of Title IV of ERISA comprises Sections 4201
through 4225 of ERISA, 29 U.S.C. §§ 1381-1405.

14
assumptions have been selected, and plans have a
financial incentive to assess and collect withdrawal
liability as soon as possible. Sections 4211 and 4219(b)
of ERISA, 29 U.S.C. §§ 1391, 1399(b). Consequently,
the Second Circuit did not need to manufacture a time
limit by which actuaries needed to select actuarial
assumptions for calculating withdrawal liability.
Nevertheless, the Second Circuit concluded that
limitations on retroactivity and notice provisions in
Section 4214 of ERISA also applied to Section 4213 of
ERISA. The Second Circuit’s reliance on Section 4214
of ERISA’s notice requirement is not only misguided,
it conflicts with its ultimate holding. If, as the Second
Circuit held, actuarial assumptions must be selected
by the Measurement Date in all instances, then notice
of retroactive application is irrelevant because any
retroactive application, regardless of whether a plan
gave notice, would be impermissible.
Congress was aware of its ability to set forth
procedural and substantive restrictions throughout
ERISA’s withdrawal liability provisions and chose not
to do so with respect to the time actuaries had to adopt
actuarial assumptions to calculate withdrawal
liability. The distinction in the formulation between
Section 4213 of ERISA and Section 4214 of ERISA was
intentional. This Court has held repeatedly that if
Congress had intended for the same or similar
restrictions and requirements in one section of a
statute (e.g., Section 4214) to apply to another section
(e.g., Section 4213), when the sub-sections appear next
to each other and were adopted at the same time,
Congress would have included the restriction in the
second section by reference or otherwise.
See
Barnhart, 534 U.S. at 452 (2002); Bates, 522 U.S. at

15
30 (1997); Russello 464 U.S. at 23 (1983). Congress
chose not to include such restrictions in Section 4213
of ERISA and chose not to include a cross-reference to
Section 4214 of ERISA. The Second Circuit, however,
ignored this principle and imputed the requirements
of Section 4214 of ERISA to Section 4213.

B. The legislative history does not support the
Second Circuit’s ruling.
In addition to disregarding basic principles of
statutory
construction,
the
Second
Circuit
misinterpreted ERISA’s legislative history.
The
relevant sections of ERISA’s legislative history conflict
with the Second Circuit’s decision. See App. 10a-11a.
The Second Circuit determined that the Fund’s
adoption of the Horizon actuary’s interest rate
assumption following the Measurement Date was
impermissible because it would be inconsistent with
“Congress’s
legislative
intent”
behind
the
Multiemployer Pension Plan Amendments Act of 1980
provisions of ERISA. See App. 11a. The legislative
history on which the Second Circuit relied, however,
comes exclusively from a subsection entitled “Plan
Rules and Amendments.” This subsection is about
Section 4214 of ERISA, which concerns plan rules and
amendments, not Section 4213 of ERISA, which
concerns actuarial assumptions. H.R. Rep. No. 96-869,
pt. 2 at 30. This portion of legislative history does not
mention actuaries or actuarial assumptions, while
other sections of the legislative history (which the
Second Circuit did not mention) reference and discuss
actuarial assumptions. See id. at 30-31 (explaining
under a subsection entitled “[d]eterminations
presumed correct,” that a plan’s determination of
withdrawal liability is presumed correct unless an

16
employer can demonstrate by a preponderance of the
evidence that, inter alia, the actuarial assumptions
used in determining its withdrawal liability were
unreasonable in the aggregate).
The Second Circuit also relied on Section 4214 of
ERISA’s notice requirement, explaining that the
notice requirement was intended “to protect employers
from the retroactive application of rules relating to
withdrawal liability.” App. 10a (emphasis added).
Neither Section 4214 of ERISA nor the legislative
history relied upon by the Second Circuit suggest that
Section 4214 of ERISA’s notice requirement applies to
Section 4213 of ERISA or the actuarial assumptions
used to calculate withdrawal liability.
Contrary to the Second Circuit’s assertion, the
legislative history confirms Congress intended to limit
the restrictions contained in Section 4214 of ERISA to
“plan rules and amendments.” A report to the
Committee of the Whole House on the State of the
Union contains a section explaining provisions with
respect to Payment of Withdrawal Liability, H.R. Rep.
No. 96-869, pt. 2, at 27-31 (1980). Subsection (4) of this
section discussed the “Determination of Actuarial
Assumptions, etc.” Id. at 29. This subsection does not
provide
that
withdrawal
liability
actuarial
assumptions must be selected by the applicable
Measurement Date or require that multiemployer
plans give employers notice of new actuarial
assumptions.
Id.
Reading this section of the
legislative history together with the subsection cited
by the Second Circuit on plan rules and amendments
confirms Congress’s intention that “actuarial
assumptions” should be treated differently from
“rules” or “amendments.” See id. at 29-30. As

17
discussed below in Section II, treating those topics
differently is logical and consistent with actuarial
standards of practice.
***
In sum, the Second Circuit created, without any
statutory basis and contrary to applicable legislative
history, a limitation on the actuary’s selection of
actuarial assumptions that violates a basic principle of
statutory interpretation. The Second Circuit’s holding
conflicts with both the text of ERISA and
Congressional intent.
II. The Second Circuit’s Ruling Prevents Actuaries
and Arbitrators from Carrying Out Their Statutory
Obligations Under ERISA.
The
Second
Circuit’s
misreading
and
misapplication of this Court’s decision in Concrete
Pipe sets a dangerous precedent that undermines the
roles Congress established for actuaries and
arbitrators under ERISA.
The Second Circuit
concluded that setting assumptions after the
Measurement Date creates an opportunity for
manipulation of the calculation of a withdrawing
employer’s withdrawal liability with bias towards a
fund. The Second Circuit did not base its fear of
manipulation or bias on any factual finding of bias by
the arbitrator. Instead, the Second Circuit incorrectly
relied on Concrete Pipe to presume, solely as a matter
of law, that actuaries will be susceptible to influences
of bias. This Court held the opposite in Concrete Pipe.
The Second Circuit also asserted that its presumption
of bias was supported by the Fund’s use of different
interest rates for withdrawal liability and minimum

18
funding. No court or arbitrator has determined that a
multiemployer pension plan may not, as a matter of
law, use different interest rates for minimum funding
and withdrawal liability purposes.2
The Second Circuit’s proposed solution to the
purported problem of bias and manipulation (which, as
discussed below, does not exist) does not actually
eliminate the issue, but instead interferes with an
actuary’s ability to make his or her “best estimate.”
The Second Circuit’s decision also upends an
arbitrator’s fact-finding role under ERISA’s dispute
resolution mechanism and is contrary to the prevailing
presumption
under
ERISA
that
a
fund’s
determinations in calculating withdrawal liability are
correct. Section 4221(a)(3) of ERISA, 29 U.S.C. §
1401(a)(3). All of these issues have far-reaching

2

See, e.g., Chi. Truck Drivers, Helpers & Warehouse Workers
Union (Indep.) Pension Fund v. CPC Logistics, Inc., 698 F.3d 346,
354-55 (7th Cir. 2012); N.Y. Times Co. v. Newspaper & Mail
Deliverers’-Publishers Pension Fund, 303 F. Supp. 3d 236, 25455 (S.D.N.Y. 2018); Manhattan Ford Lincoln, Inc. v. UAW Local
259 Pension Fund, 331 F. Supp. 365, 368 (D.N.J. 2018); Miller &
Son Paving, Inc. v. Teamsters Pension Fund of Phil. & Vicinity,
Civil Action No. 15-4869, 2016 WL 4802752 (E.D. Pa. Sept. 14,
2016); Structure Tone, Inc. v. N.Y.C. Dist. Council Carpenters
Pension Fund, AAA Case No. 01-16-0001-5514, 2017 WL 6034192
(Apr. 24, 2017); Block Commc'ns, Inc. v. Cent. States, Se. & Sw.
Areas Pension Fund, AAA Case No. 11 621 2637 09, 2013 WL
7017979, at *9-13 (Dec. 23, 2013); Embassy Indus. v. Local 365
UA Pension Trust Fund, AAA Case No. 13 621 01504 06, at *27
(2008); Widoff's Modern Bakery v. Bakery & Confectionary Union
& Indus. Int'l Pension Fund, AAA Case No. 11 621 01198 06
(2007); Sotheby's Inc. v. Local 814, IBT Pension Fund, AAA Case
No. 13 621 03393 (1994) (each holding that the rates do not need
to be the same as a matter of law).

19
implications that adversely affect multiemployer
pension plans nationwide.
In Concrete Pipe, this Court examined whether
Section 4221(a)(3)(B) of ERISA violates an employer’s
constitutional Due Process rights. Concrete Pipe, 508
U.S. at 631-32. Section 4221(a)(3)(B) provides that the
plan sponsor’s determination of a plan’s unfunded
vested benefits is presumed correct unless an
employer “shows by a preponderance of the evidence”
that the “actuarial assumptions and methods used in
the determination were, in the aggregate,
unreasonable.” Section 4221(a)(3)(B) of ERISA, 29
U.S.C. § 1401(a)(3)(B). This Court held that Section
4221(a)(3)(B)’s presumption in favor of a plan
sponsor’s (i.e., trustees) calculation of withdrawal
liability does not violate an employer’s Due Process
rights, in part, because the actuarial assumptions and
methods are “selected in the first instance not by the
trustees, but by the plan actuary,” and “actuaries are
trained professionals subject to regulatory standards”
who are “not, like the trustees, vulnerable to
suggestions of bias or its appearance.” Concrete Pipe,
508 U.S. at 632, 635-36.
This Court also said that, as a practical matter,
“the technical nature of an actuary’s assumptions and
methods . . . limit the opportunity an actuary might
otherwise have to act unfairly toward [a] withdrawing
employer.”
Concrete Pipe, 508 U.S. at 632.
Accordingly, as articulated in Concrete Pipe, a
cornerstone of the constitutionality of the withdrawal
liability dispute resolution process, including the
statutory presumption in favor of pension funds, is the
principle
that
actuaries—as
independent
professionals bound by professional standards of

20
conduct (i.e., the Actuarial Standards of Practice) and
“methodology [that] is [the] subject of technical
judgment
within
a
recognized
professional
discipline”—are not susceptible to the bias that may
guide plan trustees’ decisions. Id. at 635.

A. The Second Circuit’s decision interferes with an
actuary’s ability to make his or her “best
estimate.”
Actuarial independence is fundamental to this
Court’s holding in Concrete Pipe and to the
constitutional framework of ERISA’s dispute
resolution process.
The centerpiece of actuarial
independence is an actuary’s ability and responsibility
to make his or her best estimate, as set forth in Section
4213 of ERISA and the Actuarial Standard of Practice
No. 27 (“ASOP 27”). See Concrete Pipe, 508 U.S. at
635.
Section 4213 of ERISA requires plan actuaries to
calculate withdrawal liability using “actuarial
assumptions and methods which, in the aggregate, are
reasonable (taking into account the experience of the
plan or reasonable expectations) and which, in
combination, offer the actuary’s best estimate of
anticipated experience under the plan” 29 U.S.C. §
1393(a)(1) (emphasis added). ASOP 27 provides, in
relevant part: “[t]he economic assumptions selected to
measure pension obligations should reflect the
actuary’s knowledge base as of the measurement
date.” Actuarial Standards Board, Doc. No. 145,

Actuarial Standard of Practice No. 27: Selection of
Economic Assumptions for Measuring Pension
Obligations § 3.14.3 (Sept. 2007 rev. ed., Updated for
Deviation Language Effective May 1, 2011), available

21

at http://www.actuarialstandardsboard.org/wp-content/
uploads/2014/10/asop027_145.pdf (last visited May 27,
2020).3 An actuary’s “knowledge base,” as the term is
used in ASOP 27, as of a given Measurement Date may
include,
among
other
things,
participant
demographics, plan assets, employer information,
interest rates, collective bargaining agreements,
contribution rates, economic and market data,
retirement rates, mortality rates, investment
strategies and outcomes, applicable laws, inflation
rates, other assumptions, professional standards,
expert opinions, methods, and plan provisions and
rules. See generally ASOP 27 § 3 (providing guidance
for the selection of actuarial assumptions).
All of this information may not be available until
after the Measurement Date, which, as discussed
above in Section I.A, is consistent with Section 101(l)
of
ERISA’s
withdrawal
liability
estimate
requirements, which recognize that withdrawal
liability estimates cannot be calculated in real time.
3

This version of ASOP 27 applies to Metz’s withdrawal, which
occurred in 2014 and was calculated as of a Measurement Date of
December 31, 2013. See ASOP 27 § 1.4 (“This standard will be
effective for any actuarial valuation with a measurement date on
or after March 15, 2008.”). The latest version of ASOP 27 does
not apply to Metz’s withdrawal liability. See Actuarial Standards
Board, Doc. No. 172, Actuarial Standard of Practice No. 27:

Selection of Economic Assumptions for Measuring Pension
Obligations § 1.4 (Sept. 2013 rev. ed.) (“This standard will be
effective for any actuarial work product with a measurement date
on
or
after
September
30,
2014.”),
available at

http://www.actuarialstandardsboard.org/wp-content/uploads/2014/
02/asop027_172.pdf (last visited May 27, 2020) (emphasis in
original). The most recent version of ASOP 27 contains language
that is similar to that in the version applicable to Metz. See id. §
3.5.5.

22

See supra pp. 11-12. As the District Court noted, the
fact that an assumption is “as of” a Measurement Date
does not mean that it needs to be determined on or
before that same Measurement Date. See App. 58a61a. In addition, ASOP 27 further provides that:
[a]n actuary’s best-estimate range with
respect to a particular measurement of
pension obligations may change from time to
time due to changing conditions or emerging
plan experience. . . . Even if assumptions are
not changed, the actuary should be satisfied
that each of the economic assumptions
selected for a particular measurement
complies with this standard.
ASOP 27 § Section 3.12. It would make no sense to
require an actuary to use stale data or information
with which the particular actuary disagrees. Doing so
would also be contrary to the reasoning in Concrete
Pipe that actuaries are independent professionals. Yet
this is exactly what the Second Circuit did.
Central to an actuary’s independence is his or her
ability to identify relevant data and use that data to
make informed determinations. The Second Circuit’s
decision, however, prevents an actuary from doing so.
While ERISA requires that a plan’s unfunded vested
benefits be calculated “as of” the Measurement Date,
ASOP 27 § 3.3 provides that “when identifying which
types of economic assumptions to use for a specific
measurement and when selecting those economic
assumptions that will be used,” the actuary should
consider the “purpose and nature of the
measurement.” Accordingly, an actuary will need to
determine what information is relevant to

23
determining the assumptions. All of the information
that an actuary deems relevant, however, may not be
available until after the Measurement Date, and
actuaries, therefore, may not have the requisite
information to appropriately form their assumptions
for a plan year prior to the Measurement Date. See
App. 58a-61a.
Metz’s counsel conceded in oral
argument before the Second Circuit that information
necessary for an actuary to select proper actuarial
assumptions for calculating withdrawal liability might
not be available until after the Measurement Date,
and agreed that “it makes sense that you would look
at it” after the Measurement Date. See App. 21a.
If an actuary cannot select assumptions that reflect
their best estimate on or before the applicable
Measurement Date, Section 4213 of ERISA requires
that the actuary wait until the actuary is able to do
so. See CPC Logistics, 698 F.3d at 357. The use of
assumptions that do not reflect the actuary’s best
estimate violates ERISA and can result in the
invalidation of a withdrawal liability assessment. See
id. (finding a violation of ERISA where a rate other
than the actuary’s best estimate was used and noting
the importance of this best estimate requirement in
“maintain[ing]
the
actuary’s
independence”).
Accordingly, actuaries may, and oftentimes do, need to
wait until after the Measurement Date to accumulate
all of the necessary information to set their
assumptions for calculating withdrawal liability. See
App. 58a-61a. This ability to make decisions and
assumptions based on data according to professional
standards is a key part of an actuary’s role.
According to the Second Circuit’s decision, if an
actuary does not set the assumptions by the

24
Measurement Date, then the previous assumptions
carry over to the next year. App. 12a (holding
“[a]bsent a change by a Fund’s actuary before the
Measurement Date, the existing assumptions and
methods remain in effect [to calculate withdrawal
liability].”).
This conclusion, that the actuarial
assumptions are invalid because of presumed bias
unless selected before the Measurement Date,
contradicts the prevailing presumption in ERISA
withdrawal liability disputes—that a plan’s
determination of withdrawal liability is presumed
correct. Section 4221(a)(3)(B) of ERISA, 29 U.S.C. §
1401(a)(3)(B).
Requiring actuaries to select
assumptions
before
the
Measurement
Date
undermines the text and purpose of Section 4213 of
ERISA, the foundation of this Court’s reasoning in
Concrete Pipe, and ASOP 27. As the District Court
held, “[i]n no universe is carrying over assumptions
from a prior plan year without any examination or
analysis . . . an actuary’s ‘best estimate.’” App. 51a52a (holding Section 4213 of ERISA “precludes” the
passive roll over of actuarial assumptions from year to
year and “Section 4213 does not allow stale
assumptions from the preceding plan year to roll over
automatically . . . .”).
Furthermore, the need for an actuary to wait until
after the Measurement Date to make his or her best
estimate is magnified when the plan changes actuaries
(as was the case here) because the new actuary must
conduct his or her own diligence to make his or her
best estimate. See ASOP 27 § 3. The legal issue in the
present case is especially acute. The Fund switched
actuaries from Buck to Horizon. To make his best
estimate, the actuary from Horizon took time to study

25
the data and familiarize himself with the plan.
Despite the fact that the Horizon actuary was required
to make his own best estimate, because the Horizon
actuary did not set the interest rate assumption by the
Measurement Date, the Second Circuit forced the
Horizon actuary to adopt the Buck actuary’s prior
interest rate assumption for purposes of calculating
2014 withdrawals—an interest rate assumption that
did not represent the Horizon actuary’s best estimate.
The Second Circuit’s decision has far-reaching and
dangerous implications for multiemployer pension
funds. Every multiemployer pension plan retains an
actuary and may collect withdrawal liability. By
interfering with actuaries’ ability to make their best
estimates and thereby act as independent and
stabilizing forces, the Second Circuit has placed
actuaries in an incredibly difficult, if not impossible,
position in which they must choose between (i)
following the Second Circuit’s decision and violating
their statutory and professional obligations, or (ii)
adhering to the statute and ASOP 27 while
disregarding the Second Circuit’s decision. This
Hobson’s choice is fundamentally at odds with this
Court’s holding in Concrete Pipe.

B. The Second Circuit’s assertion that, as a matter
of law, actuaries may be susceptible to bias
contradicts the premise underlying this Court’s
decision in Concrete Pipe.
The Second Circuit’s decision is premised on the
notion that plan actuaries are presumptively
susceptible to bias and manipulation. The Second
Circuit attempted to respond to such supposed
actuarial bias and manipulation in its decision by

26
mandating that actuaries set their assumptions by the
Measurement Date (or use stale assumptions). App.
12a. Both this premise and the purported solution are
deeply flawed.
With regard to the Second Circuit’s premise, as
discussed above, this Court held in Concrete Pipe that
actuaries are not presumptively susceptible to bias.
See supra pp. 17-20. Actuaries are independent
professionals who are required to adhere to their own
professional standards. Nevertheless, the Second
Circuit held that permitting an actuary to set his or
her actuarial assumptions following the Measurement
Date “would create significant opportunity for
manipulation and bias.” App. 12a. In support of this
finding, the Second Circuit accurately quoted Concrete
Pipe, stating “the Supreme Court acknowledged that
the actuary in that case was ‘not, like the trustees,
vulnerable to suggestions of bias or its appearance’
because ‘actuaries are trained professionals subject to
regulatory standards.’” See App. 12a-13a. Despite
doing so, the Second Circuit then reached a conclusion
that was directly contradicted by the exact excerpt it
quoted when the Second Circuit held that actuaries
were presumptively susceptible to bias as a matter of
law. Id. As discussed, aside from disregarding this
Court’s legal conclusion in Concrete Pipe, the Second
Circuit reached its conclusion without articulating any
colorable factual, legal or other justification. See
supra pp. 17-20, 25; infra p. 30.
Even if actuaries were presumptively susceptible to
bias, the Second Circuit’s purported solution does not
solve the issue. Creating a hard and fast deadline by
which assumptions must be set does not fix the
purported problem. Instead, it merely moves the time

27
period for bias and manipulation to before the
Measurement Date. For example, if a Measurement
Date is December 31, then requiring that assumptions
be set by December 31 rather than January 1 or
January 2 provides no substantive safeguard against
influences motivating bias and manipulation. A
biased actuary would merely need to set his or her
“biased” assumptions by December 31 to be in
compliance with the Second Circuit’s decision. In this
case, the District Court recognized that setting a
concrete date by which assumptions must be set would
not impede manipulation. See App. 61a (explaining
that “[a]n actuary who is simply bowing to pressure
from a fund is violating her ERISA mandate,
regardless of the date on which her interest rate
assumptions are finalized”).
In explaining its decision, the Second Circuit held
that “interest rate assumptions cannot be altered daily
and must have a degree of stability.” App. 9a. No
party in this case argued that interest rate
assumptions could be changed daily. This justification
is a red herring that misunderstands the issue.
During oral argument before the Second Circuit,
Judge Livingston asked whether the interest rate
could be changed and applied retroactively if it had
already been set in January or February of 2014. App.
27a-28a. Counsel for the Fund responded that it would
be inappropriate for the actuary to change the interest
rate later in the year if the actuary had already made
his or her best estimate in January or February. Id.
The Second Circuit’s concern that actuaries could
repeatedly change their assumptions—as frequently
as daily—if they are not required to make assumptions
by the Measurement Date is unmerited.

28
The Second Circuit incorrectly relied on Concrete
Pipe to state that as a matter of law “[t]he opportunity
for manipulation and bias is particularly great where
funds use different interest rate assumptions for
withdrawal liability and minimum funding purposes.”
App. 13a-14a. The facts in this case are undisputed,
and there was no factual finding of bias on the part of
the Fund’s actuary. App. 8a-9a. More fundamentally,
Concrete Pipe does not stand for the proposition that
such use of different interest rates for different
purposes establishes a presumption of bias as a matter
of law. Concrete Pipe, 508 U.S. at 633. In Concrete
Pipe, this Court stated that “[u]sing different
assumptions [for different purposes] could very well be
attacked as presumptively unreasonable . . . ” but did
not conclude that such use of different assumptions
necessarily would be improper as a matter of law. Id.
(emphasis added). This Court provided actuaries the
opportunity to explain why it was appropriate and
reasonable to use different interest rate assumptions
for different purposes. Id. In fact, no court has held,
and no arbitrator has ruled, as a matter of law, that
multiemployer pension plans must always use the
same interest rate for withdrawal liability and
minimum funding purposes. See supra p. 18, n. 2. As
Metz has conceded, subsequent to Concrete Pipe, [all]
courts and arbitrators, including the arbitrator in the
underlying arbitration, have ruled that multiemployer
plans may, as a matter of law, use one interest rate
assumption for ongoing funding purposes and another
interest rate assumption for calculating withdrawal
liability. See Brief for Appellant Metz Culinary
Management, Inc., The National Retirement Fund et
al. v. Metz Culinary Management, Inc., 946 F.3d 146
(2d Cir. 2020) at 53 (citing Embassy Indus. & Local

29

365 UAW Pension Trust Fund, AAA Case No. 13 621
01504 06 (Jaffe, Arb. Mar. 4, 2008)).

C. The Second Circuit’s decision usurps the role
Congress reserved for arbitrators.
The Second Circuit’s decision contravenes
Congress’s intent to have arbitrators be the factfinders in withdrawal liability disputes. Section
4221(a)(1) of ERISA provides for mandatory
arbitration of disputes between an employer and plan
sponsor of the multiemployer plan arising out of a
determination made pursuant to Sections 4201
through 4219 of ERISA. Section 4221(a)(1) of ERISA,
29 U.S.C. § 1401(a)(1). An arbitrator’s ruling may then
be appealed to the federal courts. Section 4221(b)(2) of
ERISA, 29 U.S.C § 1401(b)(2). The federal court in
such an appeal, however, must defer to the factual
findings of the arbitrator, pursuant to Section 4221(c),
which provides that “there shall be a presumption,
rebuttable only by a clear preponderance of the
evidence, that the findings of fact made by the
arbitrator were correct.” Section 4221(c) of ERISA, 29
U.S.C. § 1401(c). This clear error standard arises from
the fact that Congress wanted arbitrators, with
expertise and experience resolving often technical
factual issues that arise in the withdrawal liability
context, deciding factual issues. See, e.g., Sherwin-

Williams Co. v. New York State Teamsters Conf.
Pension and Retirement Fund, 158 F.3d 387, 393 (6th
Cir. 1998) (“[D]eference to the findings of the
arbitrator is proper because the arbitrators chosen to
resolve the complicated issue of withdrawal liability
often have relevant expertise in the field of pension
law which can contribute significantly to the accuracy

30
of a decision.”). There was no fact-finding here on the
part of the arbitrator.
The Second Circuit’s decision is based on its
concern that the actuary may select an interest
assumption after the Measurement Date that is
biased. ERISA already contains a remedy to eliminate
any bias that might occur. An employer in arbitration
can challenge whether the actuarial assumptions are
reasonable in the aggregate, are the actuary’s best
estimate, or were influenced improperly by the
trustees. The employer can provide evidence in
arbitration to attempt to show that the “bias” existed.
The arbitrator can then make a factual determination
based on the evidence. See, e.g., CPC Logistics, 698
F.3d at 355-357.
The Second Circuit presumed, as a matter of law,
that actuaries are susceptible to bias because (i) the
Fund’s actuary selected the interest rate assumption
after the Measurement Date, and (ii) the Fund’s
actuary set different interest rate assumptions for
withdrawal liability and minimum funding purposes.
The arbitrator in this case, however, found no facts to
support the conclusion of bias when the default under
the law is that actuaries are not biased. App. 81a-92a.
In fact, the arbitrator only made legal conclusions and
did not make any factual conclusions. See id. As the
Second Circuit acknowledged, the facts were
undisputed.
App. 8a.
The Second Circuit’s
presumption was tantamount to a factual finding that
the Horizon actuary was biased. The arbitrator made
no finding to support such a conclusion. Congress
deliberately empowered arbitrators to address the
technical factual issues that frequently accompany
withdrawal liability disputes. The Second Circuit,

31
however, ignored Congress’s intent when it engaged in
what was tantamount to fact-finding by concluding,
based on a presumption, that the actuary was prone to
bias when the arbitrator made no such factual finding.
CONCLUSION
The petition for a writ of certiorari should be
granted.
RONALD E. RICHMAN

Counsel of Record

MAX GARFIELD
ANDREW B. LOWY
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, New York 10022
(212) 756-2000
ronald.richman@srz.com
max.garfield@srz.com
andrew.lowy@srz.com

Counsel for Petitioners

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT

__________
August Term, 2017
Docket No. 17-1211-cv

__________
T HE N ATIONAL R ETIREMENT F UND ,
E ACH ON B EHALF OF THE L EGACY P LAN
OF THE N ATIONAL R ETIREMENT F UND , B OARD
OF T RUSTEES OF T HE N ATIONAL R ETIREMENT
F UND , E ACH ON B EHALF OF THE L EGACY P LAN
OF THE N ATIONAL R ETIREMENT F UND ,
Plaintiffs-Counter-Defendants-Appellees,
—v.—
M ETZ C ULINARY M ANAGEMENT , I NC .,
Defendant-Counter-Claimant-Appellant.

__________
ARGUED: February 8, 2018
DECIDED: January 2, 2020
Before: WINTER,
Circuit Judges.

LIVINGSTON,

and

CHIN,

CERTIFIED COPY ISSUED ON 1/02/2020

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

2a
Appeal from a judgment of the United States
District Court for the Southern District of
New York (Valerie Caproni, Judge), vacating an
arbitration award. The award held that interest
rate assumptions for purposes of withdrawal from
a multiemployer pension plan liability are those in
effect on the last day of the year preceding the
employer’s withdrawal. The district court held
that interest rate assumptions may be determined
after withdrawal and retroactively imposed. We
disagree and vacate.
ROBERT LITVIN (Paisner Litvin LLP, on
the brief), Bala Cynwyd, PA, for DefendantCounter-Claimant-Appellant.
RONALD E. RICHMAN (Schulte Roth & Zabel
LLP, on the brief), New York, New York, for
Plaintiffs-Counter-Defendants-Appellees.
Robert R. Perry, Todd H. Girshon (Jackson
Lewis P.C.), New York, New York, for Amicus
Curiae Joseph Abboud Manufacturing Corp.
and Waterford Hotel Group, Inc.
WINTER, Circuit Judge:
Metz Culinary Management, Inc., a contributing
employer to the National Retirement Fund,
appeals from Judge Caproni’s decision vacating
Arbitrator Ira F. Jaffe’s award. His award held
that appellees improperly calculated appellant’s
withdrawal liability based on interest rate
assumptions adopted in 2014 after appellant
withdrew from the Plan. The district court held
that Section 4213 of the Employee Retirement
Income Security Act (“ERISA”), 29 U.S.C. § 1393,
does not require actuaries to calculate withdrawal

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

3a
liability based on interest rate assumptions used
prior to an employer’s withdrawal from a plan. The
district court further held that interest rate
assumptions must be affirmatively reached and
may not roll over automatically from the preceding
plan year. For reasons stated below, we vacate the
district court’s judgment.
BACKGROUND
Appellees are a trust fund, established and
maintained pursuant to Section 302(c)(5) of the
Labor Management Relations Act (“LMRA”), 29
U.S.C. § 186(c)(5), and its Board of Trustees
(“Trustees”). The Fund — through its Trustees —
sponsors and administers the Legacy Plan of the
National Retirement Fund (the “Plan”), a
multiemployer plan within the meaning of Section
3(37) of ERISA, 29 U.S.C. § 1002(37).
In multiemployer pension plans, several
“employers pool contributions into a single fund
that pays benefits to covered retirees who spent a
certain amount of time working for one or more of
the contributing employers.” Trs. of The Local 138
Pension Tr. Fund v. F.W. Honerkamp Co., 692
F.3d 127, 129 (2d Cir. 2012). Appellant was an
employer contributing to the Plan until May 16,
2014 when it effectuated a complete withdrawal
from the Plan. See Section 4203(a) of ERISA, 29
U.S.C. § 1383(a).
When a plan is underfunded, an
seeking to withdraw must pay its
unfunded vested benefits (“UVBs”). See
§ 1381(b)(1). UVBs are “calculated as the

82422 • SCHULTE • APPENDIX A:

employer
share of
29 U.S.C.
difference

AL 3/13/20

4a
between the present value of vested benefits and
the current value of the plan’s assets.” Pension
Benefit Guar. Corp. V. R.A. Gray & Co., 467 U.S.
717, 725 (1984) (citing 29 U.S.C. §§ 1381, 1391). The
Multiemployer Pension Plan Amendments Act of
1980 (the “MPPAA”) sets forth rules for calculating
a withdrawing employer’s share of a plan’s underfunding. Pursuant to the MPPAA, “[i]f an employer
withdraws from a multiemployer plan . . . the
employer is liable to the plan in the amount
determined under this part to be the withdrawal
liability.” 29 U.S.C. § 1381(a). “Withdrawal liability
is the withdrawing employer’s proportionate share
of the pension plan’s unfunded vested benefits.”
Honerkamp, 692 F.3d at 130.
Pursuant to Section 4211 of ERISA, a plan may
select one of four identified allocation methods or
develop its own method for calculating UVBs,
subject to approval by the Pension Benefit
Guaranty Corporation (“PBGC”). 29 U.S.C. § 1391.
Critical to the present dispute, Section 1391 of the
MPPAA directs plans to calculate the withdrawal
charge, not as of the date of withdrawal or sometime later, but as of the last day of the plan year
preceding the year during which the employer
withdrew. This date could be up to a year earlier.
Milwaukee Brewery Workers’ Pension Plan v.
Joseph Schlitz Brewing Co., 513 U.S. 414, 41718 (1995) (citing §§ 1391(b)(2)(A)(ii), (b)(2)(E)(i),
(c)(2)(C)(i), (c)(3)(A), and (c)(4)(A)). The last day
of the plan year preceding the year during which
the employer withdraws is referred to as the
“Measurement Date.” Because appellant withdrew
from the Plan on May 16, 2014, the applicable
Measurement Date is December 31, 2013.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

5a
Of the many actuary assumptions necessary to
calculate withdrawal liability, only the interest
rate assumption is at issue in this matter. To
determine an employer’s withdrawal liability, a
plan’s actuary must estimate the present value of
the plan’s vested benefits and the interest rate
necessary to discount the liability for future
benefit payments. See Combs v. Classic Coal
Corp., 931 F.2d 96, 98 (D.C. Cir. 1991). Because
the interest rate assumption governs the estimate
of a plan’s growth from investments apart from
employers’ future contributions, increasing the
interest rate assumption decreases an employer’s
withdrawal liability, and vice versa. See id. ERISA
Section 4213(a) requires withdrawal liability to be
based on “reasonable” actuarial assumptions and
methods, “taking into account the experience of
the plan and reasonable expectations,” and to be
“the actuary’s best estimate of anticipated
experience under the plan.” 29 U.S.C. § 1393(a)(1).
Buck Consultants (“Buck”) served as appellees’
actuary for many years. In October 2013, appellees
replaced Buck with Horizon Actuarial Services,
LLC beginning in 2014. For several years before
its termination as the Plan’s actuary, Buck
utilized a 7.25% interest rate assumption to
determine the Fund’s UVBs. The Plan’s 2013 Form
5500 Schedule MB,1 states that a 7.25% interest
rate assumption remained in place in 2013 for
purposes of determining UVBs. At a 7.25% interest
1

A Form 5500 is an annual report, filed with the
United States Department of Labor, for an employee benefit
plan. Schedule MB is the portion of the Form 5500 that
provides actuarial information for a defined benefit pension
fund and is completed by the fund’s actuary.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

6a
rate, appellant’s withdrawal liability would have
been $254,644.
In June 2014, however, Horizon informed the
Trustees that the interest rate assumption for
purposes of withdrawal liability was reduced from
7.25% to approximately 3.25%.2 At a 3.25% interest
rate, appellant’s withdrawal liability was calculated
to be $997,734. The Fund applied the revised
interest rate to calculate appellant’s withdrawal
liability at the higher figure. Appellant then
commenced the arbitration proceeding that led to
this appeal.
The parties agreed that “a preliminary issue”
relating to “the interest rate assumption used
by the Fund to calculate [Metz’s] withdrawal
liability” would “be presented for ruling on the
basis of written stipulations and briefing.” App’x
at 22-23.
On February 22, 2016, Arbitrator Jaffe issued an
“Interim Award” holding that appellees’ retroactive application of the PBGC rate to calculate
appellant’s withdrawal liability was improper. It
stated:
The Fund’s assertion that the Fund
Actuary had not made any interest rate
assumption determination as of December
2

The documents in the record reflecting this change
relate only to withdrawal liability, and it appears that no
change was made as to the assumed interest rate for other
purposes. If so, the change increased the liability only for
withdrawing employers while leaving the contributions of
remaining employers unchanged. In view of our disposition
of this matter and the lack of an explicit finding, this issue is
not dispositive.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

7a
31, 2013, for purposes of calculating the
Fund’s [UVBs] for withdrawal liability
is rejected. MPPAA requires that the
assumptions and methods in effect on
December 31, 2013, be used for calculating
the Employer’s withdrawal liability. Absent
some change by the Fund actuaries, the
existing assumptions and methods remained
in place as of December 31, 2013.
App’x at 37.
Accordingly, the Recalculation of Withdrawal
Liability reduced appellant’s withdrawal liability
from $997,734 to $254,644.
On March 31, 2016, appellees brought the present
action pursuant to Section 4221(b)(2) of ERISA, 29
U.S.C. § 1401(b)(2), seeking to modify and/or vacate
the arbitrator’s Final Award. On May 4, 2016,
appellant filed a counterclaim, seeking enforcement
of the Final Award. On March 27, 2017, the
district court vacated the Final Award, holding
that “ERISA does not require actuaries to make
withdrawal liability assumptions by the measurement date.” App’x at 283, 289-90. According to the
district court, “the withdrawal liability interest
rate assumption in effect on the Measurement
Date is not applicable to the upcoming plan year
unless the actuary affirmatively determines that
the assumption . . . is reasonable and her best
estimate of anticipated experience under the plan
as of the Measurement Date.” App’x at 279
(emphasis in original).
On April 25, 2017, appellant timely appealed.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

8a
DISCUSSION
We review an arbitrator’s legal conclusions made
under Section 4221 of ERISA de novo. See HOP
Energy, L.L.C. v. Local 553 Pension Fund, 678
F.3d 158, 160 (2d Cir. 2012). By contrast, factual
findings made by an arbitrator enjoy a “presumption
of correctness.” See ERISA Section 4221(c), 29
U.S.C. § 1401(c) (“[T]here shall be a presumption,
rebuttable only by a clear preponderance of the
evidence, that the findings of fact made by the
arbitrator were correct.”); Sigmund Cohn Corp. v.
Dist. No. 15 Machinists Pension Fund, 804 F.
Supp. 490, 493 (E.D.N.Y. 1992) (“Courts reviewing
arbitration awards have consistently upheld the
arbitrator’s factual findings under section 4221(c)’s
‘presumption of correctness.’”).
The parties use copious amounts of ink in
argument over what are the arbitrator’s legal
interpretations of the MPPAA and what are his
factual findings. Much of this argumentation is
irrelevant because the legal argument is decisive
on the undisputed facts. That issue is whether,
under the MPPAA, a fund may select an interest
rate assumption after the Measurement Date and
retroactively apply that assumption to withdrawal
liability calculations. Appellant’s withdrawal from
the Plan on May 16, 2014 caused December 31,
2013 to be the Measurement Date. As a factual
matter, it is not seriously contested that the
interest assumption as of that date was 7.25%.
Appellees selected the revised rate no earlier than
June 2014, claiming that rate to be proper for the
earlier Measurement Date.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

9a
As the arbitrator’s award states, “there is no
dispute that Horizon did not adopt the PBGC rates
as the interest rate assumption for withdrawal
liability purposes until some time in 2014,” after
the Measurement Date of December 31, 2013.
App’x at 37. The arbitrator stated that the Fund’s
“decision to apply [a] changed assumption [rate]
retroactively so as to increase the withdrawal
liability assessed to [Metz] and other employers
who withdrew from the Fund after December 31,
2013, was violative of MPPAA.” App’x at 37. While
the statement of the Fund’s action is an undisputed
factual finding, the legal conclusion is subject to de
novo review.
ERISA and Congress’s guidelines for calculating
an employer’s withdrawal liability, see Section
4213 of ERISA, 29 U.S.C. § 1393, are silent as to
whether interest rate assumptions on the Measurement Date must be affirmatively adopted, or
whether, absent an actuary’s affirmative selection
of a new assumption rate, the rate in effect during
the previous plan year rolls over automatically.
Although the district court held that “Section 4213
does not allow stale assumptions from the preceding plan year to roll over automatically,” App’x
at 278, there is no statutory or caselaw support for
that proposition, and we do not agree with it. In
the context of multiemployer pension plans,
interest rate assumptions cannot be altered daily
and must have a degree of stability. Nor, in that
context, do interest rate assumptions remain open
forever and subject to retroactive changes in later
years. Indeed, the Plan itself used the 7.25% rate
for several years and its annual reports to the
government reflect the ongoing rollover.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

10a
Moreover, Section 4214 imposes a notice requirement on multiemployer funds for any plan rule or
amendment with respect to withdrawal liability.
The legislative history demonstrates that it was
designed to protect employers from the retroactive
application of rules relating to the calculation of
withdrawal liability:
There are several situations where plans,
in the application of their own rules, either
initially or by amendment, are permitted a
wide degree of latitude in allocating and
calculating withdrawal liability. In order
to protect an employer from certain retroactive changes in a plan’s rules, the bill
[H.R. 3904] prohibits the retroactive
application of a plan rule or amendment
relating to withdrawal liability from
applying to a withdrawal occurring before
its date of adoption, unless the employer
consents to its earlier application.
The bill also requires that plan rules
and amendments operate and be applied
uniformly with respect to all employers
except to the extent that lack of uniformity
would be required to take into account
employers’ credit ratings.
Under the bill, when a plan rule or
amendment affects withdrawal liability,
the plan sponsor is required to give notice
of the adoption of the rule or amendment
to all employers required to contribute to
the plan and to all employee organizations
representing employees covered by the plan.
H.R. Rep. No. 96-869, pt. 2 at 30.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

11a
Although Section 4214 does not define “plan
rules and amendments” and Section 4213 — unlike
Section 4214 — does not specifically address retroactivity, the retroactive selection of interest rate
assumptions for purposes of withdrawal liability,
as endorsed by the district court, is, therefore,
inconsistent with Congress’s legislative intent.
Moreover, certain provisions of ERISA allow
employers to request and receive notice of their
estimated withdrawal liability prior to actually
withdrawing from a fund. For example, Section 101
provides that “[t]he plan sponsor or administrator
of a multiemployer plan shall, upon written request,
furnish to any employer who has an obligation to
contribute to the plan,” a “[n]otice of potential
withdrawal liability.” 29 U.S.C. § 1021(l)(1). The
plan administrator is also required to provide:
(A) the estimated amount which would
be the amount of such employer’s withdrawal liability under part 1 of subtitle E
of subchapter III if such employer withdrew on the last day of the plan year
preceding the date of the request, and
(B) an explanation of how such estimated
liability amount was determined, including
the actuarial assumptions and methods
used to determine the value of the plan
liabilities and assets, the data regarding
employer contributions, unfunded vested
benefits, annual changes in the plan’s
unfunded vested benefits, and the application of any relevant limitations on the
estimated withdrawal liability.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

12a
29 U.S.C. § 1021(l)(1)(A), (B). Such provisions are
of no value if retroactive changes in interest rates
assumptions may be made at any time.
In considering the retroactive selection of
interest rate assumptions, we conclude that the
assumptions and methods used to calculate the
interest rate assumption for purposes of
withdrawal liability must be those in effect as of
the Measurement Date.3 Absent a change by a
Fund’s actuary before the Measurement Date, the
existing assumptions and methods remain in
effect. Were it otherwise, the selection of an
interest rate assumption after the Measurement
Date would create significant opportunity for
manipulation and bias. Nothing would prevent
trustees from attempting to pressure actuaries to
assess greater withdrawal liability on recently
withdrawn employers than would have been the
case if the prior assumptions and methods actually
in place on the Measurement Date were used.
Actuaries unwilling to yield to trustees’ preferred
interest rate assumptions can be replaced by
others less reticent.
In Concrete Pipe & Products of California, Inc. v.
Construction Laborers Pension Tr., 508 U.S. 602,
3

We are mindful of the district court’s conviction that
“[t]he Arbitrator incorrectly conflated” the terms “as of” and
“in effect.” App’x at 279. According to that court, “the withdrawal liability interest rate assumption in effect on the
Measurement Date is not applicable to the upcoming plan
year unless the actuary affirmatively determines that the
assumption . . . is reasonable and her best estimate of
anticipated experience under the plan as of the Measurement Date.” App’x at 279 (emphasis in original). For the
reasons stated in this opinion, however, we believe the
district court’s reasoning to be unpersuasive.

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

13a
632 (1993), the Supreme Court acknowledged that
the actuary in that case was “not, like the trustees,
vulnerable to suggestions of bias or its appearance” because “actuaries are trained professionals
subject to regulatory standards.” The Court warned,
however, that
[u]sing different assumptions [for different
purposes] could very well be attacked
as presumptively unreasonable both in
arbitration and on judicial review. . . .
[This] view that the trustees are required
to act in a reasonably consistent manner
greatly limits their discretion, because the
use of assumptions overly favorable to the
fund in one context will tend to have offsetting unfavorable consequences in other
contexts. For example, the use of assumptions (such as low interest rates) that
would tend to increase the fund’s unfunded
vested liability for withdrawal liability
purposes would also make it more difficult
for the plan to meet the minimum funding
requirements of § 1082.
Id. at 633 (second and third alterations in original)
(quoting United Retail & Wholesale Emps.
Teamsters Union Local No. 115 Pension Plan v.
Yahn & McDonnell, Inc., 787 F.2d 128, 146-47 (3d
Cir. 1986) (Seitz, J., dissenting in part)).
The opportunity for manipulation and bias is
particularly great where funds use different
interest rate assumptions for withdrawal liability
and minimum funding purposes. Indeed, Arbitrator
Jaffe specifically acknowledged that “[t]his potential
for bias to operate is particularly great if the

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

14a
changed assumptions and methods relate only to
those used to calculate the [UVBs] of the fund for
purposes of withdrawal liability and not for
funding or other purposes (as appears to have been
the case in this matter).” App’x at 39-40 (emphasis
added); see Concrete Pipe, 508 U.S. at 633 n.19
(“we are aware of at least one case in which a plan
sponsor exercised decisive influence over an actuary
whose initial assumptions it disliked”) (citing
Huber v. Casablanca Indus., Inc., 916 F.2d 85, 93
(3d Cir. 1990)). This appeal, therefore, illustrates
the type of results that can be “attacked as
presumptively unreasonable both in arbitration
and on judicial review” of which Concrete Pipe
warns. Concrete Pipe, 508 U.S. at 633.
CONCLUSION
We hold that interest rate assumptions for
withdrawal liability purposes must be determined
as of the last day of the year preceding the
employer’s withdrawal from a multiemployer
pension plan. Absent any change to the previous
plan year’s assumption made by the Measurement
Date, the interest rate assumption in place from
the previous plan year will roll over automatically.
The judgment of the district court is vacated,
and the case is remanded with directions to enter
judgment for the appellant and to remand any
remaining issues to Arbitrator Jaffe.
A True Copy
Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals, Second Circuit
/s/ Catherine O’Hagan Wolfe
[SEAL]

82422 • SCHULTE • APPENDIX A:

AL 3/13/20

15a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT

__________
No. 17-1211
February 8, 2018

__________
N ATIONAL R ETIREMENT F UND ,
Appellant
—v.—
M ETZ C ULINARY M ANAGEMENT ,
Appellees.

__________
TRANSCRIPT OF ORAL ARGUMENT
BEFORE THE HONORABLE DEBRA ANN
LIVINGSTON, THE HONORABLE RALPH K.
WINTER & THE HONORABLE DENNY CHIN,
UNITED STATES CIRCUIT JUDGES
APPEARANCES:
For Appellant: RONALD RICHMAN, ESQ.
SCHULTE, ROTH & ZABEL
919 Third Avenue
New York, New York 10022

82422 • SCHULTE • APPENDIX B

AL 3/16/20

16a
For Appellees:

YAAKOV ROTH, ESQ.
JONES DAY
51 Louisiana Avenue, N.W.
Washington, D.C. 20001

Job No. NJ2828224
Page 2
INDEX
ARGUMENT:

PAGE

By Mr. Roth

3

By Mr. Richman

12

By Mr. Roth

20
Page 3
PROCEEDINGS

Page 3, Line 2 through Page 12, Line 6
JUDGE LIVINGSTON: The next case on the
calendar is National Retirement Fund v Metz
Culinary Management.
MR. ROTH: May it please the Court, Yaakov
Roth representing Metz Culinary Management.
Your Honors, to calculate withdrawal liability a
plan actuary has to assess the sufficiency of the
plan’s current assets to pay benefits that will be
owed by the plan in the future, ten, twenty, thirty
years in the future. And so a key actuarial
assumption, the one that actually makes the most
difference to the end result is the time value of
money; what is the interest rate or discount rate
that we’re going to use to translate these present
values into future values or vice versa.

82422 • SCHULTE • APPENDIX B

AL 3/16/20

17a
This fund for many years through 2013, through
its actuaries as a firm called Buck, used the
normative approach to answering that question,
which is they looked at the anticipated investment
experience of the plan over the long term and
that’s what they used to discount the benefits to
present value. And that makes perfect sense
because if the plan expects that $100 in its assets
today will be worth $150 in ten years as a result of
growth through investment, then an obligation to
pay $150 in pension benefits in ten years should be
valued at $100 today.
Page 4
And that’s what Buck did, and they did that not
only for withdrawal liability -JUDGE CHIN: The key question here is
whether you -- whether the fund can set the
interest assumption after the measurement date?
MR. ROTH: The question is, is what is the
assumption, which assumptions apply to the
calculation. And -JUDGE CHIN: Well, but the argument was
that the fund couldn’t make that calculation or
pick the number after the key measurement date.
MR. ROTH:
change --

The argument is that they can’t

JUDGE CHIN:
change it.
MR. ROTH:

Isn’t that -- well, or they can’t

Change it. Yes. Right.

JUDGE CHIN: Well, that’s how you frame it.
The District Court --

82422 • SCHULTE • APPENDIX B

AL 3/16/20

18a
MR. ROTH:

Yes.

JUDGE CHIN: -- said the rate doesn’t come the
rate by inertia. It actually has to be set. So the
District -- but aren’t those legal questions subject
to de novo review? That’s really what I’m asking.
MR. ROTH: Okay. Yeah. There’s a legal question
and there’s a factual question. The legal question
Page 5
is which day do you look to to determine which
assumptions to apply, and then the factual
question is what were the assumptions that were
in place on that date. So I think there’s both pieces
to it here.
What I -JUDGE LIVINGSTON: Well, there’s no dispute
or debate about the -- what the measurement date
is, is there?
MR. ROTH: Right. There’s no dispute that the
measurement date is the last day of the 2013 plan
year. And so our position is the assumptions that
were in place, the plan’s approach that was in place
in 2013 is the approach that has to be used to
calculate the unfunded vested benefits for purposes
of Metz’s withdrawal.
And I think it’s clear from the Form 5500
document that the plan filed covering the 2013
plan year, and they filed it in 2014. So they filed it
after the plan year had ended and they said in that
report our interest rate assumption for 2013 is
seven and a quarter percent, and that’s because for
all of 2013 the plan actuary was Buck and Buck’s

82422 • SCHULTE • APPENDIX B

AL 3/16/20

19a
approach was to use the investment return
assumption to discount the liabilities.
JUDGE LIVINGSTON: It was my -- and correct
me if I’m misunderstanding, but I thought that
that figure was referring to withdrawals that took
place in 2013. We always -- we look backwards. So
that -Page 6
MR. ROTH:

There’s --

JUDGE LIVINGSTON:
I incorrect about that?

-- that document -- am

MR. ROTH: I think that that -- I think you are,
Your Honor. The document says -- the document
doesn’t have any qualifications. It says the interest
rate assumption we use, we use for fund -- minimum
funding purposes which is this other set of rules
under ERISA for withdrawal liability, for various
other purposes is seven and a quarter percent.
Now it’s true that calculations that Buck did
within the 2013 year would have been done as
2012. But that doesn’t change the fact that Buck’s
approach was we looked to the investment return
assumption when we’re trying to present value the
benefit, the future benefits.
And that approach was in place throughout 2013
and it was not changed until Horizon, this new
firm that took over for 2014, said essentially it was
a policy matter. We -- we’re going to do something
different, something that is quite novel, actually,
in this field which is we don’t care what the plan is
going to earn on its investments. Yeah, we agree
they’re going to earn seven and a quarter percent

82422 • SCHULTE • APPENDIX B

AL 3/16/20

20a
per year on average over the long term. We don’t
care. We’re going to peg this -JUDGE LIVINGSTON:
though, right? This issue --

This

is

arbitration,

Page 7
MR. ROTH:

Well, I -- I think that’s right.

There is -- and I think it’s important for the
court to understand, there is also this separate
problem with what the fund did here which is even
prospectively using the PBGC rates is unlawful.
JUDGE LIVINGSTON: But that would go to
the substantive reasonableness question.
MR. ROTH: Not so much reasonableness. The
statute requires that the assumptions be both
reasonable and the best estimate of anticipated
experience under the plan. This doesn’t even
purport to be anticipated experience under the
plan. And you can look at the memo that Horizon
wrote when it made this change. It has nothing to
do with anticipated experience. The anticipated
experience remains seven and a quarter percent
growth.
What they said was we’re going to use this
essentially risk free, a three percent rate instead
because we want to deter employers from
withdrawing.
JUDGE LIVINGSTON: But in terms of what is
before us today your argument, and help me if I’m
misunderstanding it, but your argument is that
they -- that it was impermissible for them in June to
say we’re changing the assumptions and methods.
But the statute so far as I can tell is silent as to when

82422 • SCHULTE • APPENDIX B

AL 3/16/20

21a
the assumptions and you have to go -- you have to
look backwards to the measurement date. But it’s
Page 8
silent as to when the assumptions and methods
must be set for the preceding year.
MR. ROTH: Yeah. I think the legal question is
what does it mean to do the calculation as of the
measurement date, right? So the statute does say
that. I think everyone agrees. The calculate -- the
measurement has to be done as of the last day of
the prior plan year.
And our position is just, okay, if you’re looking
at the last day of the prior plan year you want to
look at the -- sort of the facts, the state of the
world as it stood at that time and the assumptions
that -JUDGE CHIN: But sometimes the information
with respect to the state of the world as of that
date doesn’t become available until later.
MR. ROTH:
And --

I agree with that, Your Honor.

JUDGE CHIN: So it makes sense that you
would look at it later.
MR. ROTH:

I agree with that, Your Honor.

JUDGE CHIN: As of -MR. ROTH: Yeah. I don’t disagree with that,
Your Honor. You’re looking back. You’re trying to
put yourself in the position you were in at that
time. And it may be that things happened at the
end of the year that you have to incorporate
because you’re trying to figure out, well, what

82422 • SCHULTE • APPENDIX B

AL 3/16/20

22a
Page 9
was really the -- what were really the facts as of
that date.
But with respect to this actuarial assumption,
first of all, there was no change and we know that
because the 5500 that was filed was filed in
November of 2014, many months after the end of
the plan year. And the actuaries didn’t say, well,
the rate was seven and a quarter until December
1st and then something happened and so we
changed it. They said it’s seven and a quarter
percent for the entire year.
And so there’s no issue here. The District Court
was sort of focused on, well, what would happen if
there were some development at the end of the year
that would require revisiting the assumptions. But
there was no such development here. And the 5500
makes that very clear. That’s page 194 of the
appendix. Again, this is filed after the fact. It’s
looking back and it’s saying for the entirety of the
plan year seven and a quarter percent is our
approach.
And it wasn’t until many months later when
Horizon said, okay, we’re -- starting in 2014 we are
the plan actuaries. We want to do things differently.
And that may be fine. It’s actually not fine for the
reason I said earlier.
But assuming that that’s fine, it -- that has to be
applied prospectively to withdrawals that occur in
the subsequent plan year.
And to read the statute any other -JUDGE CHIN:

82422 • SCHULTE • APPENDIX B

I would like to follow --

AL 3/16/20

23a
Page 10
MR. ROTH:

Yes.

JUDGE CHIN: -- to follow up on Judge
Livingston’s question from earlier, when was the
rate set? I mean, had Buck set the rate for the
calculation that applied here; that is Metz’s
withdrawal?
MR. ROTH: Well, what Buck did was Buck
said for 2013 we are the plan actuaries and this is
our approach. Our approach is we want to figure
out how much the plan is going to earn on its
investments and we’re going to use that.
JUDGE CHIN:
2014.
MR. ROTH:

Metz withdraws in May of

Right.

JUDGE CHIN:
12/31/2013.
MR. ROTH:

It’s

measurement

is

Correct.

JUDGE CHIN: And so it’s
assumption rate as of that date.
MR. ROTH:

date

the

interest

Correct.

JUDGE CHIN:

Had Buck set that date before --

MR. ROTH: Buck had set it before and Buck
reaffirmed it after.
JUDGE CHIN:
MR. ROTH:

When did Buck set it before?

Oh, it was set --

JUDGE CHIN: Because that’s not what my
understanding of what the -MR. ROTH:

82422 • SCHULTE • APPENDIX B

Oh.

AL 3/16/20

24a
Page 11
JUDGE CHIN:

-- District Court is saying.

MR. ROTH: Yeah. So Buck -- I mean, the rate
had not changed in many years. But Buck said it
in November 2013 in the actuarial valuation that
they published, and then they -JUDGE CHIN: Buck made a setting in
November 2013 what the rate will be as of
December 31, 2013.
MR. ROTH: Well, let me add and then they
reaffirmed in the 5500 which was filed in
November of 2014 that this extended through the
entirety of the plan year.
So what they were -JUDGE CHIN: In essence, then, they’re setting
it in late 2014 as well.
MR. ROTH: Well, no, because they were saying
that as of 2013, in other words, for the entirety of
2013 nothing changed, nothing happened that
would cause us to change this assumption that had
been in place for many years. And so I think it’s
important that the -- these two filings by Buck
bookend the measurement date. Right. We have
November 2013, the actuarial valuation says this
is our approach. It’s seven and a quarter. And then
we have November 2014 when they’re publishing
this official filing that sets forth the plan
assumptions and they say, you know, it’s -- it was
seven and a quarter for the entirety of the plan
year.
So there’s no argument that anything changed

82422 • SCHULTE • APPENDIX B

AL 3/16/20

25a
Page 12
before the measurement date. And as a result if
we’re looking at the measurement date and that’s
the date where we want to fix the assumptions to
ensure that we don’t have retroactivity problems
or due process problems, then seven and a quarter
is the rate that has to be used.
Thank you, Your Honors.
Page 12, Line 7 through Page 19, Line 21
MR. RICHMAN: Good morning, Your Honors.
Ronald Richman, Schulte, Roth & Zabel for the
National Retirement Fund.
It is not correct to say that Buck set the rate for
the measurement date of 12/31/13 as the District
Court Judge recognized. In fact, if you look at the
5500 that was filed by Buck because they did the
actuarial valuation for 2013 because it was a lot
cheaper to do it that way, what they did is take the
exact paragraph that appears in their actuarial
valuation of 2013 on actuarial assumptions’
interest, in fact all of the assumptions are exactly
the same from -- that appear in the actuarial
valuation in 2013 to the 5500. There was no
change.
And if we look at the actuarial valuation that
Buck did which it rendered in November of 2013
it -- and we look at the cover letter -JUDGE CHIN:

What page?

MR. RICHMAN: A-86 of the valuation. It is the
first page. And that’s dated November 2013. It’s
from the

82422 • SCHULTE • APPENDIX B

AL 3/16/20

26a
Page 13
actuaries. It is to the Board of Trustees of the
National Retirement Fund. And in the very first
paragraph the -- Buck says, “The valuation results
presented in this report are for the plan year
beginning January 1, 2013. The unfunded vested
benefits reported for withdrawal liability purposes
are measured as of December 31, 2012,” which is -obviously does not apply to the calculation for
Metz’s withdrawal liability.
Then we go to 889, which is the actual first page
of the report, and in the trustee’s summary, in the
overview it says, “Are presented both for the
determination of the contribution requirements and
limits for the 2013 plan year and the determination
of the plan’s unfunded vested liability as of
December 31, 2012.”
The fifth paragraph on that page says, “For
withdrawal liability purposes the unfunded vested
benefit liability at December 31, 2012 was 1.5
billion versus 1.4 billion at the end of the prior
year.” All focused on a measurement date of
December 31st.
JUDGE LIVINGSTON: Well, the arbitrator
said, and I think this is a quote from his opinion,
“The fund’s assertion that the fund actuary had not
made any interest rate assumption determination
as of December 31st, 2013 is rejected.”
Now your argument is that that is not a factual
conclusion?

82422 • SCHULTE • APPENDIX B

AL 3/16/20

27a
Page 14
MR. RICHMAN: That is not a factual conclusion
because the arbitrator’s conclusion was a legal
conclusion.
What the arbitrator said that absent an
affirmative selection before the end of the year,
before December 31st of 2013, that the old rate for
12/31/12 would roll over. I call it the roll over
theory.
And so under the arbitrator’s roll over theory the
assumption used to calculate withdrawal liability
for withdrawals occurring in 2014 must be adopted
before 2014 -JUDGE LIVINGSTON: Now I’m just making
sure I understand this correctly. If -- let’s assume
-- and I understand this is not what -- what you
say happened. But if the rate had been set in
January or February, if the Horizon’s predecessor
had said, yes, we’re still working here and this is
the rate, it would have been improper in June to
say we’re going to have a new rate, to establish
that in October and apply it retroactively.
MR. RICHMAN: As long as we’re speaking
about January and February of 2014 -JUDGE LIVINGSTON:

’14. Yes.

MR. RICHMAN: -- then, yes, that is correct.
And the reason for that is simple, is that when we
look at 4213 of the statute that sets -- that governs
actuarial assumptions it talks -- it calls for the
actuary’s best estimate. And if the actuary makes
the best estimate in

82422 • SCHULTE • APPENDIX B

AL 3/16/20

28a
Page 15
January or February of 2014, that’s as of a
measurement date of 12/31/13, that’s their best
estimate and it would be inappropriate for the
actuary to change that.
The -JUDGE LIVINGSTON: And here the actuary
took from appointment in October till the following
fall to come up with a revised interest rate?
MR. RICHMAN: That is correct. And it did so,
although it was a factual matter not before the
arbitrator, it did so because it was a new actuary.
When a new actuary comes into a multi-employer
pension plan they have an obligation to look at
what the old actuary did, look at the data and
make their own assumptions.
And it also -- because of the data that comes into
a pension plan, which is not only participant data
that comes in that takes in many cases months. This
is a plan with 400, about 425,000 participants,
that it takes months for that data to come in.
And the other part has to do with the assets of a
plan. This is a large plan and like many large
plans it has investments in private equity and
other private investments for which the value is
actually not determined for some period of time.
So it does take a period and can take a significant
period of time.
Page 16
However, there is an incentive for the plan to
actually assess withdrawal liability as soon as it
can because this -- as soon as you can assess

82422 • SCHULTE • APPENDIX B

AL 3/16/20

29a
withdrawal liability is as soon as you can collect it.
You can’t collect it without assessing it.
In addition, there is a section of ERISA, and
that’s 4219, which provides that the plan has an
obligation to assess withdrawal liability as soon as
practicable.
So it is not that the plan has any interest or the
actuary has any interest in delaying the
calculation. But they’re supposed to get it right.
And, in fact, in the District Court in oral argument
the -- Metz’s counsel agreed that the rates -- that
there was a seven and a quarter rate in effect on
12/31/12 and that what the arbitrator concluded
was that that rate just rolled over because no new
rate was chosen.
And when we look at the statute, which as Your
Honors know is a very comprehensive statute
especially when it comes to withdrawal liability and
you look at 4213 that sets actuarial assumptions,
there is nothing in there that requires that the
actuarial assumptions for withdrawal liability be
set before the measurement date.
I am going to spend a little bit of time about the
issue of, the second issue in the case and that is
the request by Metz to have this case go -Page 17
JUDGE WINTER:
MR. RICHMAN:

(Indiscernible).
Oh, I’m sorry.

JUDGE WINTER: No, I’m sorry (indiscernible).
I’ve been talking and apparently you -- you guys
can’t hear me.

82422 • SCHULTE • APPENDIX B

AL 3/16/20

30a
MR. RICHMAN:

We can’t. I’m sorry, Your Honor.

JUDGE WINTER: No. That’s all right. Is there
a drop dead date by which the actuary has to
decide -- make -- make a decision as to the prior
year’s withdrawal liability?
MR. RICHMAN: There is not a per se drop
dead date, except that the -- in 4219 of the statute
provides that the fund has to assess withdrawal
liability as soon as practicable. And obviously that
would depend on the circumstances.
So there is not a specific date, but you -- you
can’t be in a position of assessing withdrawal
liability and, therefore, the opportunity to collect it
without actually having assumptions to calculate
that liability.
With respect to the remand to the arbitrator
issue, the arbitrator did not retain jurisdiction.
That is apparent from the arbitrator’s final award.
And under the -- 4221(b) of ERISA the District Court
has the ability to enforce, vacate, or modify the
arbitrator’s award.
Now Metz cites to three cases in their reply brief
in which courts, one in this district, raised a question
Page 18
that they actually sent back to the arbitrator for
additional information relating to the arbitrator’s
final award. And -JUDGE LIVINGSTON: Help me understand
the record. As I understand it the parties agreed
that there would -- this preliminary issue would be
addressed first, and agreed to that procedure. So
when the arbitrator acted he wasn’t thinking that

82422 • SCHULTE • APPENDIX B

AL 3/16/20

31a
he was resolving all potential issues in this
arbitration.
MR. RICHMAN: Well, the -- at the beginning
the parties agreed that this would be a preliminary
issue. But you cannot appeal a preliminary
decision of an arbitrator to the District Court. And
Metz and the fund agreed that they wanted to
have this appeal heard and they agreed and asked
the arbitrator to make a final judgment.
And in making a final judgment, although the
District Court could have if they needed some
facts, and they didn’t in this case, could have come
back to the court and said -- I’m sorry, to the
arbitrator and said, look, we need some additional
facts here for us to make our decision here. But
that was not necessary in this case. And so what
happens is that the arbitrator no longer has
jurisdiction.
Now the -- Metz can go back to the Triple A and
start another arbitration. There -JUDGE LIVINGSTON: You said that Section
1404(b)(3) of the statute says that a District Court
treats an
Page 19
ERISA arbitration award the same way as an
arbitration award under the FAA. And in the FAA
context I think what you would say here is the
arbitrator didn’t exhaust his function. It was clear
on the record that with the District Court’s
determination if that determination is upheld you
remand back to the arbitrator.
MR. RICHMAN: Well, the arbitrator was asked
that question by counsel for Metz about whether,

82422 • SCHULTE • APPENDIX B

AL 3/16/20

32a
in fact, he would retain jurisdiction. And that
occurred before the final judgment came out. And
the answer -- the arbitrator’s answer is what it
will be, meaning that he wasn’t going to take a
position with respect to that.
And if we look at the Hyle (ph) case in -- which is
Second Circuit precedent and not under ERISA,
this was a situation in which the -- it was unclear
from the arbitrator’s award about who the award
was against. And the Court did not send the
arbitration back to the arbitrator because it said it
didn’t have the ability to do that. What it did do,
however, was send it back to the Triple A, the
American Arbitration Association.
Thank you, Your Honors.
Page 19, Line 22 through Page 22, Line 19
MR. ROTH:
points.

Your Honors, just a couple of quick

First, I think it’s very clear from the Form 5500
that Buck’s assumption of seven and a quarter
percent was
Page 20
for the entirety of the 2013 plan year, up to and
including 1231. And so if we want to do the
measurement as of 12/31/13, the assumption that
was in place at that time was seven and a quarter
percent.
And the motion that that was somehow limited
to 2013 withdrawals as opposed to 2014 withdrawals
I think just misunderstands the whole approach
that Buck had which was we use one rate for
everything. It is the rate that is drawn from our

82422 • SCHULTE • APPENDIX B

AL 3/16/20

33a
anticipated investment experience. And it -- we
don’t care whether it’s 2013 or 2014. That’s our
approach.
And that approach was unquestionably in place
for the entirety of the plan year.
And at worst, Your Honors, that is a factual
question as to the scope and the nature of Buck’s
assumption. And the arbitrator, with decades of
experience in this field, drawing on his -- the
inferences from the documents and his understanding of the actuarial profession rejected the
fund’s argument which he characterized as a
factual argument on page 30 of the appendix and
then resolved it on page 37.
So -JUDGE CHIN: But if his reasoning is the
rolling over theory, then that becomes a legal
question, doesn’t it?
MR. ROTH: I don’t think so because I think
that was based on his understanding of how
actuaries work and
Page 21
the way in which they do their job and the fact
that, look, actuaries don’t wake up every morning
and reevaluate every assumption from first
principals. They have an approach.
They apply it, and if something changes they
revisit it. And I think he said that nothing
happened that caused them to revisit it and,
therefore, it remained in effect through 12/31/13.

82422 • SCHULTE • APPENDIX B

AL 3/16/20

34a
If I could just quickly address the remand point,
I just don’t understand this argument. The -- yes,
he issued a final judgment because he resolved a
preliminary issue that resolved the case. But there
were other preserved arguments and if the -- if -- I
hope I’ve convinced you that -- to reinstate the
order, but if I haven’t -JUDGE CHIN:
whether he was -MR. ROTH:

And he was equivocal as to

He wasn’t --

JUDGE CHIN: -- going to hear it again.
MR. ROTH: He -- well, he was equivocal because
the District Court didn’t remand it back to him.
JUDGE CHIN: In the exchange he basically
said it will be what it will be or something to that
effect.
MR. ROTH: Well, I -- you know, I think he was
not retaining jurisdiction because from his
perspective he had finished with the case. But if
and to the extent that this Court disagrees with
his or rejects his initial reasoning,
Page 22
there are all these other arguments that have not
been addressed by anyone that have to be addressed.
And we can’t just go and start a new arbitration
because there are time limits that have long since
expired.
And so it would be a -- I think a very problematic
due process issue if those arguments somehow
disappeared just because he didn’t have to reach
them the first go around.

82422 • SCHULTE • APPENDIX B

AL 3/16/20

35a
So, again, I hope we’ve convinced you that the
arbitrator’s award should be reinstated on his own
terms. But absent that, I think remand is the only
appropriate disposition. There’s no authority out
there saying that remand is improper in this
situation and we’ve cited numerous cases that
have done it and, in fact, is very routine.
If there are no further questions, thank you very
much.
JUDGE LIVINGSTON:
take it under submission.

Thank you, both. We’ll

(Whereupon, this hearing concluded)
Page 23
CERTIFICATION
I, Sherri L. Breach, CERT*D-397, certified that
the foregoing transcript is a true and accurate
record of the proceedings.
/s/ Sherri L. Breach
Sherri L. Breach
AAERT Certified Electronic Reporter & Transcriber
CERT*D-397
Date: March 2, 2018

82422 • SCHULTE • APPENDIX B

AL 3/16/20

36a
Appendix C
UNITED STATES DISTRICT COURT
S OUTHERN D ISTRICT OF N EW Y ORK
[STAMP]
USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #: ______________
DATE FILED: 3/27/17

__________
16-CV-2408 (VEC)

__________
T HE N ATIONAL R ETIREMENT F UND
AND T HE B OARD OF T RUSTEES OF
T HE N ATIONAL R ETIREMENT F UND , each on
behalf of the Legacy Plan of the National
Retirement Fund,
Plaintiffs,
—v.—
M ETZ C ULINARY M ANAGEMENT , I NC .,
Defendant.

__________

82422 • SCHULTE • APPENDIX C

AL 3/17/20

37a
MEMORANDUM OPINION & ORDER
VALERIE CAPRONI, United States District Judge:
Plaintiffs, the National Retirement Fund and the
Board of Trustees of the National Retirement Fund
(the “Trustees,” and together with the National
Retirement Fund, the “Fund”), each on behalf of the
Legacy Plan of the National Retirement Fund (“the
“Plan”), bring this action against the Defendant,
Metz Culinary Management, Inc. (“Metz”), pursuant
to Sections 4221(b)(2) and 4301 of the Employee
Retirement Income Security Act of 1974 (“ERISA”),
as amended, 29 U.S.C. §§ 1401(b)(2), 1451, to modify
or vacate the arbitration award issued by Arbitrator
Ira F. Jaffe in Metz Culinary Management, Inc. and
National Retirement Fund, American Arbitration
Association (“AAA”) Case No. 01-14-0002-2075 (the
“Arbitration”) on March 28, 2016 (the “Final Award”).
Metz has cross moved to confirm the Final Award.
For the following reasons, the Fund’s motion to
vacate the Final Award is GRANTED, and Metz’s
motion to confirm the Final Award is DENIED.
BACKGROUND1
I.

Statutory Background Regarding With drawal Liability

Among its several goals, ERISA “was designed to
ensure that employees and their beneficiaries would
not be deprived of anticipated retirement benefits by
1

The Court cites to the parties’ briefs as the following:
the Fund’s Memorandum of Law in Support of Motion to
Vacate Or Modify the Arbitration Award (Dkt. 19) is “Pls.
Mem.;” Metz’s Memorandum of Law in Opposition to
Plaintiffs’ Motion to Vacate or Modify Arbitration Award

82422 • SCHULTE • APPENDIX C

AL 3/17/20

38a
the termination of pension plans before sufficient
funds have been accumulated in the plans.” Connolly
v. Pension Benefit Guar. Corp., 475 U.S. 211, 214
(1986) (quotation marks and citation omitted). “One
type of pension plan regulated by ERISA is the
multiemployer pension plan, in which multiple
employers pool contributions into a single fund that
pays benefits to covered retirees who spent a certain
amount of time working for one or more of the
contributing employers.” Trs. of Local 138 Pension
Tr. Fund v. F.W. Honerkamp Co. Inc., 692 F.3d 127,
129 (2d Cir. 2012). Although multiemployer plans
have many benefits, such as allowing employers to
share the costs and risks inherent in the
administration of pension plans, id.,
[a] key problem of ongoing multiemployer
plans, especially in declining industries, is
the problem of employer withdrawal.
Employer withdrawals reduce a plan’s contribution base. This pushes the contribution
rate for remaining employers to higher and
higher levels in order to fund past service
liabilities, including liabilities generated by
employers no longer participating in the
plan, so-called inherited liabilities. The
rising costs may encourage—or force—
further withdrawals, thereby increasing the
inherited liabilities to be funded by an everAnd in Support of its Motion to Enforce Arbitration Award
(Dkt. 33) is “Def. Opp.;” the Fund’s Opposition to Defendant’s
Motion for Judgment on the Pleadings And Reply in Support
of Plaintiffs’ Motion to Vacate or Modify Arbitration Award
(Dkt. 36) is “Pls. Reply;” and Metz’s Reply Memorandum of
Law in Further Support of its Motion to Enforce Arbitration
Award (Dkt. 40) is “Def. Reply.”

82422 • SCHULTE • APPENDIX C

AL 3/17/20

39a
decreasing contribution base. This vicious
downward spiral may continue until it is no
longer reasonable or possible for the pension
plan to continue.
Id. (quoting Pension Benefit Guar. Corp. v. R.A. Gray
& Co., 467 U.S. 717, 722 n. 2 (1984)).
In order to address this problem, Congress
amended ERISA by enacting the Multiemployer
Pension Plan Amendments Act of 1980 (“the
MPPAA), Pub. L. No. 96–364, 94 Stat. 1208 (codified
as amended in scattered sections of Titles 26 and 29
of the United States Code). Id. Pursuant to the
MPPAA, “[i]f an employer withdraws from a
multiemployer plan . . . the employer is liable to the
plan in the amount determined under this part to be
the withdrawal liability.” 29 U.S.C. § 1381(a).
“Withdrawal liability is the withdrawing employer’s
proportionate share of the pension plan’s unfunded
vested benefits.” Trs. of Local 138 Pension Tr. Fund
v. F.W. Honerkamp Co. Inc., 692 F.3d at 130; see also
29 U.S.C. §§ 1381, 1391. Unfunded vested benefits
are “calculated as the difference between the present
value of vested benefits and the current value of the
plan’s assets.” Pension Benefit Guar. Corp. v. R.A.
Gray & Co., 467 U.S. at 725 (citing 29 U.S.C. §§ 1381,
1391). In other words, unfunded vested benefits
reflect a plan’s underfunding in light of its
commitment to pay benefits to plan participants in
the future. The calculation of an employer’s
withdrawal liability thus requires the allocation of a
plan’s unfunded vested benefits among the plan’s
contributing employers. Combs v. Classic Coal Corp.,
931 F.2d 96, 98 (D.C. Cir. 1991). Section 4211 of
ERISA allows a plan to choose one of four identified
allocation methods or to develop its own method,

82422 • SCHULTE • APPENDIX C

AL 3/17/20

40a
subject to approval by the Pension Benefit Guaranty
Corporation (“PBGC”). 29 U.S.C. § 1391. Withdrawal
liability is required to be calculated “not as of the day
of withdrawal, but as of the last day of the plan year
preceding the year during which the employer
withdrew.” Milwaukee Brewery Workers’ Pension
Plan v. Joseph Schlitz Brewing Co., 513 U.S. 414, 418
(1995) (citing 29 U.S.C. §§ 1391(b)(2)(A)(ii),
(b)(2)(E)(i), (c)(2)(C)(i), (c)(3)(A), and (c)(4)(A)). The
“last day of the plan year preceding the year during
which the employer withdrew” will hereafter be
referred to as “the Measurement Date.”
In order to determine a withdrawing employer’s
withdrawal liability, the plan’s actuary must first
calculate the plan’s unfunded vested benefits; to do
so, the actuary must estimate the present value of
the plan’s vested benefits. Combs v. Classic Coal
Corp., 931 F.2d at 98. The actuary makes certain
assumptions in order to estimate the present value of
the plan’s vested benefits, including the interest rate
necessary to discount the liability for future benefit
payments. Id; Masters, Mates & Pilots Pension Plan
v. USX Corp., 900 F.2d 727, 733 (4th Cir. 1990)
(explaining that to “calculate the present value of the
vested benefits that are to be paid out in the future,”
“[a]n interest rate, or rate of return, is applied in
order to determine what present amount of investment will yield the future amounts required to
satisfy those vested benefits”); In re HNRC
Dissolution Co., 396 B.R. 461, 473 (B.A.P. 6th Cir.
2008) (“The calculation of the ‘present value’ of
vested benefits also requires the plan’s actuary to
discount the future stream of benefit payments at an
appropriate interest.”). Although there are many
actuarial assumptions necessary to calculate

82422 • SCHULTE • APPENDIX C

AL 3/17/20

41a
withdrawal liability, only the interest rate
assumption is at issue in this case. Relevant to this
case, “[i]ncreasing the interest rate assumption
decreases the employer’s withdrawal liability”—and
vice versa. Combs v. Classic Coal Corp., 931 F.2d at
98; see also Masters, Mates & Pilots Pension Plan v.
USX Corp., 900 F.2d at 733. ERISA does not dictate
the interest rate. Instead, ERISA Section 4213(a)
requires withdrawal liability to be based on
“reasonable” actuarial assumptions and methods,
“taking into account the experience of the plan and
reasonable expectations,” and to be “the actuary’s
best estimate of anticipated experience under the
plan.” 29 U.S.C. § 1393(a).2
II. Factual Background
A. The Parties
The Fund is a Taft-Harley trust fund, established
and maintained pursuant to Section 302(c)(5) of the
Labor Management Relations Act, 29 U.S.C. §
186(c)(5), with trustees equally divided between labor
organizations currently and formerly affiliated with
UNITED HERE and Workers United and employers
that contribute to the Fund. Am. Compl. ¶ 4 (Dkt. 8).
The Plan is a multiemployer plan within the
meaning of Section 3(37) of ERISA, 29 U.S.C. §
1002(37). Id. ¶ 6.3 Metz participated in the Fund as a
2

Section 4213(a)(1) contemplated that PBGC may
prescribe actuarial assumptions by regulation, but it has not
done so to date. Pls. Mem. 9 n.8.
3

As of January 1, 2013, the Plan had over 412,000 active,
terminated, and retired participants. Sabatini Decl. Ex. A, at 6
(ECF pagination) (Dkt. 20-1). Prior to January 1, 2015, the Plan
was known as the Pension Plan of the National Retirement
Fund. Am. Compl. ¶ 7. The Fund, through its trustees,

82422 • SCHULTE • APPENDIX C

AL 3/17/20

42a
contributing employer, meaning it made contributions to the Fund to provide pensions to its employees
in accordance with the governing collective
bargaining agreements. Answer to Am Compl. Ex. B
(“Stip.”) ¶ 2 (Dkt. 16-1).4
B. The Fund’s Selection of an Interest
Rate Assumption for Withdrawal
Liability for Plan Years 2013 and 2014
The Fund’s plan year begins on January 1 and ends
on December 31 (the “Plan Year”). Am. Compl. ¶ 12.
Accordingly, under the Plan, the Measurement Date
for withdrawal liability for a given year is December
31 of the prior year. As of December 31, 2012, Buck
Consultants (“Buck”) was, and had been for years, the
Fund’s actuary. Id. ¶¶ 14-15; Stip. ¶ 7. Buck’s interest
rate assumption for the 2013 Plan Year for
calculating withdrawal liability was 7.25%. Am.
Compl. ¶ 15. Thus, the withdrawal liability for any
employer that withdrew from the Plan during 2013
would be calculated using a discount rate of 7.25%.
In October 2013, the Fund selected Horizon
Actuarial Services LLC (“Horizon”) to replace Buck
as the Fund’s actuary. Id. ¶ 13. On June 5, 2014,
Horizon informed the Fund’s trustees that Horizon
would use a PBGC rate as its interest rate
assumption when it calculated withdrawal liability
for Plan participants that withdrew on or after
sponsors and administers the Plan. Id. ¶ 5. The trustees are
fiduciaries of the Fund and the Plan within the meaning of
Section 3(21)(A) of ERISA, 29 U.S.C. § 1002(21)(A). Id. ¶ 9.
4

Metz is an employer within the meaning of Section 3(5)
of ERISA, 29 U.S.C. § 1002(5); it is engaged in commerce, and
its activities affect commerce within the meaning of Sections
3(11)-(12) of ERISA, 29 U.S.C.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

43a
January 1, 2014. Id. ¶ 18. On October 3, 2014,
Horizon sent a memorandum to the Fund’s trustees
explaining its decision to select the PBGC’s interest
rate assumption and the impact of the change on
withdrawal liability. Stip. ¶ 12; Litvin Decl. Ex. F
(Dkt. 32-1). The PBGC rate selected by Horizon was
3% as applied to the first twenty years of unfunded
vested benefits and 3.31% thereafter. Am. Compl. Ex.
B (“Interim Award”), at 4 (Dkt. 8-2); Litvin Decl. Ex.
F, at 1. Because the interest rate assumption
decreased from Plan Year 2013 to Plan Year 2014,
withdrawal liability for withdrawing employers
increased from Plan Year 2013 to Plan Year 2014. It
is undisputed that the Fund was in dire financial
circumstances in the time frame relevant to this case,
leading it to freeze the accrual of benefits as of
December 31, 2013. Stip. ¶¶ 16-18. The Fund did not
provide any advance written notice in Plan Year
2014 to contributing employers regarding the
interest rate assumption change. Id. ¶ 19.
Although the Fund selected Horizon to replace
Buck as its actuary in October 2013, Buck continued
to perform some work for the Fund related to Plan
Year 2013. Specifically, in November 2013, Buck
completed and issued the Actuarial Valuation Report
for the 2013 Plan Year. Id. ¶¶ 7, 13; Litvin Decl. Ex.
G (Dkt. 32-2). On November 6, 2014, Buck completed
and issued the Schedule MB for the Fund’s Form
5500 for Plan Year 2013. Stip. ¶ 7; Litvin Decl. Ex. H
(Dkt. 32-3).5
5

The Department of Labor, PBGC, and IRS require
plan sponsors to submit Form 5500 to satisfy annual reporting requirements under ERISA and the Internal Revenue
Code. Form 5500 Corner, IRS, https://www.irs.gov/retire
ment-plans/form-5500-corner (last visited March 23, 2017).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

44a
C. Metz’s Withdrawal from the Plan
Metz withdrew from the Fund on May 16, 2014.
Am. Compl. ¶ 17. That withdrawal triggered Metz’s
obligation to pay withdrawal liability, which would
be calculated as of December 31, 2013. Def. Opp. 5.
On June 16, 2014, the Fund sent Metz a notice and
demand letter for the payment of withdrawal
liability. Am. Compl. ¶ 19. In that letter, the Fund
assessed Metz an estimated withdrawal liability of
$954,821, payable in installments. Id. ¶ 20. On
December 26, 2014, the Fund issued a revised
withdrawal liability assessment to Metz for $997,734,
payable in installments. Id. ¶ 21.
D. The Arbitration
On December 16, 2014, Metz filed a demand for
arbitration against the Fund with the AAA in order
to challenge the Fund’s withdrawal liability
assessment. Id. ¶ 22. The AAA appointed Ira F. Jaffe,
Esq. (the “Arbitrator”) to serve as arbitrator. Id. ¶ 23.
The Fund and Metz agreed that the Arbitrator would
resolve a preliminary issue regarding the interest
rate assumption used by the Fund to calculate Metz’s
withdrawal liability and that he would do so based
The Court may take judicial notice of this public
information on the IRS’s website pursuant to Federal Rule of
Evidence 201. See Fernandez v. Zoni Language Centers, Inc.,
No. 15-CV-6066 (PKC), 2016 WL 2903274, at *3 (S.D.N.Y.
May 18, 2016) (“Courts may also take judicial notice of
information contained on websites where ‘the authenticity of
the site has not been questioned.’” (quoting Hotel Emps. &
Rest. Emps. Union, Local 100 v. City of N.Y. Dep’t of Parks &
Recreation, 311 F.3d 534, 549 (2d Cir. 2002))); Wells Fargo
Bank, N.A. v. Wrights Mill Holdings, LLC, 127 F. Supp. 3d
156, 167 (S.D.N.Y. 2015) (taking judicial notice of information
publicly available on an internet database) (citing cases).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

45a
solely on written stipulations and briefing. Interim
Award 1-2. Accordingly, the parties did not conduct
discovery except for limited document requests by
Metz. Am. Compl. ¶ 24.
On February 22, 2016, the Arbitrator issued an
Interim Award, holding that the Fund improperly
used the PBGC rate to calculate Metz’s withdrawal
liability. Id. ¶ 25; Interim Award 20. According to the
Arbitrator, because there was no evidence that Buck
or Horizon took any action on or before the
Measurement Date to change the interest rate
assumption, the 7.25% interest rate assumption that
indisputably had been in effect for Plan Year 2013
continued as the interest rate assumption for Plan
Year 2014. Interim Award 15-16, 19. The Arbitrator
explicitly rejected the Fund’s position that the Fund’s
actuary had made no interest rate assumption as of
December 31, 2013. Id. at 16. In doing so, the
Arbitrator concluded that “[a]bsent some change by
the Fund actuaries, the existing assumptions and
method remained in place as of December 31, 2013.”
Id. 6 The Arbitrator then held that Horizon had
improperly retroactively changed the withdrawal
liability interest rate assumption in violation of
ERISA and PBGC opinion letters. Id. at 11-16. The
Arbitrator made clear that it would have been
permissible for the actuary to have calculated
unfunded vested benefits after the Measurement
Date, but the actuary could only rely on assumptions
and methods “that were actually adopted and in
6

See also Interim Award 17 (“In the absence of some
action by the Fund Actuary changing the interest rate or
other actuarial assumptions prior to the end of a Plan Year,
the interest rate and assumptions that were in effect during
that Plan Year continued unchanged.”) (emphasis added).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

46a
effect as of December 31, 2013.” Id. at 17. Because,
according to the Arbitrator, the 7.25% withdrawal
liability interest rate assumption was in effect as of
the Measurement Date, the actuary was required to
use that rate when calculating Metz’s withdrawal
liability. Id. at 15-17, 19.
In his Interim Award, the Arbitrator directed the
Fund to recalculate Metz’s withdrawal liability
“using the assumptions and methods that were in
effect as of December 31, 2013.” Id. 19; Am. Compl.
¶ 26. On March 7, 2016, the Fund provided Metz an
updated withdrawal liability assessment using the
7.25% withdrawal liability interest rate assumption
from Plan Year 2013. Am. Compl. ¶ 27. The revised
withdrawal liability assessment was approximately
$250,000, see Answer to Am Compl., Ex. A, at 1 (Dkt.
16-1), and Metz did not object to the revised
assessment, Am. Compl. ¶ 28. On March 28, 2016,
the Arbitrator issued his Final Award, affirming the
revised calculation and converting the Interim Award
to a final award. Id. ¶¶ 29-30; id. Ex. A. On March 31,
2016, the Fund initiated this action in order to vacate
or modify the Final Award.
DISCUSSION
The principal issue before this Court is whether
the Arbitrator correctly decided that the Fund
violated ERISA by selecting the interest rate
assumption for withdrawal liability for the 2014 Plan
Year after the Measurement Date. The Arbitrator
reached his conclusion by reframing the issue. The
Arbitrator did not ultimately conclude that the Fund
violated ERISA because its actuary selected a
withdrawal liability interest rate assumption for the

82422 • SCHULTE • APPENDIX C

AL 3/17/20

47a
2014 Plan Year after the Measurement Date.
Instead, the Arbitrator concluded that the Fund
violated ERISA because its actuary retroactively
changed the interest rate assumption for the 2014
Plan Year after the Measurement Date. The
Arbitrator’s conclusion hinged on his determination
that the existing interest rate assumption for the
2013 Plan Year became the interest rate assumption
for the 2014 Plan Year because the Fund’s actuary
did not affirmatively change the interest rate
assumption by the Measurement Date.
The Court rejects the Arbitrator’s premise as
inconsistent with ERISA—the withdrawal liability
interest rate assumption for the preceding plan year
cannot become the interest rate assumption for the
following plan year by inertia. Nor does ERISA
prohibit a plan’s actuary from selecting the
withdrawal liability interest rate assumption after
the Measurement Date. Accordingly, as explained
more fully below, the Arbitrator’s Final Award is
vacated.
I.

The Court Reviews the Arbitration Award
De Novo

The parties dispute whether a de novo standard of
review or a rebuttable presumption of correctness
applies to resolve their cross motions to confirm and
vacate the Final Award. In a dispute regarding
withdrawal liability under ERISA, courts review de
novo the legal conclusions of the arbitrator. 666
Drug, Inc. v. Tr. of 1199 SEIU Health Care Emps.
Pension Fund, 571 F. App’x 51, 52 (2d Cir. 2014) (per
curiam); HOP Energy, L.L.C. v. Local 553 Pension
Fund, 678 F.3d 158, 160 (2d Cir. 2012). As to the
review of factual findings, ERISA, as amended by the

82422 • SCHULTE • APPENDIX C

AL 3/17/20

48a
MPPAA, provides that “there shall be a presumption,
rebuttable only by a clear preponderance of the
evidence, that the findings of fact made by the
arbitrator were correct.” 29 U.S.C. § 1401(c). The
statutory framework does not expressly mandate a
standard of review for mixed questions of law and
fact. Chicago Truck Drivers, Helpers & Warehouse
Workers Union (Indep.) Pension Fund v. Louis Zahn
Drug Co., 890 F.2d 1405, 1410 (7th Cir. 1989). The
Second Circuit has not resolved the issue, but courts
faced with the issue appear to adopt a clear error
standard of review. See 666 Drug, Inc. v. Tr. of 1199
SEIU Health Care Emps. Pension Fund, No. 12 CIV.
1251 (PAE), 2013 WL 4042614, at *5 (S.D.N.Y. Aug.
8, 2013) (collecting cases), aff’d, 571 F. App’x 51 (2d
Cir. 2014).
Metz argues that the Arbitrator’s determination
that the withdrawal liability interest rate
assumption for Plan Year 2013 carried over as the
interest rate assumption for Plan Year 2014 was a
factual finding based on the parties’ joint stipulation
of facts.7 Def. Opp. 11-15. The Fund argues that the
Arbitrator made a legal determination when it
decided that the existing assumptions continued from
one plan year to the next absent a change by the
actuary. Pls. Mem. 8. The Court agrees with the
Fund; the Arbitrator made a legal determination, not
a factual finding.
Whether the Fund’s actuary affirmatively adopted
a withdrawal liability interest rate assumption by
7

Metz argues in the alternative that whether the 2013
Plan Year withdrawal liability interest rate assumption
continued as the assumptive rate for the 2014 Plan Year is a
mixed question of law and fact. Def. Opp. 13 n.8.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

49a
the Measurement Date for the 2014 Plan Year is a
factual question. The parties do not dispute that
factual issue—they (and the Arbitrator) agree that
the actuary did not affirmatively adopt a withdrawal
liability interest rate assumption by December 31,
2013 for the 2014 Plan Year.8 Rather, they dispute
whether, because the actuary did not affirmatively
make assumptions on or before the Measurement
Date for the 2014 Plan Year, the assumptions that
were in place for the 2013 Plan Year became the
actuarial assumptions for the 2014 Plan Year by
default. Resolving this dispute requires a legal
determination under ERISA; the answer to this
question turns on the language of the statute.
Specifically, whether withdrawal liability assumptions
automatically carry over year-to-year in the absence
of an actuary’s affirmative adoption of different
assumptions depends on what ERISA requires of
actuaries when they select assumptions for with drawal liability calculations for a given plan year.
The Arbitrator himself framed as a legal conclusion
his determination that the 2013 Plan Year interest
rate assumption carried over to the 2014 Plan Year.
He based his conclusion on an interpretation of
ERISA, as amended by the MPPAA. According to the
Arbitrator, because the “MPPAA requires that the
assumptions and methods in effect on December 31,
2013, be used for calculating the Employer’s withdrawal liability,” “[a]bsent some change by the Fund
8

As discussed below in Section III, Metz appears to
argue that certain documents suggest that Buck intended
the 7.25% interest rate assumption for the 2013 Plan Year to
apply to the 2014 Plan Year, although Metz does not go so far
as to argue that Buck affirmatively adopted the 7.25%
interest rate for the 2014 Plan Year.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

50a
actuaries, the existing assumptions and method
remained in place as of December 31, 2013.” Interim
Award 16. Even Metz stated in its opening and reply
briefs submitted to the Arbitrator that the issue before
the Arbitrator was purely legal. Sabatini Decl.
Ex. B, at 2 (Dkt. 37-4) (“The issue presented is a
legal question of statutory interpretation. [T]his
preliminary issue does not present any questions
of fact or even mixed questions of fact and law”); id.
Ex. C, at 1 (Dkt. 37-5) (“The legal issue presented is a
dispositive legal issue in this arbitration
proceeding. . . . This briefing is in the nature of a
motion for summary judgment, under Rule 56 of the
F.R.C.P., based on the material facts to which the
parties have stipulated.”). Moreover, because the
parties stipulated to all the facts before the Arbitrator,
the Arbitrator’s conclusions were exclusively legal.9
TCG N.Y., Inc. v. City of White Plains, 305 F.3d 67, 75
(2d Cir. 2002) (“Because, as we have noted, the parties
stipulated to all facts, the district court’s conclusions
are exclusively conclusions of law that are reviewed de
novo.”); see also United Gen. Title Ins. Co. v.
Karanasos, No. 13-CV-7153 (JFB), 2014 WL 4388277,
at *5 (E.D.N.Y. Sept. 5, 2014) (collecting cases).
Accordingly, only legal conclusions are before the
Court, and the Court reviews them de novo.10
9

The parties filed some exhibits with the Arbitrator in
support of their stipulated facts, but the Arbitrator did not
appear to rely on those exhibits in concluding that the 2013
Plan Year interest rate assumption continued by default for
the 2014 Plan Year. He neither cited nor referred to the
exhibits in support of his conclusion (although he did refer to
them in the background portion of the Interim Award).
10

Even if the issue before the Court were a mixed
question of law and fact, Metz would ultimately fare no
better under a clear error standard of review.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

51a
II. Interest Rate Assumptions Do Not
Automatically Carry over Year-to-Year
under ERISA
The Arbitrator incorrectly held that under ERISA,
when an actuary fails affirmatively to adopt
assumptions for a given plan year to calculate withdrawal liability, the existing actuarial assumptions
from the preceding plan year remain in place by
default. ERISA Section 4213 precludes this approach.
As explained above, Section 4213 requires that
actuaries calculate withdrawal liability based on
“assumptions and methods which, in the aggregate,
are reasonable (taking into account the experience of
the plan and reasonable expectations) and which, in
combination, offer the actuary’s best estimate of
anticipated experience under the plan . . . .” 29 U.S.C.
§ 1393(a)(1). Thus, to satisfy Section 4213, actuaries
must take into account the full experience of the plan,
develop reasonable expectations, and ultimately
provide their best estimate of unfunded vested
benefits in light of the plan’s experience and the
actuary’s reasonable expectations. An actuary can
only do so by incorporating data from the entirety of
the most recent preceding plan year. In no universe is
carrying over assumptions from a prior plan year
without any examination or analysis as to their
continued viability and reasonableness an actuary’s
“best estimate.” Yet the Arbitrator concluded
precisely that. An actuary may ultimately conclude
that the prior plan year’s assumptions continue to be
reasonable in light of all of the available data, but she
must affirmatively reach that conclusion in order for
the assumptions to qualify as such. As addressed
more fully below, there is no evidence here that any
actuary analyzed and concluded that the 2013 Plan

82422 • SCHULTE • APPENDIX C

AL 3/17/20

52a
Year assumptions as applied to the 2014 Plan Year
were reasonable or were the actuary’s best estimate,
nor did the Arbitrator indicate that he was relying on
any such evidence or making any such assumptions.
A consequence of the Arbitrator’s holding would be
that actuarial assumptions would remain operative in
perpetuity sans input from the actuary; this is
entirely at odds with Section 4213. Section 4213 does
not allow stale assumptions from the preceding plan
year to roll over automatically—unlike wine,
actuarial assumptions do not improve with age.
The Arbitrator’s holding was also inconsistent with
Section 4211 of ERISA. The Arbitrator reasoned that
the 2013 Plan Year assumptions rolled over by
default for the 2014 Plan Year because ERISA
“requires that the assumptions and methods in effect
on December 31, 2013, be used for calculating the
Employer’s withdrawal liability.” Interim Award 16.
But that interpretation misconstrues ERISA Section
4211. ERISA does not provide that withdrawal
liability is to be calculated based on the assumptions
and methods “in effect” on the Measurement Date, as
the Arbitrator maintains. ERISA instead provides
that withdrawal liability must be calculated based on
the plan’s unfunded vested benefits “as of” the
Measurement Date. See Milwaukee Brewery Workers’
Pension Plan, 513 U.S. at 418 (citing ERISA Section
4211, 29 U.S.C. §§ 1391(b)(2)(A)(ii), (b)(2)(E)(i),
(c)(2)(C)(i), (c)(3)(A), and (c)(4)(A)).
“In effect” and “as of” are not the same. As the
Fund explains, the 2013 Plan Year withdrawal
liability interest rate assumption was in effect, i.e., in
force, 11 on December 31, 2013, for the purpose of
11

Oxford English Dictionary, https://en.oxforddiction
aries.com/definition/in_effect (last visited March 23, 2017).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

53a
calculating withdrawal liability for any employer who
withdrew anytime between January 1 and December
31, 2013. Pls. Mem. 9 n.7. The unfunded vested
benefits amount (and the interest rate assumption
necessary to calculate that amount) that was in effect
on December 31, 2013, for withdrawals occurring
during the 2013 Plan Year was, according to ERISA,
required to be calculated as of December 31, 2012,
meaning it incorporated data up through December
31, 2012. Similarly, ERISA requires the unfunded
vested benefits amount (and the interest rate
assumption necessary to calculate that amount) for
the 2014 Plan Year to be calculated as of December 31,
2013, meaning it must incorporate data up through
December 31, 2013. The unfunded vested benefits
amount (and the interest rate assumption necessary to
calculate that amount) applicable to the 2014 Plan
Year would then go in effect starting on January 1,
2014. Accordingly, “in effect” is the in force date, while
“as of” is the measurement date. The Arbitrator
incorrectly conflated the two. As explained above, the
withdrawal liability interest rate assumption in effect
on the Measurement Date is not applicable to the
upcoming plan year unless the actuary affirmatively
determines that the assumption, in combination with
her other assumptions, is reasonable and her best
estimate of anticipated experience under the plan as of
the Measurement Date.12
12

The Arbitrator’s holding that withdrawal liability
assumptions continue to apply year after year until
affirmatively changed by the actuary is also inconsistent
with the professional standards governing actuaries.
Because ERISA Section 4213 provides for a reasonableness
standard, “it would make sense to judge the reasonableness
of a method [or assumption]” and the timing of those
decisions—“by reference to what the actuarial profession

82422 • SCHULTE • APPENDIX C

AL 3/17/20

54a
III. There Is No Evidence that the Actuary
Intended the 2013 Plan Year Withdrawal
Liability Interest Rate Assumption to Apply
to the 2014 Plan Year
Regardless of whether the Arbitrator’s legal
conclusion was correct that the 2013 Plan Year
assumptions carried over by default to the 2014 Plan
Year, Metz argues that the factual record supports a
finding that the Fund (or at least its actuaries)
initially intended the withdrawal liability interest
rate assumption for the 2013 Plan Year to continue
as an assumption for the 2014 Plan Year—an
argument that Metz did not make during arbitration.
considers to be within the scope of professional acceptability
in making an unfunded liability calculation.” Concrete Pipe
& Prod. of Cal., Inc. v. Constr. Laborers Pension Tr. for S.
Cal., 508 U.S. 602, 635 (1993). Actuarial Standard of
Practice 27 (“ASOP 27”) provides, in relevant part, that
“[t]he economic assumptions selected to measure pension
obligations should reflect the actuary’s knowledge base as of
the measurement date.” Actuarial Standards Board, Doc. No.
145, Actuarial Assumptions for Measuring Pension Obligations
§ 3.14.3 (Sept. 2007 rev. ed., Updated for Deviation Language
Effective May 1, 2011), available at http://www.actuarial
standardsboard.org/wp-content/uploads/2014/10/asop027_145.pdf
(last visited March 12, 2017). (There is a more recent version
of ASOP 27, but the version cited applies to Metz’s withdrawal as it is “effective for any actuarial valuation with a
measurement date on or after March 15, 2008.” ASOP 27 §
1.4). It seems clear, then, that as a matter of professional
standards, an actuary must consider data relevant to the
experiences of the plan up through the Measurement Date in
making her assumptions. The Court, however, makes no
determination regarding whether, if an actuary has not yet
selected her assumptions, she may in certain circumstances
take into account events occurring after the Measurement
Date in formulating her assumptions.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

55a
See Def. Opp. 15-16; Def. Reply 4-5.13 Metz points to:
(1) a particular stipulation of fact, (2) Buck’s
Actuarial Report for the 2013 Plan Year, (3) the
October 3, 2014, memorandum from Horizon to the
Fund’s trustees, and (4) the Schedule MB for the
Fund’s Form 5500 for the 2013 Plan Year. The record
does not support Metz’s argument.
Metz contends that the Fund effectively conceded
that the 2013 Plan Year assumptions remained
operative rate for the 2014 Plan Year because the
parties stipulated that the 2013 Plan Year interest
rate assumption was still “in use” on December 31,
2013. Def. Opp. 15; Def. Reply 3 n.1. That was not,
however, the fact to which the parties stipulated. The
parties stipulated that “Buck Consultants had used a
7.25 percent interest rate in 2013 to calculate
unfunded vested benefit liabilities and withdrawal
liability,” Stip. ¶ 8, which says nothing about what
the actuary intended with respect to assumptions
applicable to 2014 withdrawals.
Metz argues that Buck’s Actuarial Report for the
2013 Plan Year, issued in November 2013, shows
that Buck signaled that it viewed the 7.25% rate as
appropriate throughout 2013; specifically, Metz
points to a table in the report that lists the
withdrawal liability interest rate as 7.25% for
January 1, 2012 and January 1, 2013. Def. Opp. 16;
Def. Reply 4-5 (citing Litvin Decl. Ex. G, at 1514).
13

Metz also advanced this argument during oral
argument in this case. See Tr. 13:21-16:3, 24:25-26:4, 35: 2137:11, 44:18-45:1, 45:17-20 (Dkt. 44).
14

When citing to Exhibit G of the Litvin Declaration, the
Court cites to the ECF pagination because the Exhibit includes
more than one document, each with its own pagination.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

56a
Again, this evidence in no way indicates that Buck
decided that the 7.25% rate would apply to 2014 (a
period for which it was no longer the Fund’s actuary).
Moreover, Buck’s letter to the Fund’s trustees
transmitting the Report states unequivocally that
“[t]he unfunded vested benefits reported for
withdrawal liability purposes are measured as of
December 31, 2012,” Litvin Decl. Ex. G, at 1, and
numerous portions of the Report are consistent with
that statement, see id. at 6, 7, 11, 23.
Metz also claims that because Horizon stated in its
October 3, 2014 memorandum that it had decided “to
change” the withdrawal liability interest assumption,
Horizon understood that it was changing—i.e.,
revising—the 2014 Plan Year interest rate
assumption as opposed to establishing it for the first
time. Def. Mem. 16. Apart from the word “change,”
there is nothing in the memorandum to suggest that
Horizon believed it was changing interest rate
assumptions that were already in place for 2014. See
generally Litvin Decl. Ex. F. A more logical reading of
the memorandum is that Horizon is explaining that
it is adopting a withdrawal liability interest rate
assumption for 2014 that is different from the rate
that Buck had used in previous years. Indeed,
Horizon acknowledges in the memorandum that the
Fund has “historically” used a 7.25% interest rate
assumption, id. at 2, and thus seems to indicate that
it is breaking with that historic practice for 2014.
Finally, somehow, according to Metz, because Buck
signed the Schedule MB for the Form 5500 for the
2013 Plan Year in November 2014, and because the
Schedule MB provides that 7.25% is the interest rate
assumption for withdrawal liability, Buck must have

82422 • SCHULTE • APPENDIX C

AL 3/17/20

57a
believed that the 7.25% rate applied to the 2014 Plan
Year. Def. Opp. 15; Def. Reply 4-5. Once again, there
is nothing in the Schedule MB that indicates the
information therein applies to 2014, even if the Form
5500 was filed in 2014. In contrast, the Form 5500
and Schedule MB are labeled “2013” at the top, and
the heading states “for calendar plan year 2013.”
Litvin Decl. Ex. H, at 4. 15 It ultimately makes no
sense to claim that the Schedule MB proves that, in
November 2014, when Buck executed the Schedule
MB, 7.25% was the interest rate assumption for the
2014 Plan Year because, by that time, Metz had
already withdrawn from the Fund, and the Fund had
already demanded that Metz pay withdrawal liability
calculated in accordance with the lower PBGC
interest rate assumption that Horizon had adopted.
In sum, based on ERISA, the Court rejects the
Arbitrator’s presumption that, absent an affirmative
change by the Fund’s actuaries, the 2013 Plan Year
withdrawal liability interest rate assumption carried
over to become the 2014 Plan Year assumption. The
Court also rejects Metz’s factual argument that the
Fund had, in fact, adopted 7.25% as the interest rate
assumption for the 2014 Plan Year. The remaining
issue, therefore, is whether ERISA allows an actuary
to select an interest rate assumption after the
Measurement Date.

15

For clarity, when citing to Exhibit H of the Litvin
Declaration, the Court cites to the ECF pagination.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

58a
IV. ERISA Does Not Require Actuaries to Make
Withdrawal Liability Assumptions by the
Measurement Date
A. ERISA Section 4213 Does Not Require
Actuaries to Select Assumptions by the
Measurement Date
Nothing in ERISA Section 4213, which requires
that the assumptions in the aggregate represent the
actuary’s best estimate of anticipated experience
under the plan, requires an actuary to select her
assumptions by the Measurement Date. See 29
U.S.C. 1393(a)(1). ERISA Section 4213 is silent
regarding the timing of an actuary’s selection of her
assumptions. As explained above, the requirement in
ERISA Section 4211 that the actuary calculate
unfunded vested benefits “as of the end of the last
plan year” does not require the actuary to make her
assumptions by the Measurement Date but only
requires unfunded vested benefits to be measured as
of that date. Indeed, Metz does not argue that
Section 4213 itself requires actuaries to make their
assumptions by the Measurement Date; Metz
acknowledges that the statute is silent on the issue.
Considering just one hypothetical scenario
illustrates the potential significant pitfalls of the
Arbitrator’s view of the law. If actuaries were
required to select their withdrawal liability
assumptions by the Measurement Date, in some
instances at least, they would be unable to fulfill
Section 4213’s best estimate requirement. In order
for an actuary to make her assumptions, she must
first analyze data regarding the economy and
financial markets, the fund’s investments, and the
plan’s participants, among other things. To finalize

82422 • SCHULTE • APPENDIX C

AL 3/17/20

59a
her assumptions by the Measurement Date, she must
do all of that analysis before she has a full year of
data. If an economic or financial event took place
between Christmas and New Year’s Eve that would
significantly affect the fund’s future performance and
its ability to meet its future liabilities, the actuary
would not be able to take that data into account in
formulating its assumptions because there would not
be time to do so before the Measurement Date. If that
were the case, the actuary’s assumptions in the
aggregate might be neither reasonable nor the
actuary’s best estimate of anticipated experience
under the plan as of the Measurement Date, as
required by Sections 4213 and 4211.
Moreover, it seems logical that even in a normal
year (without any end-of-year financial surprises),
the information necessary to make thoughtful
withdrawal liability assumptions may not be entirely
available before the end of the plan year, and an
actuary needs time to collect, review, and synthesize
that information after it is all available. It is thus
easy—and reasonable— to imagine that an actuary
may not be ready to state her assumptions by the
Measurement Date. If the Arbitrator’s rule were
correct, this would be problematic for actuaries. On
the one hand, ERISA Sections 4213 and 4211 would
require them to make assumptions measured as of
the last day of the preceding plan year that are
reasonable and their best estimate. On the other
hand, the Arbitrator’s rule would require them to
adopt assumptions by the Measurement Date. An
actuary would unlikely be able to satisfy both
requirements as it would be difficult for an actuary to
make her best estimate without knowing all the
relevant data as of the Measurement Date. In short,

82422 • SCHULTE • APPENDIX C

AL 3/17/20

60a
the Arbitrator’s rule is inconsistent with the
actuary’s obligations under ERISA Section 4213.
Metz suggests that allowing actuaries to select
their assumptions at any point during the plan
year—instead of by the Measurement Date—invites
abuse by funds and their actuaries. According to
Metz, the Arbitrator was rightfully concerned about
bias because allowing actuaries to select assumptions
after the Measurement Date creates the opportunity
for a plan’s trustees to wait and see if there will be a
significant number of withdrawing employers and, if
so, then hire a new actuary who is willing to impose a
more draconian interest rate assumption on
withdrawing employers. Def. Opp. 23-25; Tr. 56:1757:6, 57:17-22.
But the posited bias problem is not a function of the
date on which the actuary sets the rate. See Tr. 57:716, 57:23-58:1. A fund’s trustees, knowing that the
fund is in a difficult financial situation, may at any
time remove one actuary in favor of another actuary
who appears to be more malleable. Indeed, in this
case, Horizon was hired in the fall of 2013 and could
have adopted the PBGC rate before the Measurement
Date. If Horizon had done so, Metz would not be able
to argue, as it does now, that the rate does not apply
to it because the rate would have been adopted before
December 31. Yet, Metz’s concern about bias would
remain. Under ERISA, a withdrawing employer’s
protection is (1) the professionalism of the actuary, see
Concrete Pipe & Prod. of California, Inc., 508 U.S. at
632 (1993) (“For a variety of reasons, this actuary is
not, like the trustees, vulnerable to suggestions of
bias or its appearance. Although plan sponsors
employ them, actuaries are trained professionals
subject to regulatory standards.”), and (2) the

82422 • SCHULTE • APPENDIX C

AL 3/17/20

61a
actuary’s statutory obligation to set the withdrawal
liability based on reasonable assumptions that reflect
the actuary’s best estimate. An actuary who is simply
bowing to pressure from a fund is violating her
ERISA mandate, regardless of the date on which her
interest rate assumptions are finalized.16 Providing
additional protections to employers, if warranted, is
best left to Congress.
B. ERISA Section 4214 Only Applies to
Plan Rules and Amendments, Not
Actuarial Assumptions
Finally, Metz argues that Section 4214, which
prohibits the retroactive application of plan rules or
amendments to withdrawing employers, also applies
to interest rate assumptions. See Def. Opp. 17-20.
ERISA Section 4214 provides in full:
(a) No plan rule or amendment adopted
after January 31, 1981, under [ERISA
Sections 4209 and 4211(c)] of this title
may be applied without the employer’s
consent with respect to liability for a
withdrawal or partial withdrawal which
occurred before the date on which the
rule or amendment was adopted.
(b) All plan rules and amendments
authorized under this part shall operate
16

Whether Horizon’s selection of the PBGC rate, in
combination with its other assumptions, was reasonable and
its best estimate is not before this Court. If Metz chooses to
arbitrate the issue, a factual record can be developed that
fleshes out Horizon’s thought processes. If Metz has evidence
to support its suggestion that Horizon bowed to pressure
from the Fund, the Court is confident an arbitrator will be
able to evaluate that evidence appropriately.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

62a
and be applied uniformly with respect to
each employer, except that special
provisions may be made to take into
account the creditworthiness of an
employer. The plan sponsor shall give
notice to all employers who have an
obligation to contribute under the plan
and to all employee organizations
representing employees covered under
the plan of any plan rules or amend ments adopted pursuant to this section.
29 U.S.C. § 1394. Metz claims that because Section
4214(a) references Section 4211(c),17 which addresses
“Amendment of multiemployer plan for determination
respecting amount of unfunded vested benefits
allocable to employer withdrawn from plan; factors
determining computation of amount,” 29 U.S.C. §
1391(c), and because the interest rate assumption is
a critical factor in the withdrawal liability
calculations, withdrawal liability assumptions
“logically fit” as a plan rule or amendment under
Section 4214. Def. Opp. 17-18. In addition, Metz
contends that Section 4214(b) applies to interest rate
assumptions because it incorporates Section 4213
when it states that it applies to “[a]ll plan rules and
amendment authorized under this part.” Id. at 19.
Metz points to Section 4214’s legislative history18 as
17

Metz admits that Section 4209 is irrelevant because
it addresses the role of the “de minimis” rule in calculating
withdrawal liability, which does not apply here.
18

Metz specifically quotes the following:
There are several situations where plans, in the
application of their own rules, either initially or by
amendment, are permitted a wide degree of latitude in
allocating and calculating withdrawal liability. In order

82422 • SCHULTE • APPENDIX C

AL 3/17/20

63a
support, claiming that Congress intended it to be
expansive and to bar the retroactive application not
only of plan rules relating to withdrawal liability but
also interest rate assumptions, which are “naturally
include[d]” therein. Id. at 18.
None of Metz’s arguments is persuasive. Although
Section 4214 may reference other ERISA provisions
relating to the calculation of withdrawal liability,
nowhere in Section 4214 or the legislative history
does it suggest that Section 4214 applies to actuarial
assumptions. The statute and the legislative history
exclusively use the terms “plan rule” or “amend ment,” and there is no language suggesting that
those terms should be interpreted broadly to include
actuarial assumptions. The statute does not define
“rule” or “amendment,” but the Court finds the
Fund’s explanation that a rule or amendment is
something voted on by the trustees, see Tr. 53:11-19,
is logical. Metz acknowledged in its opening brief to
the Arbitrator that Horizon’s adoption of the PBGC
rate was not a per se plan rule or amendment,
Sabatini Decl. Ex. B, at 10, and the parties do not
dispute that the trustees did not vote to adopt
Horizon’s assumptions.
Metz argues that plan rules need not be exclusively
plan document provisions, and because a fund’s
trustees are not wholly removed from the process of
to protect an employer from certain retroactive changes
in a plan’s rules, the bill prohibits the retroactive
application of a plan rule or amendment relating to
withdrawal liability from applying to a withdrawal
occurring before its date of adoption, unless the
employer consents to its earlier application.
H.R. Rep. No. 96-869, pt. 2, at 30 (1980).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

64a
selecting actuarial assumptions—namely, they have
a fiduciary duty to ensure that actuarial assumptions
are sound—the selection of an actuarial assumption
is as much a “plan rule” as any other trustee action.
Def. Reply. 6; Tr. 46:17-47:16. This approach,
however, would effectively turn any trustee action
into a plan rule or amendment. Metz advocates that
even if the selection of the interest rate assumption is
not actually a plan rule or amendment, Section 4214
should apply because Congress was concerned
generally “about changes that take place after a
withdrawal that could impact a[n] employer’s
withdrawal liability.” Tr. 51: 6-11. But, there is
nothing in the legislative history to suggest that
Section 4214 should be generalized in this way.
Congress’s concern, as reflected in the statute’s and
the legislative history’s exclusive reference to plan
rules and amendments, was about retroactive plan
rules and amendments having an impact on
withdrawal liability. Accordingly, the Court is not
persuaded that Section 4214’s prohibition on
retroactive application of plan rules or amendments
has any applicability to this dispute.19
Moreover, the distinction between Section 4214—
which explicitly prohibits the retroactive application
of plan rules or amendments—and Section 4213—
19

The Court’s analysis would be different if a plan rule
or amendment provided for a specific interest rate assumption
to be used. Because the trustees would have voted on that
assumption as part of the plan, Section 4214 would presumably
apply. See, e.g., Allen v. W. Point-Pepperell, Inc., 908 F.
Supp. 1209, 1213, 1222-23 (S.D.N.Y. 1995) (although Section
4214 did not apply because it was a single-employer plan, the
terms of this plan dictated a specific numeric interest rate
assumption).

82422 • SCHULTE • APPENDIX C

AL 3/17/20

65a
which is silent as to the timing of the actuary’s
selection of withdrawal liability assumptions—
further emphasizes that Section 4213 does not
prohibit the retroactive application of actuarial
assumptions within a given plan year, so long as they
are made as of the appropriate Measurement Date. If
Congress had wanted to preclude the retroactive
application of assumptions within a given plan year,
it could have done so explicitly, as it did in Section
4214 for plan rules and amendments.
C. ERISA Section 101(1) Is Consistent
with the Interpretation that ERISA
Does Not Require Actuaries to Select
Assumptions by the Measurement Date
The Court is sympathetic to employers’ concern, as
described above, that if an actuary can select her
assumptions at any point during a plan year and
apply them retroactively to withdrawing employers,
those employers may be unpleasantly surprised that
their withdrawal liability is significantly more than
expected. But ERISA Section 101(l) shows that this is
already the case. ERISA Section 101(1) governs
employer requests for withdrawal liability estimates
in a multiemployer pension plan. The withdrawal
liability estimate is measured as “if such employer
withdrew on the last day of the plan year preceding
the date of the request.” 29 U.S.C. § 1021(l)(1)(A).
Thus, under the Plan at issue here, on June 1, 2014,
an employer’s estimate of withdrawal liability would
be calculated as if the employer withdrew on
December 31, 2013, which, under ERISA Section
4211, would be calculated as of December 31, 2012—
the last day of the plan year preceding the plan year
in which the hypothetical withdrawal occurred.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

66a
Adopting the Arbitrator’s rule that actuaries must
choose assumptions by the Measurement Date would
not improve employers’ ability to gauge their
expectations regarding withdrawal liability
assessments; the estimates provided to them will
always be lagging as they are statutorily required to
be based on a prior year.
ERISA Section 101(l) also suggests that Congress
understood that the assumptions necessary to
calculate withdrawal liability may not be ready by
the first day of the plan year, in contrast with the
Arbitrator’s holding. If the Arbitrator were correct
that ERISA required actuaries to select their
assumptions by the Measurement Date, there would
have been no need for Congress to direct that
withdrawal liability estimates be calculated as if the
withdrawal occurred in the previous plan year.
Likewise, Section 101(l) would not have needed to
provide a 180-day window for a plan to give an
estimate of withdrawal liability to an employer. See
29 U.S.C. § 102(l)(2)(A).
Accordingly, Section 101(l) only makes sense if
there is no requirement that actuaries select all of
their assumptions by the Measurement Date.20
20

Metz and the Arbitrator point to PBGC Opinion
Letters Nos. 90-2 (Apr. 20, 1990) and 94-5 (Sept. 27, 1994)
and Roofers Local No. 30 Combined Pension Fund v. D.A.
Nolt, Inc., 719 F. Supp. 2d 530 (E.D. Pa. 2010), aff’d, 444 F.
App’x 571 (3d Cir. 2011), for the proposition that an actuary
cannot retroactively change a withdrawal liability interest
rate assumption after it has been selected. Def. Opp. 14;
Interim Award 12-14. Metz and the Arbitrator are correct,
but that proposition is not instructive here.
Those sources go no further than to provide that
withdrawal liability calculations made in a prior plan year may

82422 • SCHULTE • APPENDIX C

AL 3/17/20

67a
CONCLUSION
For the foregoing reasons, Plaintiffs’ motion to
vacate the arbitration award is GRANTED, and
Defendant’s motion to confirm the arbitration award
is DENIED. The arbitration award is thus
VACATED. The Court denies Metz’s request to
remand the case to arbitration because ERISA does
not provide it with the authority to do so given that
the Court has vacated an unambiguous award. See
29 U.S.C. § 1401(b); Hyle v. Doctor’s Assocs., Inc., 198
F.3d 368, 370 (2d Cir. 1999) (holding that “once
arbitrators have finally decided the submitted issues,
they are, in common-law parlance, ‘functus officio,’
meaning that their authority over those questions is
ended” (citation omitted) and holding that a “district
court can remand an award to the arbitrator for
clarification when an award is ambiguous”).
not be retroactively revised in light of an error discovered
after withdrawal liability has been calculated for a
withdrawing employer. See Roofers Local No. 30 Combined
Pension Fund, 719 F. Supp. 2d at 546-51 (confirming
arbitration award and holding that a fund’s attempt to
retroactively increase unfunded vested benefits for prior
plan years due to a later discovered mathematical error was
not permitted under ERISA); PBGC Opinion Letter No. 90-2
(“If the trustees discover an error in the calculation of the
plan’s unfunded vested benefits for a prior plan year, the
valuation for that prior year may not be changed retroactively.”); PBGC Opinion Letter No. 94-5 (“In Opinion
Letter 90-2, we were referring to errors relating to mistaken
or varying data or actuarial assmptions, rather than errors
that are purely mathematical or computational in nature.”).
But, that is not the scenario before this Court. At issue here
is whether an actuary must choose her withdrawal liability
assumptions by the Measurement Date or whether she may
choose them after the Measurement Date. The sources cited
by Metz and the Arbitrator do not touch on this question.

82422 • SCHULTE • APPENDIX C

AL 3/17/20

68a
The Clerk of Court is respectfully directed to close
docket entries 18 and 31 and to terminate the case.
SO ORDERED.
Date: March 27, 2017
New York, New York
/s/ Valerie Caproni
VALERIE CAPRONI
United States District Judge

82422 • SCHULTE • APPENDIX C

AL 3/17/20

69a
Appendix D
AMERICAN ARBITRATION ASSOCIATION

__________
AAA Case No. 01-14-0002-2075
Claim for Withdrawal Liability

__________
In the Matter of Arbitration:
M ETZ C ULINARY M ANAGEMENT , I NC .
—and—
N ATIONAL R ETIREMENT F UND

__________
Before: Ira F. Jaffe, Esq., Impartial Arbitrator
APPEARANCES:
For the Employer:
Robert Pavlin, Esq.
(Paisner Litvin LLP)
Kevin M. Williams, Esq.
(Ford & Harrison LLP)
For the Fund:
Ronald E. Richman, Esq.
Frank P. Sabatini, Esq.
(Schulte Ross & Zabel LLP)

82422 • SCHULTE • APPENDIX D

AL 3/18/20

70a
BACKGROUND
This arbitration arises pursuant to the Multiemployer Pension Plan Amendments Act (“MPPAA”)
amendments to the Employee Retirement Income
Security Act (“ERISA”), 29 U.S.C. §1380 et seq.,
and challenges an assessment by the National
Retirement Fund (“NRF” or the “Fund”) seeking
withdrawal liability from Metz Culinary Management, Inc. (“Metz” or the “Employer”) in the amount
of $997,734 payable in 70 quarterly installments of
$17,814.85, plus a final installment in the amount
of $16,233.36. The Employer and the Fund (collectively the “Parties”) agreed that a preliminary
issue would be presented for ruling on the basis of
written stipulations and briefing. The preliminary
issue relates to the interest rate assumption used
by the Fund to calculate the Employer’s withdrawal liability.
For purposes of this preliminary ruling, a number
of facts were stipulated to by the Parties. While all
of the Stipulated Facts are incorporated herein by
reference, this decision will summarize and restate
those deemed most significant in terms of the
ruling on the preliminary issue.
The Fund uses a modified version of the “rolling
five” method for determining withdrawal liability.
The preliminary issue relates to the interest rate
used by the Fund to calculate the Employer’s
withdrawal liability with respect to the “pool” for
2013.
The Employer permanently withdrew from the
Fund on or about May 16, 2014. As such, the
amount of withdrawal liability that it owed to the

82422 • SCHULTE • APPENDIX D

AL 3/18/20

71a
Fund was required to be calculated based upon the
unfunded vested benefit liabilities (“UVBLs”) of
the Fund as of December 31, 2013 – the end of the
Plan Year preceding that withdrawal.
The Fund utilized two interest rates to calculate
the Employer’s withdrawal liability. The funding
interest rate of 7.25% was used to calculate the
pools for Plan Years preceding 2013 (which for the
Employer were the 2007, 2008, 2009, 2010, 2011,
and 2012 Pools), but the interest rates used by the
PBGC for mass withdrawals (“PBGC rates”) were
used to calculate the pool for the 2013 Plan Year.
The change in the Fund’s UVBLs for 2013 was
$3,068,243,382 and the Employer’s calculated share
of that 2013 Pool amount was $877,824, or approximately 88% of the total withdrawal liability
assessed to the Employer. There was no dispute
that the large change in the Fund’s UVBLs for
2013 was due in significant part to the change in
interest rate assumption and that, if the 7.25%
funding interest rate assumption had been used to
calculate the 2013 Pool, then the Employer’s withdrawal liability would have been significantly lower.
The stipulated facts regarding the interest rate
assumption issue revealed that:
1) for a number of years, Buck Consultants
(“Buck”) served as the Plan Actuary;
2) on October 27, 2013, the Fund Trustees
approved the appointment of Horizon, Inc.
(“Horizon”), to serve as the Plan Actuary; an
October 27, 2013 email from Jim Brubaker,
Chairman of the Board of Trustees of the Fund, to
Stan Goldfarb at Horizon Actuarial, confirmed the
selection, but did not indicate the effective date of

82422 • SCHULTE • APPENDIX D

AL 3/18/20

72a
that appointment or discuss details of the transition
in terms of respective areas of responsibility from
Buck to Horizon;
3) Buck continued to complete certain work for
the Fund in the capacity as Plan Actuary even
after October 27, 2013, and prepared the Schedule
MB filed with the Form 5500 and the November
2013 Actuarial Valuation report that was prepared
for the 2013 Plan Year; the 2013 Actuarial
Valuation noted that the unfunded vested benefits
reported for withdrawal liability purposes were
measured as of December 31, 2012 and the valuation results presented were for the Plan Year
beginning January 1, 2013;
4) Buck used the funding interest rate assumption, then 7.25%, both for funding purposes and for
purposes of calculating UVBLs for use in assessing
withdrawal liability under MPPAA; Buck used the
7.25% interest rate assumption in the preparation
of the 2013 Actuarial Valuation; the 2013 Actuarial
Valuation contained an Actuarial Certification by
then Fund Actuary Stephen Siepman, FSA, EA.,
MAAA, of Buck Consultants, an Enrolled Actuary
under ERISA, noting that the interest rate and
mortality assumption were as prescribed under
Internal Revenue Code Section 412(l)(7) and each
of the other actuarial assumptions and methods
used in the valuation was “reasonable (taking into
account the experience of the Plan and reasonable
expectations), and offer our best estimate of
anticipated experience under the Plan”;
5) at a Board of Trustees meeting held on June
5, 2014, Horizon reviewed various interest rate
assumption scenarios for the Trustees; the

82422 • SCHULTE • APPENDIX D

AL 3/18/20

73a
discussions regarding those scenarios were redacted,
presumably on the basis of privilege; the minutes
reflected, however, that following the redacted
discussion Horizon informed the Trustees that, as
Fund Actuary, they would use the PBGC interest
rates to calculate withdrawal liability for all withdrawals that occurred on or after January 1, 2014;
PBGC interest rates change monthly and are based
on the rates insurance companies use to settle
liabilities; as of December 31, 2013, the PBGC
interest rates were 3.00% for the first 20 years and
3.31% thereafter;
6) Stan Goldfarb and Jonathan Feldman of
Horizon Actuarial Services, LLC, wrote to the
Fund Administrator and to Fund Counsel, by
memorandum dated October 3, 2014, discussing
the change in withdrawal liability interest rate
assumption; a copy of the memorandum is attached
to this decision as Appendix A; the reasonableness
of the change in interest rate assumption is not
presented as part of the preliminary issue for
determination; and
7) there is no evidence as to the precise date
when Horizon determined to change the interest
rate assumption for the NRF for withdrawal
liability purposes; the October 3, 2014 memorandum
indicated that Horizon intended to use the new
interest rate assumption with respect to the
calculation of withdrawal liability for employers
who withdrew on or after January 1, 2014; the
redacted minutes from the June 5, 2014 Trustees
meeting indicated that Horizon informed the
Trustees at that meeting that Horizon had decided
to use the PBGC rates for the calculation of

82422 • SCHULTE • APPENDIX D

AL 3/18/20

74a
withdrawal liability; and the May 16, 2014 initial
Demand letter in this case utilized an estimate of
the 2013 pool that was clearly determined with use
of either the PBGC rates or some other interest
rate assumption that varied significantly from the
7.25% rate that was used by Buck and was in
effect during 2013.
No evidence was introduced that reflected a
decision by Buck or Horizon on or before December
31, 2013, to change to the use of the funding
interest rate of 7.25% for purposes of calculating
the Fund’s UVBLs for withdrawal liability
purposes as of December 31, 2013.
CONTENTIONS OF THE EMPLOYER
MPPAA required that the Fund calculate the
Employer’s withdrawal liability on the basis of the
methods and assumptions in effect for the Fund as
of December 31, 2013. By utilizing an interest rate
assumption that was not adopted by the Fund
Actuary until some time in 2014, the assessment
was contrary to law and must be revised. The
Employer seeks that the Fund be required to
recalculate the withdrawal liability of the Employer
using the 7.25% interest assumption that was in
effect for the 2013 Plan Year. The effect of that
recalculation alone is estimated to reduce the
amount of withdrawal liability from approximately
$1,000,000 to approximately $225,000 to $250,000.
The preliminary issue does not address the
reasonableness of the Fund’s assumptions including,
but not limited to, the interest rate assumption.
Rather, the sole question presented by the prelimi-

82422 • SCHULTE • APPENDIX D

AL 3/18/20

75a
nary issue relates to the lawfulness of a retroactive
change in the interest rate assumption to a Plan
Year that ended prior to the adoption of that
assumption to determine the withdrawal liability
of an employer. Applicable guidance from the
Pension Benefit Guaranty Corporation (“PBGC”)
and arbitrators and courts make clear that such
retroactive changes are unlawful to the extent that
they increase the withdrawal liability of a withdrawn employer.
The Fund and the new actuary, Horizon, did not
change the interest rate assumption to determine
the UVBLs of the Fund for purposes of calculating
withdrawal liability until June 5, 2014, at the
earliest, and more likely not until October 3, 2014.
Applying that new interest rate assumption
retroactively to December 31, 2013, violates
MPPAA. In Roofers Local No. 30 Combined
Pension Fund v. D.A. Nolt, Inc., 719 F.Supp. 2d
530 (E.D. Pa. 2010), aff’d 444 Fed. Appx. 571 (3d
Cir. 2011), the District Court and Court of Appeals
upheld a determination by this Arbitrator [D.A.
Nolt and Roofers Local No. 30 Combined Fund,
AAA Case No. 14 621 00603 07 (2009) (Ira F. Jaffe,
Arbitrator)] that a pension fund was statutorily
precluded from increasing an employer’s withdrawal
liability by retroactively adjusting the UVBLs of
the fund based upon discovery and correction of a
programming error that had resulted in the alleged
understatement of the UVBLs of the fund during
the years relevant to the withdrawal liability
assessment in that case. Relying upon two PBGC
Opinion Letters, Opinion Letter No. 90-2 and
Opinion Letter No. 94-5, the Arbitrator found that

82422 • SCHULTE • APPENDIX D

AL 3/18/20

76a
an after-the-fact change in the UVBLs that would
increase the withdrawal liability of a withdrawn
employer was precluded by MPPAA which required
that the amount of liability be fixed on a “snap
shot” basis as of the end of the plan year that
preceded withdrawal without regard to future
events.
The Fund’s assertion in this case that the
change in interest rate assumption is not
retroactive is contrary to the views of the PBGC
and that of the Arbitrator and the court in Nolt
and should be rejected. This case is even more
compelling than the situations presented in Nolt
and in the cited PBGC Opinion Letters. There was
no evidence of mistake or calculational error.
Rather, there was simply a difference of actuarial
opinion. This is different from correction of a
calculational error that affects an individual
employer’s withdrawal liability which has been
found to be the kind of situation that may be
corrected by means of a revised assessment. The
change in actuarial assumptions, including the
interest rate assumption, affect the withdrawal
liability of all of the Fund’s employers and must be
made prospectively. It is no different than a
change in interest rate assumption that is based
upon consideration of post-snap shot date changes
in market interest rates or in the performance of
fund assets or other subsequent fund experience
that deviates significantly from projected or
assumed results.
No changes were made by the Fund to its prior
Actuarial Valuation Report or Form 5500 filed for
2013. The failure to have amended those documents

82422 • SCHULTE • APPENDIX D

AL 3/18/20

77a
to reflect the changed interest rate assumption is
an additional reason relied upon by the Arbitrator
and the courts in Nolt to find that the changed
information may not be utilized retroactively to
calculate the withdrawal liability of an employer.
Additionally, as held in Nolt, a decision by the
Fund Trustees to use a different basis after the
fact to assess withdrawal liability against one or
more employers implicates concerns about their
motivation that would render MPPAA’s pay now,
dispute later process subject to substantial due
process objections. Metz recognizes that a change
in interest rate assumption is not a plan rule or
plan amendment, but the proscription on applying
changed plan rules or plan amendments retroactively contained in Section 4214(a) of MPPAA,
29 U.S.C. §1394(a) is further evidence of Congressional intention that post-snap shot date changes
not be used to increase retroactively an employer’s
withdrawal liability over the objection of that
employer.
The Arbitrator is asked to issue an Interim
Decision and Award on the preliminary issue
finding that: 1) the NRF violated MPPAA when it
applied the changed 2014 interest rate assumption
to calculate Metz’s withdrawal liability as of
December 31, 2013; 2) the Fund should be directed
to recalculate the withdrawal liability of the
Employer using the 7.25% interest rate that was in
effect on December 31, 2013, for the 2013 pool; and
3) the Fund should be directed to explain the
reason why the 2013 pool amount increased from
the estimated initial Demand to the revised
Demand.

82422 • SCHULTE • APPENDIX D

AL 3/18/20

78a
CONTENTIONS OF THE FUND
The Employer’s position suffers from a fundamental flaw. The Fund Actuary did not change the
interest rate assumption and apply it retroactively
as claimed by the Employer. Rather, the Fund
froze benefit accruals as of December 31, 2013 and
changed Fund Actuaries in October 2013. Buck
completed the Actuarial Valuation as of January 1,
2013 and calculated the liabilities in that report
using the interest rates and assumptions in effect
as of December 31, 2012.
There is nothing retroactive about a fund
actuary adopting changed interest rate and other
assumptions after the end of a plan year and
applying those rates to the calculation of vested
benefit liabilities measured as of the end of the
preceding plan year. Because changes occur in
participant data, plan participation, plan assets,
plan provisions, or anticipated experience under
the plan, on or before the end of the plan year
preceding withdrawal, the plan actuary must wait
until all of that information is available before
determining those actuarial assumptions that
represent the actuary’s best estimate of anticipated
experience under the plan. As a consequence of the
need for current data upon which to base a change
in assumptions, it is necessarily the case that the
actuarial assumptions for a plan year, including a
plan year that is the year prior to that in which a
withdrawal occurs, will not be set until the
following plan year.
In this case, the Fund Actuary selected the
assumptions in 2014 that are used to calculate
withdrawal liability for a withdrawal occurring in

82422 • SCHULTE • APPENDIX D

AL 3/18/20

79a
2014 (which looks back to the UVBLs as of
December 31, 2013). To hold otherwise would mean
that an employer who withdraws from a multiemployer pension plan would have its withdrawal
liability calculated as of assumptions that were
last reviewed and selected as of the end of the
second plan year preceding the year of withdrawal.
The last time that the interest rate and other
actuarial assumptions were reviewed and certified
were those as of January 1, 2013, which are the
same as those in effect on December 31, 2012.
Further, the Employer’s approach would result
in different assumptions being used for employers
who withdrew early in the plan year from those
who withdrew later in the plan year (which the
interest rate assumptions for the end of the plan
year preceding withdrawal would be set). Nothing in
MPPAA provides for this difference in treatment.
The Employer’s belief that Buck, as the Fund
Actuary, established the interest rate assumption
to be used in calculating UVBLs for withdrawal
liability purposes as of December 31, 2013 is
factually in error. Buck selected a 7.25% interest
rate assumption for ongoing funding purposes as of
January 1, 2013, and a 7.25% interest rate assumption to value UVBLs for withdrawal liability as of
December 31, 2012, but never made any determination with respect to the interest rate as of
December 31, 2013 that was to be used to calculate
the UVBLs of the Fund for withdrawal liability
purposes as of that date. As has been recognized
by the Arbitrator and the courts, a fund actuary
may select different interest rate assumptions for
funding purposes and for withdrawal liability
purposes without violating MPPAA. See, e.g.,

82422 • SCHULTE • APPENDIX D

AL 3/18/20

80a
Embassy Industries and Local 365 UAW Pension
Trust Fund, AAA Case No. 13 621 01504 06 (2008)
(Ira F. Jaffe, Arbitrator). Thus, Buck’s selection of
an ongoing funding interest rate assumption for the
2013 Plan Year did not determine Horizon’s selection of an interest rate assumption for withdrawal
liability purposes. In fact, Actuarial Standard of
Practice (“ASOP”) No. 27 provides that: “The
economic assumptions selected to measure pension
obligations should reflect the actuary’s knowledge
base as of the measurement date.” ASOP No. 27
further defines measurement date to mean the
“date as of which the value of the pension
obligation is determined.”
ERISA Section 4213(a)(1) requires that the
interest rates and other actuarial assumptions
used to calculate withdrawal liability represent
the “best estimate” of the Fund Actuary of anticipated future experience of the plan. The “best
estimate” of the Fund Actuary, as of December 31,
2013, of the anticipated future experience of the
plan, was that made by Horizon and are the PBGC
rates, not the Fund’s funding interest rate assumption. Horizon did not change or alter anything.
Buck never made any best estimate of the interest
rate assumption as of December 31, 2013, for
purposes of calculating withdrawal liability. The
first such assumption was that made by Horizon in
2014. Moreover, even if the Trustees wished to do
so, they could not, consistent with MPPAA, select
an interest rate assumption that varied from
the Fund Actuary’s best estimate of anticipated
experience and there was no actuarial determination
that a 7.25% interest rate assumption was the best
estimate of either of the Fund Actuaries as of

82422 • SCHULTE • APPENDIX D

AL 3/18/20

81a
December 31, 2013. CTDU Pension Fund v. CPC
Logistics, Inc., No. 10 C 2314, 2011 U.S. Dist.
LEXIS 87315 (N.D. Ill., Aug. 8, 2011), aff’d 698
F.3d 346 (7th Cir. 2012) (upholding arbitration
award by this Arbitrator that invalidated the use
by the Trustees of an interest rate assumption that
differed from that which was the fund actuary’s
best estimate when calculating withdrawal liability).
For all of these reasons, the Fund’s position on
the preliminary issue should be upheld and the
Employer’s facial challenge to the use of the PBGC
rates should be rejected.
DISCUSSION AND OPINION
After careful consideration, I find that the
Employer’s position on the preliminary issue is
correct and that the Fund’s use of the PBGC rates
to calculate the UVBLs for 2013 violated MPPAA.
A summary of the principal reasons for this holding as well as discussion of the appropriate relief
follows.
There is no dispute that the Employer withdrew
from the Fund in 2014. Accordingly, under MPPAA,
the correct measurement date in this case for
calculating the Employer’s allocable share of UVBLs
under the relevant method for calculating withdrawal liability is December 31, 2013 – the end of
the Plan Year preceding the year of the Employer’s
withdrawal from the Fund. That liability has been
described as a “snapshot” in the sense that events
that occur post-December 31, 2013, may not affect
that liability. Thus, if during the period after
December 31, 2013, the performance of the Fund
with respect to its assets turns out to be significantly

82422 • SCHULTE • APPENDIX D

AL 3/18/20

82a
less or significantly more than what was projected
based upon the Fund’s assumptions, that fact
provides no basis to adjust the Employer’s withdrawal liability. See, e.g., Combs v. Classic Coal
Corporation, 931 F.2d 96 (D.C. Cir. 1991) (holding
that, on review of the reasonableness of the selected
fund actuarial assumptions, including the interest
rate assumption, the subsequent actual returns
experienced by the fund were irrelevant to whether
the selected interest rate assumption satisfied the
requirements of MPPAA, and reasoning that once
liability is determined as of the snapshot date it does
not change on the basis of subsequent experience).
Similarly, if the actual Fund experience in other
areas following the snap shot date deviate significantly from those that were assumed for that
period based upon the assumptions in place on the
snap shot date, then that actual future experience
cannot provide a basis for changing or calculating
differently the Fund’s allocable UVBLs as of the
snap shot measurement date.
In several Opinion Letters the PBGC has
discussed its view that subsequently discovered
evidence of error with respect to a prior plan year’s
UVBL determination may not be applied
retroactively when calculating the withdrawal
liability of an employer to the extent that doing so
would increase the withdrawal liability of that
employer. In PBGC Opinion Letter 90-2, the
Corporation stated that:
Fifth, we understand that for the 1988
plan year the plan’s enrolled actuary
has reallocated unfunded vested benefit
liability from December 31, 1979 through
December 31, 1987 on the basis of current

82422 • SCHULTE • APPENDIX D

AL 3/18/20

83a
information, some of which differs from
that used in prior years by reasons of
corrections to certain data, including
contribution and controlled group data.
You have asked whether this reallocation
affects employers that have previously
withdrawn, including those employers
that have paid or are currently paying
their withdrawal liability, and those
who are still in the process of contesting
their liability.
. . . If the trustees discover an error in
the calculation of the plan’s unfunded
vested benefits for a prior plan year, the
valuation for that prior year may not be
changed retroactively. Any necessary
correction of the plan’s unfunded vested
benefit liability should be reflected in
the valuation that revealed the earlier
error or, if the error was not discovered
in connection with a valuation, in the
first valuation following the discovery.
Any employer that withdraws in the
plan year following the plan year to
which the “corrected” valuation applies
would be affected by the correction, by
virtue of the operation of the statutory
allocation methods.
In PBGC Opinion Letter 94-5, the Corporation
responded to a request to clarify PBGC Opinion
Letter 90-2 to address a situation in which “a
computer program used to generate an actuarial
valuation was flawed so that the valuation did not
correctly reflect the plan’s actuarial assumptions”
and the “corrected calculations [achieved through

82422 • SCHULTE • APPENDIX D

AL 3/18/20

84a
corrected software] will result primarily in reduced
assessments” and “the trustees do not intend to
increase assessments even for the few employers
whose withdrawal liability was understated because
of the computer error.” A question was also presented as to whether the trustees could refund
withdrawal liability overpayment that resulted from
the error even though the affected employer(s) did
not, or could no longer, request review of the original
assessment. The PBGC held that:
In Opinion Letter 90-2, we were
referring to errors relating to mistaken
or varying date or actuarial assumptions,
rather than errors that are purely mathematical or computational in nature.
Moreover, we assumed that the Trustees
were considering additional assessments
for underpayments, rather than refunds
for overpayments, based on these errors.
The PBGC then held in Opinion Letter 94-5 that:
1) a plan sponsor was not required to refund a
withdrawal liability overpayment, but 2) such a
course of action was not precluded by Title IV of
ERISA so long as the refund did not violate the
exclusive benefit rule or the restrictions on repayments contained in Title I of ERISA and the
Internal Revenue Code.
In D.A. Nolt and Roofers Local No. 30 Combined
Fund, AAA Case No. 14 621 00603 07 (2009) (Ira F.
Jaffe, Arbitrator) these precedents were applied
and it was found that MPPAA barred the
application of assumptions that were changed by
the plan actuary in the year of withdrawal and
afterwards and applied retroactively so as to increase

82422 • SCHULTE • APPENDIX D

AL 3/18/20

85a
an employer’s withdrawal liability. In Nolt, unlike
the present case, there was no change in plan
actuary from the year preceding withdrawal to the
year in which withdrawal occurred. The arbitration
award was appealed and affirmed by the courts.
Roofers Local No. 30 Combined Pension Fund v.
D.A. Nolt, Inc., 719 F. Supp. 2d 530 (E.D. Pa.
2010), aff’d 444 Fed. Appx. 571, 2011 U.S. App.
LEXIS (3d Cir. 2011).
A similar challenge to a withdrawal liability
calculation also was raised in Embassy Industries
and Local 365 UAW Pension Trust Fund, AAA
Case No. 13 621 01504 06 (2008) (Ira F. Jaffe,
Arbitrator). In that case, while there was no change
in fund actuary, there was a change in the interest
rate assumption and several other assumptions,
made effective January 1, 2005. The UVBL calculation relevant to the employer’s withdrawal liability
focused upon the fund’s UVBLs as of December 31,
2004 – the end of the plan year preceding the
employer’s withdrawal from the fund. The fund
actuary testified that there was no difference
between the December 31 calculation of UVBLs
from the prior year and the January 1 calculation
of UVBLs from the immediately following year and
asserted that the changed assumptions applied to
the challenged withdrawal liability calculation; he
noted that his “best estimate” on January 1 would
be the same as his “best estimate” as of the prior
day. The changes in assumptions (interest rate,
mortality, and turnover) resulted in an increased
withdrawal liability assessment for Embassy
because the Fund’s UVBLs as of December 31,
2004 were higher using the 2005 assumptions than
would have been the case using the assumptions

82422 • SCHULTE • APPENDIX D

AL 3/18/20

86a
that were in effect on December 31, 2004. While the
impact upon the withdrawal liability assessment
attributable to the change in actuarial assumptions
made little difference as a practical matter in the
particular case in light of the Section 4219 payment schedule and 20-year cap, the objection to
the use of the changed actuarial assumptions was
sustained. In that case, I held that:
A calculation of the UVBLs on December
31, 2004, should properly have been made
with the assumptions that were in place
effective December 31, 2004, instead of
with changed assumptions that did not
become effective until the beginning of
the following plan year.
(Opinion at 30).
The IRS has also issued several rulings holding
that pension plans may file revised Schedule Bs
for the purpose of the retroactive correction of
material data errors as to underlying facts (e.g.,
census data, asset amounts, plan provisions, etc.)
which supported incorrect calculations made for
Funding Standard Account purposes, but that
retroactive changes based upon changed actuarial
assumptions or methods were impermissible. See
IRS Technical Advice Memorandum 8831003
(April 25, 1988); IRS Chief Counsel Advisory
200728001 (July 12, 2007); and IRS Private Letter
Ruling 2006390003.
The scheme established under MPPAA for
assessments of withdrawal liability allows for a
number of methods that allocate to withdrawn
employers the UVBLs of a fund as of the last day
of the plan year preceding the plan year in which

82422 • SCHULTE • APPENDIX D

AL 3/18/20

87a
withdrawal occurs. In this case, there is no dispute
that the withdrawal took place in 2014; that the
plan year is a calendar year; and that the relevant
measurement date for the 2013 pool was December
31, 2013. As of December 31, 2013, the record is
unclear as to whether Buck or Horizon was serving
as the Fund Actuary. Regardless, however, there
was no evidence of any action taken by either Buck
or Horizon on or before December 31, 2013 to
change the interest rate assumption that was to be
used for withdrawal liability purposes to value the
Fund’s UVBLs. While the record does not contain
the precise date on which that assumption was
changed, there is no dispute that Horizon did not
adopt the PBGC rates as the interest rate assumption for withdrawal liability purposes until some
time in 2014. The decision to apply that changed
assumption retroactively so as to increase the
withdrawal liability assessed to the Employer and
other employers who withdrew from the Fund
after December 31, 2013, was violative of MPPAA
and the Employer’s position in that regard with
respect to the preliminary issue is sustained.
The Fund’s assertion that the Fund Actuary had
not made any interest rate assumption determination as of December 31, 2013, for purposes of
calculating the Fund’s UVBLs for withdrawal
liability is rejected. MPPAA requires that the
assumptions and methods in effect on December
31, 2013, be used for calculating the Employer’s
withdrawal liability. Absent some change by the
Fund actuaries, the existing assumptions and
method remained in place as of December 31,
2013.

82422 • SCHULTE • APPENDIX D

AL 3/18/20

88a
The requirement that withdrawal liability be
calculated based upon the actuarial methods and
assumptions that were in place and in effect as of
the end of the Plan Year preceding withdrawal was
violated in this case by the Fund’s use of later
adopted actuarial assumptions and methods to
calculate the withdrawal liability of the Employer.
Although not necessary to the holding, it may not
be amiss to note that adoption of the approach
advocated by the Fund would also lead to serious
questions being raised in many cases about
whether the changed assumptions reflected the
best estimate of the fund actuary as of the end of
the Plan Year preceding withdrawal. The best
evidence of the fund actuary’s determination as to
the appropriate actuarial assumptions to be used
for the calculation of UVBLs and withdrawal
liability are those assumptions that were actually
in place and formally adopted as of that date. Any
actuarial analysis at a later point in time could not
properly ignore information that came to the
actuary’s attention after December 31, 2013, but
prior to the time of making the new determination
of assumptions and methods, including such
matters as the withdrawal of the Employer (or
others), changes in the Fund’s assets due to actual
investment performance, and changes (such as
changes in demographics, withdrawals from the
Fund, changes in the industry, or the results of
collective bargaining) that may affect the stability
of the Fund’s contribution base or the projected
future cost of providing vested benefits.
In the absence of some action by the Fund
Actuary changing the interest rate or other
actuarial assumptions prior to the end of a Plan

82422 • SCHULTE • APPENDIX D

AL 3/18/20

89a
Year, the interest rate and assumptions that were
in effect during that Plan Year continued unchanged.
The actual calculation of UVBLs may take place
after December 31, 2013, after the data for 2013
has been complete, but the assumptions and methods
used to calculate those UVBLs for purposes of withdrawal liability must be those that were actually
adopted and in effect as of December 31, 2013.
Were it otherwise, the selection of assumptions and
methods used for the calculation of withdrawal
liability would create significant opportunity for
bias and manipulation. Nothing would prevent funds,
after learning of the withdrawal of one or more
significant contributing employers, from attempting to influence actuaries to change methods or
assumptions based upon the changes to the fund’s
contribution base associated with those withdrawals
so that the UVBLs as of the end of the prior Plan
Year would be greatly increased and the withdrawing employer(s) assessed greater withdrawal liability
than would have been the case if the prior
assumptions and methods actually in place as of
the end of the prior Plan Year were used to
determine the UVBLs of the fund as of the end of
the prior Plan Year. Moreover, if the prior fund
actuary expressed reticence to change those methods
and assumptions (which represented the actuary’s
best estimate as of the prior Plan Year including
the last day of that Plan Year), then the trustees of
the fund could seek to potentially exercise influence
over the selection of the interest rate and other
assumptions and methods to serve the goal of
maximizing the collection of withdrawal liability
by seeking to replace the fund actuary and then, in
the course of interviewing potential replacements,

82422 • SCHULTE • APPENDIX D

AL 3/18/20

90a
explaining the preference of the trustees for the
use of different interest and other assumptions
and methods that would result in a higher UVBL
figure, hoping that such action may either cause
the existing fund actuary to change assumptions
and methods or alternatively lead to the hiring of a
new actuary who would be willing to adopt the
preferred changed assumptions and methods and
apply them retroactively to the end of the prior
Plan Year. The United States Supreme Court in
Concrete Pipe and Products of Southern California
v. Construction Laborers Pension Trust Fund for
Southern California, 508 U.S. 602 (1993) in
upholding the constitutionality of the Section 4221
review process, including the presumptions of
correctness, noted that there was no showing that
the assumptions and methods, including specifically
the interest rate assumption, was “so manipulable
as to create a significant opportunity for bias to
operate.” Id. at 633n.19 and accompanying text.
The Court also cited to Huber v. Casablanca
Industries, 916 F.2d 85 (3d Cir. 1990) upholding
an arbitration award in which the plan actuary’s
use of revised methods and assumptions to calculate
the relevant UVBLs were successfully questioned
based, in part, upon the fact that the revised
methods and assumptions were adopted to satisfy
the stated preference of the plan trustees for the
new methodology and assumptions. This potential
for bias to operate is particularly great if the
changed assumptions and methods relate only to
those used to calculate the UVBLs of the fund for
purposes of withdrawal liability and not for funding or other purposes (as appears to have been the
case in this matter).

82422 • SCHULTE • APPENDIX D

AL 3/18/20

91a
To the extent that the selection of assumptions
and methods is a decision ultimately made by the
Trustees, based upon the best estimate of the Fund
Actuary, the record reflects no action in this case
having been undertaken by the Trustees prior
to December 31, 2013, to change the actuarial
assumptions and methods used to calculate the
Fund’s UVBLs for withdrawal liability purposes.
In sum, I find that the Fund was required to use
the actuarial assumptions and methods in effect as
of the end of the Plan Year preceding withdrawal
when calculating the pool for the Plan Year that
preceded withdrawal and that the Fund’s decision
in this case to calculate that pool using changed
assumptions and methods adopted after the end of
the Plan Year preceding withdrawal violated
MPPAA. The Fund is directed to recalculate the
2013 pool using the assumptions and methods that
were in effect as of December 31, 2013.
After receipt of this interim ruling and the
Fund’s revised assessment calculation, the Parties
are to advise whether there are remaining issues
that require arbitral determination and a conference
call will be held to address the appropriate procedures for finalizing the Award in this matter.
INTERIM AWARD
The Fund improperly calculated the 2013 pool
and the Employer’s allocable share of that pool
when it used changed assumptions and methods
adopted for the first time in 2014 to retroactively
calculate the Fund’s unfunded vested benefit
liabilities as of December 31, 2013.

82422 • SCHULTE • APPENDIX D

AL 3/18/20

92a
The Fund is directed to recalculate the 2013 pool
using the assumptions and methods that were in
effect as of December 31, 2013, and revise the
withdrawal liability demand in this case to reflect
that changed calculation.
The Parties are to contact the Arbitrator once
the revised calculations have issued for the purpose
of determining whether there remain additional
issues that require arbitral determination, as well
as to address the procedures (if no additional
issues remain) by which this Interim Ruling is to
be finalized.
February 22, 2016
/s/ Ira F. Jaffe, Esq.
Ira F. Jaffe, Esq.
Impartial Arbitrator

82422 • SCHULTE • APPENDIX D

AL 3/18/20

93a
Appendix E
AMERICAN ARBITRATION ASSOCIATION

__________
AAA Case No. 01-14-0002-2075
Claim for Withdrawal Liability

__________
In the Matter of Arbitration:
M ETZ C ULINARY M ANAGEMENT , I NC .
—and—
N ATIONAL R ETIREMENT F UND

__________
Before: Ira F. Jaffe, Esq., Impartial Arbitrator
APPEARANCES:
For the Employer:
Robert Litvin, Esq.
(Paisner Litvin LLP)
Kevin M. Williams, Esq.
(Ford & Harrison LLP)
For the Fund:
Ronald E. Richman, Esq.
Frank P. Sabatini, Esq.
(Schulte Ross & Zabel LLP)

82422 • SCHULTE • APPENDIX E

AL 3/19/20

94a
FINAL AWARD
The Employer has confirmed that, other than
claims that only need to be decided should the
holding contained in the Interim Award be reversed,
there are no remaining issues for resolution in this
arbitration and no objections to the March 7, 2016
Recalculation of Withdrawal Liability.
Accordingly, the February 22, 2016 Interim Award
is hereby converted to a Final Award in this matter
and the March 7, 2016 Recalculation of Withdrawal
Liability for the Employer is affirmed.
March 28, 2016
/s/ Ira F. Jaffe, Esq.
Ira F. Jaffe, Esq.
Impartial Arbitrator

82422 • SCHULTE • APPENDIX E

AL 3/19/20

95a
Appendix F
UNITED STATES DISTRICT COURT
S OUTHERN D ISTRICT OF N EW Y ORK

__________
Case No.: 16-cv-2408 (VEC)

__________
T HE N ATIONAL R ETIREMENT F UND and
T HE B OARD OF T RUSTEES OF T HE
N ATIONAL R ETIREMENT F UND , each on
behalf of the Legacy Plan of the
National Retirement Fund,
Plaintiffs,
—against—
M ETZ C ULINARY M ANAGEMENT , I NC .,

__________

Defendant.

FIRST AMENDED COMPLAINT
Plaintiffs, the National Retirement Fund (the
“Fund”) and the Board of Trustees of the National
Retirement Fund (the “Trustees”), each on behalf of
the Legacy Plan of the National Retirement Fund
(the “Plan”), by their attorneys Schulte Roth & Zabel
LLP, as and for their first amended complaint
against defendant, Metz Culinary Management, Inc.
(“Metz”), respectfully allege as follows:

82422 • SCHULTE • APPENDIX F

AL 3/19/20

96a
NATURE OF ACTION
1. The Fund and the Trustees bring this action
pursuant to Sections 4221(b)(2) and 4301 of the
Employee Retirement Income Security Act of 1974,
as amended (“ERISA”), 29 U.S.C. §§ 1401(b)(2), 1451,
to modify and/or vacate the arbitration award issued
by Arbitrator Ira F. Jaffe in Metz Culinary
Management, Inc. and National Retirement Fund,
AAA Case No. 01-14-0002-2075 (the “Arbitration”),
on March 28, 2016 (the “Final Award”). A true and
correct copy of the Final Award is attached hereto as
Exhibit A.
JURISDICTION AND VENUE
2. This Court has jurisdiction over this action
pursuant to Sections 4221(b)(2), 4301(a), and 4301(c)
of ERISA, 29 U.S.C. §§ 1401(b)(2), 1451(a), 1451(c).
3. Venue is properly laid in this Court pursuant to
Sections 422l(b)(2) and 4301(d) of ERISA, 29 U.S.C.
§§ 1401(b)(2), 145l(d), because the Fund and the Plan
are administered in part in New York County, New
York.
PARTIES
4. The Fund is a Taft-Hartley trust fund with
trustees equally represented by labor organizations
currently and formerly affiliated with UNITE HERE
and Workers United and employers that contribute
to the Fund. The Fund is established and maintained
pursuant to Section 302(c)(5) of the Labor Management Relations Act (“LMRA”), 29 U.S.C. § 186(c)(5).

82422 • SCHULTE • APPENDIX F

AL 3/19/20

97a
5. The Fund, through its Trustees, sponsors and
administers the Plan.
6. The Plan is a multiemployer plan within
the meaning of Section 3(37) of ERISA, 29 U.S.C.
§ 1002(37).
7. Prior to January 1, 2015, the Plan was known
as the Pension Plan of the National Retirement
Fund.
8. The Fund is authorized to bring this action
pursuant to Section 4221(b)(2) of ERISA, 29 U.S.C.
§ 1401(b)(2).
9. The Trustees are fiduciaries, within the meaning
of Section 3(21)(A) of ERISA, 29 U.S.C. § 1002(21)(A),
of the Fund and the Plan.
10. As fiduciaries of the Fund and the Plan, the
Trustees are authorized to bring this action under
Section 4301(a)(l) of ERISA, 29 U.S.C. § 1451(a)(l).
11. Metz is an employer within the meaning of
Section 3(5) of ERISA, 29 U.S.C. § 1002(5), engaged in
commerce and its activities affect commerce within
the meaning of Sections 3(11) and 3(12) of ERISA,
29 U.S.C. §§ 1002(11), 1002(12).
FACTUAL BACKGROUND
12. The plan year for the Fund commenced on
January 1 and ended on December 31 during the
relevant period.
13. In or around October 2013, the Fund selected
Horizon Actuarial Services, LLC (“Horizon”) to be the
actuary for the Fund.

82422 • SCHULTE • APPENDIX F

AL 3/19/20

98a
14. Prior to the Fund’s selection of Horizon as the
actuary for the Fund, Buck Consultants (“Buck”)
served as actuary for the Fund.
15. Buck selected an interest rate assumption of
7.25% for the purposes of calculating withdrawal
liability under the Plan as of December 31, 2012 (i.e.,
for the purposes of calculating withdrawal liability for
withdrawals occurring during the Fund’s 2013 plan
year) (the “Old Rate”).
16. Buck did not select an interest rate assumption for the purposes of calculating withdrawal
liability under the Plan as of December 31, 2013 (i.e.,
for the purposes of calculating withdrawal liability
for withdrawals occurring during the Fund’s 2014
plan year).
17. Metz was a contributing employer to the Plan,
through the Fund, until it incurred a complete
withdrawal from the Plan within the meaning of
Section 4203(a) of ERISA, 29 U.S.C. § 1383(a), on
May 16, 2014 (the “Complete Withdrawal”).
18. On June 5, 2014, Horizon informed the
Trustees that Horizon would use certain interest
rates used by the Pension Benefit Guaranty
Corporation (the “PBGC Rates”) for withdrawals from
the Plan that occurred on or after January 1, 2014.
19. On or about June 16, 2014, the Fund sent Metz
a notice and demand letter (the “Notice and
Demand”) for the payment of withdrawal liability.
20. In the Notice and Demand, the Fund assessed
Metz withdrawal liability for the Complete With drawal in the estimated amount of $954,821, payable
in 66 quarterly installments of $17,814.85, plus a
final installment in the amount of $17,119.42.

82422 • SCHULTE • APPENDIX F

AL 3/19/20

99a
21. On or about December 26, 2014, the Fund
issued to Metz a revised withdrawal liability
assessment for the Complete Withdrawal in the
amount of $997,734, payable in 70 quarterly
installments of $17,814.85, plus a final installment in
the amount of $16,233.36 (the “Final Assessment”).
ARBITRATION PROCEEDINGS
22. On or about December 16, 2014, Metz
commenced the Arbitration challenging the Fund’s
assessment of Metz’s withdrawal liability for the
Complete Withdrawal by filing a demand for arbitration
with the American Arbitration Association (the
“AAA”).
23. The AAA appointed Ira F. Jaffe, Esq. (the
“Arbitrator”) to serve as arbitrator in the Arbitration.
24. Except for limited document requests by Metz,
and the Fund’s responses to such document requests,
no discovery was conducted in the Arbitration.
25. On February 22, 2016, the Arbitrator issued an
interim award in which the Arbitrator held that the
Fund’s use of the PBGC Rates to calculate Metz’s
withdrawal liability was improper (the “Interim
Award”). A true and correct copy of the Interim
Award is attached hereto as Exhibit B.
26. In the Interim Award, the Arbitrator directed
the Fund to recalculate Metz’s withdrawal liability.
27. On March 7, 2016, the Fund provided Metz
with a calculation of Metz’s hypothetical withdrawal
liability using the Old Rate instead of the PBGC
Rates (the “Hypothetical Calculation”).

82422 • SCHULTE • APPENDIX F

AL 3/19/20

100a
28. Metz did not object to the Hypothetical
Calculation.
29. On March 28, 2016, the Arbitrator issued the
Final Award.
30. In the Final Award, the Arbitrator affirmed the
Hypothetical Calculation, determined that no issues
remained in the Arbitration “other than claims that
only need to be· decided should the holding contained
in the Interim Award be reversed,” and converted the
Interim Award to a final award.
AS AND FOR PLAINTIFFS’ CLAIM
AGAINST METZ
31. Plaintiffs repeat and reallege each and every
allegation in Paragraphs 1 through 30 as if fully set
forth herein.
32. The Arbitrator erred as a matter of law when
he determined that, because Horizon selected the
PBGC Rates as the interest rate assumption for the
purposes of calculating withdrawal liability under
the Plan as of December 31, 2013 (i.e., for the purposes
of calculating withdrawal liability for withdrawals
occurring during the Fund’s 2014 plan year) after
December 31, 2013 and after Metz withdrew from the
Plan, the Fund could not use the PBGC Rates to
calculate Metz’s withdrawal liability.
33. The Arbitrator erred as a matter of law when
he determined that the Old Rate was still in effect on
December 31, 2013.
34. The Arbitrator erred as a matter of law when
he determined that the Old Rate applied to with drawals from the Plan during the 2014 plan year.

82422 • SCHULTE • APPENDIX F

AL 3/19/20

101a
35. The Arbitrator erred as a matter of law when
he determined that a multiemployer plan may not
apply an assumption for the calculation of
withdrawal liability to an employer that withdrew
before the plan’s actuary selected that assumption.
36. The Arbitrator erred as a matter of law when
he determined that Concrete Pipe & Products of
California, Inc. v. Construction Laborers Pension
Trust for Southern California, 508 U.S. 602 (1993),
stands for the proposition that actuaries would be
subject to bias and manipulation by plan trustees if
an interest rate assumption could be applied to
withdrawals occurring before the selection of that
assumption.
37. The Arbitrator erred as a matter of law to the
extent the Final Award and Interim Award are not
based in ERISA or case law construing ERISA.
38. Such errors require that the Final Award be
modified and/or vacated as a matter of law, that the
Hypothetical Calculation be vacated, and that the
Final Assessment be reinstated pursuant to Section
4221(b)(2) of ERISA, 29 U.S.C. § 1401(b)(2).
REQUEST FOR RELIEF
WHEREFORE, Plaintiffs respectfully request
that this Court:
A. Modify and/or vacate the Final Award, vacate
the Hypothetical Calculation, and uphold the Final
Assessment.
B. Grant Plaintiffs their costs and attorney’s fees
in connection with this action.

82422 • SCHULTE • APPENDIX F

AL 3/19/20

102a
C. Grant Plaintiffs such other and further relief as
this Court deems appropriate.
Dated: April 21, 2016
New York, New York
SCHULTE ROTH & ZABEL LLP
By: /s/ Ronald E. Richman
Ronald E. Richman
Frank P. Sabatini
919 Third Avenue
New York, New York 10022
Tel: (212) 756-2000
Fax: (212) 593-5955
ronald.richman@srz.com
frank.sabatini@srz.com
By: Attorneys for Plaintiffs

82422 • SCHULTE • APPENDIX F

AL 3/19/20

103a
Appendix G
BEFORE THE
AMERICAN ARBITRATION ASSOCIATION

__________
Case No. 01-14-0002-2075
Ira F. Jaffe, Esq.
Arbitrator

__________
M ETZ C ULINARY M ANAGEMENT , I NC .
—v.—
N ATIONAL R ETIREMENT F UND

__________
JOINT STIPULATION OF FACTS
Robert Litvin, Esq.
Kevin M Williams, Esq.

Ronald E. Richman, Esq.
Frank P. Sabatini, Esq.

Paisner Litvin, LLP
30 Rock Hill Road
Bala Cynwyd, PA 19004
rlitvin@paisnerlitvin.com
kwilliams@fordharrison.com

Schulte Roth & Zabel LLP
919 Third Avenue
New York, NY 10022
Ronald.Richman@srz.com
Frank.Sabatini@srz.com

Counsel for
Counsel for
Metz Culinary Management National Retirement Fund
Dated: April 15, 2015

82422 • SCHULTE • APPENDIX G

AL 3/19/20

104a
Pursuant to the March 5th, 2015 scheduling order,
the parties, Metz Culinary Management, Inc.
(“Metz”) and the National Retirement Fund (“Fund”),
hereby submit their Joint Stipulation of Facts
relating to the preliminary issue in this arbitration
concerning the lawfulness of the change in interest
rate assumption in 2014 used to calculate the unfunded
vested benefit liabilities for the plan year ending
December 31, 2013 and the complete withdrawal
liability of Metz. The parties reserve any objections
on the grounds of relevance, materiality, and weight
with respect to the stipulated facts.
1.

The Fund is a multiemployer pension plan
governed by ERISA, 29 U.S.C. § 1001 et seq.
and the Multiemployer Pension Plan Amendments Acts of 1980 (MPPAA), 29 U.S.C. § 1381
et seq.

2.

Metz was a contributing employer to the Fund
and incurred a complete withdrawal on May
16, 2014.

3.

The Fund first issued on June 16, 2014 a Notice
and Demand for a complete withdrawal that
occurred on May 16, 2014 in the estimated
amount of $954,821, payable in 66 quarterly
installments of $17,814.85, plus a final installment in the amount of $17,119.42. A true copy
of the Notice and Demand is attached as
Exhibit A.

4.

Subsequently, the Fund issued a revised withdrawal liability assessment on December 26,
2014 in the amount of $997,734, payable in 70
quarterly installments of $17,814.85, plus a
final installment in the amount of $16,233.36.

82422 • SCHULTE • APPENDIX G

AL 3/19/20

105a
A true copy of the revised assessment is
attached as Exhibit B.
5.

The plan year for the Fund commences on
January 1st and ends on December 31st.

6.

The Fund uses a modified version of the rolling
five method under ERISA for determining
withdrawal liability. A true copy of the
provisions of the Fund’s Agreement and
Declaration of Trust concerning the calculation
of withdrawal liability with respect to the
Legacy Plan of the National Retirement Fund
is attached as Exhibit C. (NRF-0034-0037)

7.

Buck Consultants was the Fund’s actuary for
the 2013 plan year and for a number of years
prior to 2013. Horizon, Inc. was appointed in
October 2013 to serve as the Fund’s actuary.
Buck Consultants, however, prepared the
Schedule MB filed with the Form 5500 and the
Actuarial Valuation Report for the plan year
ending December 31, 2013.

8.

Buck Consultants had used a 7.25 percent
interest rate in 2013 to calculate unfunded
vested benefit liabilities and withdrawal
liability.

9.

On October 17, 2013, the Fund selected Horizon,
Inc. to be the new actuary for the Fund. A true
copy of the email from Jim Brubaker to Stan
Goldfarb of Horizon evidencing the selection is
attached as Exhibit D. (NFR-0001)

10. At a Board of Trustees meeting held on June 5,
2014, Horizon, Inc. reviewed various interest
rate assumption scenarios for the Trustees and
informed the Trustees that the firm would use

82422 • SCHULTE • APPENDIX G

AL 3/19/20

106a
interest rates used by the PBGC for mass
withdrawals (the “PBGC Rates”) for with drawals that occurred on or after January 1,
2014. A true copy of the minutes of that Board
of Trustees meeting, with redactions, is
attached as Exhibit E. (NRF-0002-0011)
11. Horizon, Inc.’s use of the PBGC Rates
represented a change to the withdrawal
liability interest rate assumption used by Buck
Consultants for the 2013 plan year.
12. In a letter dated October 3, 2014, from Horizon,
Inc. to the Trustees, Horizon explained to the
Fund the decision to make, reasons for and
the impact of the change in interest rate
assumption on vested benefit liabilities and
withdrawal liability. A true copy of that letter
is attached as Exhibit F. (NRF-0012-0014)
13. A true copy of the Actuarial Valuation Report,
prepared by Buck Consultants, for the plan
year ending December 31, 2013, is attached as
Exhibit G.
14. A true copy of the amended Form 5500 for this
Fund for the plan year ending December 31,
2013 is attached as Exhibit H. (NRF-07230930)
15. Horizon, Inc. did not prepare any Actuarial
Valuation Report for the plan year ending
December 31, 2013 or any Schedule MB filed
with the Form 5500 for the plan year ending
December 31, 2013.
16. The Fund is in critical status under Section
432(b)(2) of the Internal Revenue Code.

82422 • SCHULTE • APPENDIX G

AL 3/19/20

107a
17. The Fund’s plan sponsor has determined that
based on reasonable actuarial assumptions and
upon exhaustion of all reasonable measures,
the Fund cannot reasonably be expected to
emerge from critical status by the end of the
rehabilitation period.
18. The Fund froze the accrual of benefits as of
December 31, 2013.
19. No advance written notice was provided in
2014 by the Fund to the contributing employers
about the interest rate change.

82422 • SCHULTE • APPENDIX G

AL 3/19/20

108a
Exhibit A
NATIONAL RETIREMENT FUND
[LETTERHEAD]
June 16, 2014
Brian A Bufalino, Esquire
Metz Culinary Management
Two Woodland Drive
Dallas, PA 18612
RE: Metz Culinary Management d/b/a Cheyney
Universtiy – ER#560094
Dear Mr. Bufalino:
The Board of Trustees of the National Retirement
Fund (the “Fund”) determined that Metz Culinary
Management d/b/a Cheyney University, ER#560094
(hereinafter the “Employer”) incurred a complete
withdrawal from the Fund as of May 16th, 2014.
Accordingly, the Employer is liable to the Fund
for withdrawal liability pursuant to the Employee
Retirement Income Security Act of 1974, as amended
(“ERISA”).
This letter supplies a notice of the Employer’s
liability resulting from a withdrawal from the
National Retirement Fund. The Fund reserves the
right to revise this assessment at any time due to
new information that may alter the Employer’s
liability.
Attached is a copy of how the withdrawal liability
was determined. ERISA provides that the amount
of the withdrawal liability is to be paid in equal
quarterly installments over the number of years
necessary to amortize the amount of the liability in

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

109a
level annual payments calculated in accordance
with Section 4219(c)(i)(1).
The estimated amount of withdrawal liability
allocable to the Employer is $954,821.00 and
payable in sixty six (66) quarterly installments of
$17,814.85 plus a final installment in the amount
of $17,119.42. Installments should be remitted to
this office and made payable to the “National
Retirement Fund.” The first installment is due by
July 1st, 2014. Upon completion of the final withdrawal liability calculation, you will be notified of
the final assessment and revised payment schedule.
Please feel free to contact the Fund with any
questions.
Very truly yours,
RICHARD N. RUST
Fund Manager
Encl:
Cc: Ronald E Richman, Esquire
Jaimie Davis, Esquire
David Sapp, Esquire
Jonathan Feldman
Philadelphia Jt. Bd.
RNR/mb
CERTIFIED MAIL/RETURN RECEIPT
REQUESTED

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

110a
NATIONAL RETIREMENT FUND
[LETTERHEAD]
June 16, 2014
2014 Estimated Withdrawal Liability
METZ CULINARY MANAGEMENT
Former HEREIU Employer Worksheet
Employer Numbers:

560094

A. Remaining Allocable Portion of 2007 Pool
(HEREIU Sub-Pool)
1. December 31, 2007 amount ........ $

17,179.34

2. Portion remaining as of
12/31/2013 = 70% times A.1 ....... $

12,026.00

B. Remaining Allocable Portion of 2008 Pool
1. Total retirement contributions
payable by your firm during
plan years 2004 – 2008 ............... $

66,607.59

2. Total retirement contributions
received by the Fund during
same period for all employers
reduced by contributions made
by employers who withdrew
prior to 12/31/2008....................... $ 462,442,162.00
3. which quotient ............................

.00014403

4. was then multiplied by the
Change in the Fund’s Unfunded
Vested Benefits as of 12/31/2008
for all employers not withdrawn
as of 12/31/2008............................ $ 926,815,395.00
5. Totaling......................................... $

82422 • SCHULTE • 08 EXHIBIT A

133,489.22

AL 3/19/20

111a
6. Portion remaining as of
12/31/2013 = 75% times B.5 ....... $

100,117.00

C. Remaining Allocable Portion of 2009 Pool
1. Total retirement contributions
payable by your firm during
plan years 2005 – 2009 ............... $

80,496.32

2. Total retirement contributions
received by the Fund during
same period for all employers
reduced by contributions made
by employers who withdrew
prior to 12/31/2009 ...................... $ 501,379,595.00
3. which quotient ............................

.00016055

4. was then multiplied by the Change
in the Fund’s Unfunded Vested
Benefits as of 12/31/2009 for all
employers not withdrawn as of
12/31/2009 .................................... $ 36,005,935.00
5. Totaling......................................... $

5,780.75

6. Portion remaining as of
12/31/2013 = 80% times C.5 ....... $

4,625.00

D. Allocable Portion of 2013 Pool
1. Total retirement contributions
payable by your firm during plan
years 2009 – 2013 ........................ $

171,561.52

2. Total estimated retirement
contributions received by the Fund
during same period for all employers
reduced by estimated contributions
made by employers who withdrew
prior to 12/31/2013 ...................... $ 610,500,000.00

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

112a
3. which quotient ..........................

.00028102

4. was then multiplied by the
estimated Change in the Fund’s
Unfunded Vested Benefits as of
12/31/2013 for all employers not
withdrawn as of 12/31/2013 .... $ 2,971,200,000.00
5. Totaling...................................... $

834,967.00

E. Proportional Share of the unamortized
amount of Affected Benefits for plan year
ending 12/31/2013
1. Total retirement contributions
payable by your firm during
plan years 2009 – 2013 ............ $

171,561.52

2. Total estimated retirement
contributions received by the
Fund during same period for
all employers reduced by
estimated contributions made
by employers who withdrew
prior to 12/31/2013 ................... $

610,500,000.00

3. which quotient ..........................

.00028102

4. was multiplied by the unamortized
amount of Affected Benefits
[reduction of adjustable benefits
during 2011] .............................. $

10,981,152.00

5. Totaling...................................... $

3,086.00

F. Allocable Share:
1. [A2 + B6 + C6 + D5 + E5]......... $
2. De minimis reduction .............. $
3. 2014 Estimated Withdrawal
Liability .................................... $

82422 • SCHULTE • 08 EXHIBIT A

954,821.00
—
954,821.00

AL 3/19/20

113a
Employer Contributions:
2004
2005
2006
2007
2008
2009
2010
2011
2012
2013

82422 • SCHULTE • 08 EXHIBIT A

6,800.00
8,154.00
10,030.00
10,650.00
30,973.59
20,688.73
30,163.97
30,963.28
40,138.44
49,607.10

AL 3/19/20

114a
HOTEL EMPLOYEES AND RESTAURANT EMPLOYEES INTERNATIONAL UNION PENSION FUND
Withdrawal liability for:
METZ AND ASOCIATES LTD.
Employer # 5600904
Initial Method
Old Fund #

Joined after 1993

15
520

Y

Calc for 501 funds Sum for 505 funds
Initial Liability Rolling 5-Method (see second sheet)
1989
$0.00
1990
$0.00
1991
$0.00
1992
$0.00
1993
$0.00
Sum of contributions
$0.00
All Remaining Ers’ Cont $43,172,532.00
UVB at merger $51,364,800.00
Employer’s share
$0.00
$0.00
1st yr attributable UVB $78,858,054.00
Adjusted UVB $39,044,046.00
Employer’s Share
$0.00

Rolling Five Year Contribution Totals
Liability Pools at 12/31/2007
Allocated
(1)
(2)
(3)
(4)
(5)
(6)
(7)
(8)
Year
Employer
Employer
All Employers Pre-95 Employers All Employers Pre-95 Employers All Employers Pre-95 Employers
Dec.31 Contributions 5-year sum of 5-year sum of
5-year sum of
Unamortized
Unamortized
Reallocated
Reallocated
= (1)/(2) x
Payable
contributions contributions*
contributions*
Portion
Portion
uncollectible
uncollectible
((4) + (6))
amounts
amounts
1991
$0.00
1992
$0.00
1993
$0.00
1994
$0.00
1995
$0.00
$0
$52,441,426
$52,384,784
($9,496,151)
$6,103,135
$0
$125,348
$0.00)
1996
$0.00
$0
$55,529,354
$54,253,073
($6,186,927)
$3,903,890
$0
$191,547
$0.00)
1997
$0.00
$0
$60,258,877
$57,631,566
($7,215,465)
$8,667,245
$0
$1,291,348
$0.00)
1998
$0.00
$0
$68,109,977
$62,552,707
($6,664,409)
$6,949,043
$0
$967,498
$0.00)
1999
$0.00
$0
$78,932,041
$68,774,990
($4,462,016)
$6,871,017
$0
$1,535,938
$0.00)
2000
$0.00
$0
$94,102,944
$80,134,958
$108,798)
$24,519,514
$0
$1,380,973
$0.00)
2001
$0.00
$0
$106,435,574
$90,434,527 $20,993,953)
$13,497,039
$0
$376,621
$0.00)
2002
$0.00
$0
$125,574,205
$105,316,957 $41,256,463)
$17,340,510
$0
$1,463,318
$0.00)
2003
$2,439.00
$2,439
$139,418,139
$116,918,282
($6,647,526)
$21,291,976
$0
$438,046
($132.95)
2004
$6,800.00
$9,239
$156,199,949
$131,274,271
($113,735)
$22,578,697
$0
$1,835,957
($6.82)
2005
$8,154.00
$17,393
$151,363,484
$133,176,139 $13,963,790)
$23,182,352
$0
$731,870 $1,536.02)
2006
$10,030.00
$27,423
$175,033,412
$140,805,533 $73,908,337)
$23,006,268
$0
$3,917,933 $11,825,33)
2007
$10,650.00
$38,073
$203,712,499
$158,603,198 $14,886,872)
$34,334,751
$5,943,413
$10,289,327 $3,957.76)
*Excludes contributions for those who withdrew in prior years.
$17,179.34
Years since
Liability allocated
1995
Pct Amortized
Allocated
$0
13
65%
$0.00
$17,179.34

82422 • SCHULTE • 08 EXHIBIT A

Year
2004
2005
2006
2007
2008
2009
2010
2011
2012
2013

Employer Numbers: 560094
Contribution Base Units
45,102.84
43,610.38
36,628.10
28,387.50
63,041.15
35,736.43
44,697.70
40,238.60
39,483.37
40,350.67

41,780.44
36,208.66
42,685.58
42,388.36
47,825.09
40,224.24
41,473.22
40,024.21

Consecutive
Three Year Average

Development of Quarterly Payment
METZ CULINARY MANAGEMENT

June 16, 2014

NATIONAL RETIREMENT FUND
[LETTERHEAD]

115a

AL 3/19/20

82422 • SCHULTE • 08 EXHIBIT A

$71,259.38
$17,814.85

4.) Quarterly Payment: Required Annual Payment / 4

1.49

47,825.09

3.) Required Annual Payment: (1) x (2)

2.) Maximum Contribution Rate for previous ten years including year
in which withdrawal occurs

1.) Maximum Consecutive 3-Year Contribution Base Units Average
for ten years before year in which withdrawal occurs

116a

AL 3/19/20

82422 • SCHULTE • 08 EXHIBIT A

1
2
3
4
5
6
7
8
9

01-Jul-14
01-0ct-14
01-Jan-15
01-Apr-15
01-Jul-15
01-Oct-15
01-Jan-16
01-Apr-16
01-Jul-16

17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $

WDL AMOUNT
QLY PAYMENT

0.00
0.00
0.00
0.00
26,506.85
0.00
0.00
0.00
25.164.27

INTEREST

$ 954,821.00
$ 17,814.85

METZ CULINARY MANAGEMENT

PYMT DATE

EMPLOYER:

17.814.85
17.814.85
17,814.85
17,814.85
(8,692.00)
17,814.85
17,814.85
17,814.85
(7,349.42)

PRINCIPAL

INTEREST
3.0%
No. of Years 16.5000000

Amortization Schedule

June 16, 2014

NATIONAL RETIREMENT FUND
[LETTERHEAD]

954,821.00
937,006.15
919,191.30
901,376.45
883,561.60
892,253.60
874,438.75
856,623.90
838,809.05
846,158.47

BALANCE

117a

AL 3/19/20

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

01-0ct-16
01-Jan-17
01-Apr-17
01-Jul-17
01-0ct-17
01-Jan-18
01-Apr-18
OI-Jul-18
01-0ct-18
01-Jan-19
01-Apr-19
01-Jul-19
01-0ct-19
01-Jan-20
01-Apr-20
01-Jul-20
01-0ct-20
01-Jan-21
01-Apr-21

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.8S
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $
0.00
0.00
0.00
23,781.42
0.00
0.00
0.00
22,357.08
0.00
0.00
0.00
20,890.01
0.00
0.00
0.00
19,378.93
0.00
0.00
0.00

INTEREST
17,814.85
17,814.85
17,814.85
(5,966.57)
17,814.85
17,814.85
17,814.85
(4,542.23)
17,814.85
17,814.85
17,814.85
(3,075.16)
17,814.85
17,814.85
17,814.85
(1,564.08)
17,814.85
17,814.85
17,814.85

PRINCIPAL

828,343.62
810,528.77
792,713.92
798,680.49
780,865.64
763,050.79
745,235.94
749,778.17
731,963.32
714,148.47
696,333.62
699,408.77
681,593.92
663,779.07
645,964.22
647,528.30
629,713.45
611,898.60
594,083.75

BALANCE

118a

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47

01-Jul-21
01-0ct-21
01-Jan-22
01-Apr-22
01-Jul-22
01-0ct-22
01-Jan-23
01-Apr-23
Ol-Jul-23
01-0ct-23
Ol-Jan-24
01-Apr-24
01-Jul-24
01-0ct-24
01-Jan-25
01-Apr-25
01-Jul-25
01-Oct-25
01-Jan-26

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.8S
17,814.8S
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814,85

PAYMENT $
17,822.51
000
0.00
0.00
16,219.41
0.00
0.00
0.00
14,568.21
0.00
0.00
0.00
12,867.47
0.00
0.00
0.00
11,115.71
0.00
0.00

INTEREST
(7.66)
17,814.85
17,814.85
17,814.85
1,595.44
17,814.85
17,814.85
17,814.85
3,246.64
17,814.85
17,814.85
17,814.85
4,947.38
17,814.85
17,814.85
17,814.85
6,699.14
17,814.85
17,814.85

PRINCIPAL

594,091.41
576,276.56
558,461.71
540,646.86
539,051.42
521,236.57
503,421.72
485,606.87
482,360.22
464,545.37
446,730.52
428,915.67
423,968.29
406,153.44
388,338.59
370,523.74
363,824.61
346,009.76
328,194.91

BALANCE

119a

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

48
49
50
51
52
53
54
5S
56
57
58
59
60
61
62
63
64
65
66
67

01-Apr-26
01-Jul-26
01-0ct-26
01-Jan-27
01-Apr-27
01-Jul-27
01-Oct-27
01-Jan-28
01-Apr-28
01-Jul-28
01-0ct-28
01-Jan-29
01-Apr-29
01-Jul-29
01-Oct-29
01-Jan-30
01-Apr-30
01-Jul-30
01-0ct-30
01-Jan-31

PYMT DATE
17,814.85
17,814.85
17,814,85
17,814.85
17,814.85
17,814.85
17,814.85
17,814,85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814,85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,119.42

PAYMENT $
0.00
9,311.40
0.00
0.00
0.00
7,452.96
0.00
0.00
0.00
5,538.77
0.00
0.00
000
l.567.15
0.00
0.00
0.00
1,536.38
0.00
0.00

INTEREST
17,814.85
8,503.45
17,814.85
17,814.85
17,814.85
10,361.89
17,814.85
17,814.85
17,814.85
12,276.08
17,814.85
17,814.85
17,814.85
14,247.70
17,814.85
17,814.85
17,814.85
16,278.47
17,814.85
17,119.42

PRINCIPAL

310,380.06
301,876.61
284,061.76
266,246.91
248,432.06
238,070.17
220,255.32
202,440.47
184,625.62
172,349.54
154,534.69
136,719.84
118,904.99
104,657.29
86,842.44
69,027.59
51,212.74
34,934.27
17,119.42
–.00

BALANCE

120a

82422 • SCHULTE • 08 EXHIBIT A

AL 3/19/20

121a
Exhibit B
NATIONAL RETIREMENT FUND
[LETTERHEAD]
December 26, 2014
CERTIFIED MAIL R/R/R
Robert Litvin, Esquire
Paisner-Litvin, LLP
30 Rock Hill Road
Bala Cynwyd, PA 19004
RE: METZ CULINARY MANAGEMENT INC.
Dear Mr. Litvin:
The Board of Trustees of the National Retirement
Fund (the “Fund”) determined that Metz Culinary
Management, Inc. incurred a complete withdrawal
from the Fund on May 16th, 2014. The Fund sent
an estimated withdrawal liability notification letter
on June 16th, 2014. The Fund reserved the right to
revise the total withdrawal liability amount and/or
payment schedule at any time due to new information that may alter Metz Culinary Management’s
liability.
The finalization of the withdrawal liability has
been calculated. Therefore, we must notify you of
the revised calculation. The revised amount of
withdrawal liability allocable to Metz Culinary
Management, Inc. is $997,734.00. Accordingly, this
constitutes notice and demand for payment of the
revised withdrawal liability set forth below.
The estimated amount of withdrawal liability
allocable to Metz Culinary Management, Inc. was
payable in 66 (sixty six) quarterly installments of

82422 • SCHULTE • 09 EXHIBIT B

AL 3/20/20

122a
$17,814.85 plus a final installment in the amount
of $17,119.42. To date, the Fund has received 2
quarterly installments totaling $35,629.70. The
revised withdrawal liability amount is now payable
in 70 quarterly installments of $17,814.85 plus a
final installment in the amount of $16,233.36. Your
next installment is due on January 1st, 2015.
Attached please find a copy of how the withdrawal
liability was determined and the payment schedule.
Please feel free to contact the Fund with any
questions.
Very truly yours,
RICHARD N. RUST
Fund Manager
Enc:
Cc: Ronald E Richman, Esquire
Frank Sabatini, Esquire
David Sapp, Esquire
Jonathan Feldman, FSA
RNR/mb

82422 • SCHULTE • 09 EXHIBIT B

AL 3/20/20

123a
NATIONAL RETIREMENT FUND
[LETTERHEAD]
December 22, 2014
2014 Withdrawal Liability
METZ CULINARY MANAGEMENT
Former HEREIU Employer Worksheet
Employer Numbers:

560094

A. Remaining Allocable Portion of 2007 Pool
(HEREIU Sub-Pool)
1. December 31, 2007 amount ........ $

17,179.34

2. Portion remaining as of
12/31/2013 = 70% times A.1 ....... $

12,026.00

B. Remaining Allocable Portion of 2008 Pool
1. Total retirement contributions
payable by your firm during
plan years 2004 – 2008 ............... $

66,607.59

2. Total retirement contributions
received by the Fund during
same period for all employers
reduced by contributions made
by employers who withdrew
prior to 12/31/2008....................... $ 462,442,162.00
3. which quotient ............................

.00014403

4. was then multiplied by the
Change in the Fund’s Unfunded
Vested Benefits as of 12/31/2008
for all employers not withdrawn
as of 12/31/2008............................ $ 926,815,395.00
5. Totaling......................................... $

82422 • SCHULTE • 09 EXHIBIT B

133,489.22

AL 3/20/20

124a
6. Portion remaining as of
12/31/2013 = 75% times B.5 ....... $

100,117.00

C. Remaining Allocable Portion of 2009 Pool
1. Total retirement contributions
payable by your firm during
plan years 2005 – 2009 ............... $

80,496.32

2. Total retirement contributions
received by the Fund during
same period for all employers
reduced by contributions made
by employers who withdrew
prior to 12/31/2009 ...................... $ 501,379,595.00
3. which quotient ............................

.00016055

4. was then multiplied by the Change
in the Fund’s Unfunded Vested
Benefits as of 12/31/2009 for all
employers not withdrawn as of
12/31/2009 .................................... $ 36,005,935.00
5. Totaling......................................... $

5,780.75

6. Portion remaining as of
12/31/2013 = 80% times C.5 ....... $

4,625.00

D. Allocable Portion of 2013 Pool
1. Total retirement contributions
payable by your firm during plan
years 2009 – 2013 ........................ $

171,561.52

2. Total retirement contributions
received by the Fund during same
period for all employers reduced by
contributions made by employers
who withdrew prior to
12/31/2013 .................................... $ 599,663,583.00

82422 • SCHULTE • 09 EXHIBIT B

AL 3/20/20

125a
3. which quotient ..........................

.00028610

4. was then multiplied by the
Change in the Fund’s Unfunded
Vested Benefits as of 12/31/2013
for all employers not
withdrawn as of 12/31/2013 .... $ 3,068,243,382.00
5. Totaling...................................... $

877,824.00

E. Proportional Share of the unamortized
amount of Affected Benefits for plan year
ending 12/31/2013
1. Total retirement contributions
payable by your firm during
plan years 2009 – 2013 ............ $

171,561.52

2. Total retirement contributions
received by the Fund during
same period for all employers
reduced by contributions made
by employers who withdrew
prior to 12/31/2013 ................... $

599,663,583.00

3. which quotient ..........................

.00028610

4. was multiplied by the unamortized
amount of Affected Benefits
(reduction of adjustable benefits
during 2011) .............................. $

10,981,152.00

5. Totaling...................................... $

3,142.00

F. Allocable Share:
1. [A2 + B6 + C6 + D5 + E5]......... $
2. De minimis reduction .............. $
3. 2014 Estimated Withdrawal
Liability .................................... $

82422 • SCHULTE • 09 EXHIBIT B

997,734.00
—
997,734.00

AL 3/20/20

126a
Employer Contributions:
2004
2005
2006
2007
2008
2009
2010
2011
2012
2013

82422 • SCHULTE • 09 EXHIBIT B

6,800.00
8,154.00
10,030.00
10,650.00
30,973.59
20,688.73
30,163.97
30,963.28
40,138.44
49,607.10

AL 3/20/20

82422 • SCHULTE • 09 EXHIBIT B

Year
2004
2005
2006
2007
2008
2009
2010
2011
2012
2013

Employer Numbers: 560094
Contribution Base Units
45,102.84
43,610.38
36,628.10
28,387.50
63,041.15
35,736.43
44,697.70
40,238.60
39,483.37
40,350.67

41,780.44
36,208.66
42,685.58
42,388.36
47,825.09
40,224.24
41,473.22
40,024.21

Consecutive
Three Year Average

Development of Quarterly Payment
METZ CULINARY MANAGEMENT

December 22, 2014

NATIONAL RETIREMENT FUND
[LETTERHEAD]

127a

AL 3/20/20

82422 • SCHULTE • 09 EXHIBIT B

$71,259.38
$17,814.85

4.) Quarterly Payment: Required Annual Payment / 4

1.49

47,825.09

3.) Required Annual Payment: (1) x (2)

2.) Maximum Contribution Rate for previous ten years including year
in which withdrawal occurs

1.) Maximum Consecutive 3-Year Contribution Base Units Average
for ten years before year in which withdrawal occurs

128a

AL 3/20/20

82422 • SCHULTE • 09 EXHIBIT B

1
2
3
4
5
6
7

01-Jul-14
01-0ct-14
01-Jan-15
01-Apr-15
01-Jul-15
01-Oct-15
01-Jan-16

17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $

WDL AMOUNT
QLY PAYMENT

0.00
0.00
0.00
0.00
27,794.24
0.00
0.00

INTEREST

$ 997,734.00
$ 17,814.85

METZ CULINARY MANAGEMENT

PYMT DATE

EMPLOYER:

17,814.85
17,814.85
17,814.85
17,814.85
(9,979.39)
17,814.85
17,814.85

PRINCIPAL

INTEREST
No. of Years

Amortization Schedule

December 22, 2014

NATIONAL RETIREMENT FUND
[LETTERHEAD]

997,734.00
979,919.15
962,104.30
944,289.45
926,474.60
936,453.99
918,639.14
900,824.29

BALANCE
AFTER
PAYMENT

3.0%
17.50

129a

AL 3/20/20

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

82422 • SCHULTE • 09 EXHIBIT B

01-Apr-16
01-Jul-16
01-Oct-16
01-Jan-17
01-Apr-17
01-Jul-17
01-Oct-17
01-Jan-18
01-Apr-18
01-Jul-18
01-Oct-18
01-Jan-19
01-Apr-19
01-Jul-19
01-Oct-19
01-Jan-20
01-Apr-20

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17.814 85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $
0.00
26,490.28
0.00
0.00
0.00
25,147.21
0.00
0.00
0.00
23,763.84
0.00
0.00
0.00
22,338.98
0.00
0.00
0.00

INTEREST
17,814.85
(8,675.43)
17,814.85
17,814.85
17,814.85
(7,332.36)
17,814.85
17,814.85
17,814.85
(5.948.99)
17,814.85
17,814.85
17,814.85
(4,524.13)
17,814.85
17,814.85
17,814.85

PRINCIPAL

883,009.44
891,684.87
873,870.02
856,055.17
838,240.32
845,572.68
827,757.83
809,942.98
792,128.13
798,077.12
780,262.27
762,447.42
744,632.57
749,156.70
731,341.85
713,527.00
695,712.15

BALANCE
AFTER
PAYMENT

130a

AL 3/20/20

25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41

82422 • SCHULTE • 09 EXHIBIT B

01-Jul-20
01-Oct-20
01-Jan-21
01-Apr-21
01-Jul-21
01-Oct-21
01-Jan-22
01-Apr-22
01-Jul-22
01-Oct-22
01-Jan-23
01-Apr-23
01-Jul-23
01-Oct-23
01-Jan-24
01-Apr-24
01-Jul-24

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17.814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $
20,871.36
0.00
0.00
0.00
19,359.72
0.00
0.00
0.00
17,802.73
0.00
0.00
0.00
16,199.03
0.00
0.00
0.00
14,547.22

INTEREST
(3.056.51)
17,814.85
17,814.85
17,814.85
(1,544.87)
17,814.85
17,814.85
17,814.85
12.12
17,814.85
17,814.85
17,814.85
1,615.82
17,814.85
17,814.85
17,814.85
3,267.63

PRINCIPAL

698,768.67
680,953.82
663,138.97
645,324.12
646,868.99
629,054.14
611,239.29
593,424.44
593,412.32
575,597.47
557,782.62
539,967.77
538,351.96
520,537.11
502,722.26
484,907.41
481,639.78

BALANCE
AFTER
PAYMENT

131a

AL 3/20/20

42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58

82422 • SCHULTE • 09 EXHIBIT B

01-Oct-24
01-Jan-25
01-Apr-25
01-Jul-25
01-Oct-25
01-Jan-26
01-Apr-26
01-Jul-26
01-Oct-26
01-Jan-27
01-Apr-27
01-Jul-27
01-Oct-27
01-Jan-28
01-Apr-28
01-Jul-28
01-Oct-28

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85

PAYMENT $
0.00
0.00
0.00
12,845.86
0.00
0.00
0.00
11,093.45
0.00
0.00
0.00
9,288.47
0.00
0.00
0.00
7,429.34
0.00

INTEREST
17,814.85
17,814.85
17,814.85
4,968.99
17,814.85
17,814.85
17,814.85
6,721.40
17,814.85
17,814.85
17,814.85
8,526.38
17,814.85
17,814.85
17,814.85
10,385.51
17,814.85

PRINCIPAL

463,824.93
446,010.08
428,195.23
423,226.24
405,411.39
387,596 54
369,781.69
363,060.29
345,245.44
327,430.59
309,615.74
301,089.36
283,274.51
265,459.66
247,644 81
237,259.30
219,444.45

BALANCE
AFTER
PAYMENT

132a

AL 3/20/20

59
60
61
62
63
64
65
66
67
68
69
70
71

82422 • SCHULTE • 09 EXHIBIT B

01-Jan-29
01-Apr-29
01-Jul-29
01-Oct-29
01-Jan-30
01-Apr-30
01-Jul-30
01-Oct-30
01-Jan-31
01-Apr-31
01-Jul-31
01-Oct-31
01-Jan-32

PYMT DATE
17,814.85
17,814.85
17,814.85
17,814 85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
17,814.85
16,233.36

PAYMENT $
0.00
0.00
5,514.44
0.00
0.00
0.00
3,542.09
0.00
0.00
0.00
1,510.57
0.00
0.00

INTEREST
17,814.85
17,814.85
12,300.41
17,814.85
17,814.85
17,814.85
14,272.76
17,814.85
17,814.85
17,814.85
16,304.28
17,814.85
16,233.36

PRINCIPAL

201,629.60
183,814.75
171,514.34
153,699.49
135,884.64
118,069.79
103,797.04
85,982.19
68,167.34
50,352.49
34,048.21
16,233.36
–.00

BALANCE
AFTER
PAYMENT

133a

AL 3/20/20

134a
Exhibit D
EMAIL
Rust, Richard
From:
Sent:
To:
Cc:

Subject:

Jim Brubaker <jbrubaker@carlisleetcetera.com>
Thursday October 17 2013 9:21 PM
stan.goldfarb@horizonactuarial.com
Rust,Richard; jwilhelm@unitehere.org;
‘Julie Kelly’ lfoxpjbunite@aol.com;
michael.montelongo@sodexo.com;
paul.ades@hilton.com;
jwilhelm@unitehere.org
Welcome and congratulations

Dear Stan,
As we discussed by phone, the National
Retirement Fund Board approved Horizon’s
appointment as its actuary this afternoon.
As I described, we also approved Cheiron as
consultants for the adjustable pension plan
adoption and transition.
Your contact for the transition is Richard Rust.
The next Trustees meeting is in NYC on February
6th, 2014. We look forward to along and successful
relationship with you and Horizon.
Sincerely,
Jim Brubaker, CEO
Carlisle Etcetera LLC
423 West 55th Street, 3rd Floor
New York NY 10019
212-246-2555 ext 3566
www.carlislecollection.com
www.etcetera.com
Creating exceptional clothes to empower
outstanding women

82422 • SCHULTE • 10 EXHIBIT D

AL 3/20/20

135a
Exhibit E
NATIONAL RETIREMENT FUND
BOARD OF TRUSTEES
June 6, 2014
A meeting of the Board of Trustees of the National
Retirement Fund was held on Thursday, June 5,
2014 at the Omni Providence Hotel located at One
Exchange Street, Providence, RI.
Trustees Present:
Paul Ades
John Agnello
Noel Beasley
Richard Betty
William Biggerstaff
Harold Bock
Gary Bonadonna – on phone
James Brubaker – Chairman
James Claus
Donna DeCaprio
Richard Ellis - on phone
Enrique Fernandez
John Fowler
Lynne Fox
Bill Granfield
Tod Greenfield
Jean Hervey – on phone
Warren Heyman
Marvin Jones
Arnold Karr

Julie Kelly
Robert Kovacs
Wilfredo Larancuent
Peter Lindenmeyer
Desmond Massey
C. Robert McDevitt
Brian McGrath
David Melman
Richard Monje
Homi Patel
Warren Pepicelli
Harris Raynor
Edgar Romney
Richard Rumelt
Henry Tamarin
Steven Thomas
Cristina Vazquez
Timothy Weiler
– on phone
John Wilhelm
Teresa Wood

Also Present:
Chris Bohner
Karen Bourget

82422 • SCHULTE • 11 EXHIBIT E

William Josem Esq.
Fiona Liston

AL 3/20/20

136a
Jaimie Davis, Esq.
– on phone
Ellen R. Dunkin, Esq.
Jonathan Feldman
John Fiore, Esq.
Stan Goldfarb
Richard Hudson
Ian Jones
Peter Jones

Paul Mallen
Joel Mueller
Ronald Richman, Esq.
Richard Rust
Victona Sartor
David Walsh
Tara Zanni

A quorum being present, the meeting was called to
order by Chairman Brubaker at 9:25 AM/ET.
REST OF PAGE 2 REDACTED
PAGES 3, 4, AND 5 REDACTED
VII.

ACTUARIAL UPDATE/
REHABILITATION PLAN

Jonathan Feldman and Stan Goldfarb from
Horizon Actuarial gave the actuarial update, and
referred to a report, a copy of which is annexed to
the original of these minutes as Exhibit D. Mr.
Feldman reported on the actuarial liability match
from the prior actuary, Buck Consultants, which is
required under the law and must be achieved
within 5%, has now been completed and the match
was within the acceptable limit. Mr. Feldman then
discussed the margin, which is the expected contribution less the actuarial cost, within the Fund.
Horizon compares that number with the expected
contributions and if the costs are less than the contributions, there is a positive margin. He reported
that there was positive margin in the Fund. Mr.
Goldfarb then reviewed various different interest
rate assumption scenarios for the Board.
REDACTED

82422 • SCHULTE • 11 EXHIBIT E

AL 3/20/20

137a
Mr. Feldman informed the Trustees that effective
for employer withdrawals occurring on or after
January 1, 2014 the PBGC interest rates will be
used to calculate withdrawal liability estimates
and assessments. A discussion followed regarding
the calculation of withdrawal liability.
REST OF PAGE 6 AND PAGES 7, 8 AND 9
REDACTED
BEGINNING OF PAGE 10 REDACTED
XVI.

ADJOURNMENT

There being no further business before the Trustees
upon motion duly made, seconded and unanimously
carried, the meeting was adjourned at 12:15 pm ET.
/s/ Ellen R. Dunkin
Ellen R. Dunkin

82422 • SCHULTE • 11 EXHIBIT E

AL 3/20/20

138a
Exhibit F
HORIZON ACTUARIAL SERVICES, LLC
[LETTERHEAD]
Memo
Date:

October 3, 2014

To:

Trustees of the National Retirement Fund

cc:

Richard Rust and Ron Richman

From:

Stan Goldfarb and Jonathan Feldman

Phone:

(240) 247-4512 and x4514

Subject: Withdrawal Liability Assumption
Change
By law, it is the actuary’s responsibility to set the
actuarial assumptions and methods used to determine withdrawal liability. After careful consideration,
we have decided to change the withdrawal liability
interest rate assumption for the Legacy Plan of the
National Retirement Fund (the Plan) while the Plan
is in the Red Zone. Starting in 2014, we are changing
from the prior actuary’s valuation interest rate of
7.25% to the interest rates used by the PBGC for
mass withdrawals. Thus, employers who withdraw
from the Plan in 2014 or later will be impacted by the
interest rate change. This memo describes the impact
of this change on withdrawal liability and the
reasons for making the change. While this was a
difficult decision to make, We feel it is actuarially
correct, and in the best interest of the Plan, its
participants, and participating employers.

82422 • SCHULTE • 12 EXHIBIT F

AL 3/20/20

139a
Impact on Withdrawal Liability
Withdrawal liability is an allocation of the Plan’s
unfunded vested benefit liability (UVB) to with drawing employers. The UVB of the Plan is
calculated as of the last day of the Plan Year prior to
the year of withdrawal and is equal to the present
value of vested benefits (PVVB) minus the market
value of assets. Thus, for an employer that withdraws
from the Plan during 2014, withdrawal liability is
calculated based on the Plan’s UVB as of December
31, 2013. Please note that the Pension Protection Act
of 2006 (PPA) requires the Plan’s UVB to be determined as if adjustable benefits had not been reduced.
in other words, PPA recognizes that a critical status
(Red Zone) plan needs to be treated differently.
PBGC interest rates change monthly and are based
on the rates insurance companies use to settle
liabilities. As of December 31, 2013, the PBGC
interest rates are 3.00% for the first 20 years and
3.31% beyond 20 years. As the interest rates used to
calculate a liability decrease, the liability increases,
and as the interest rates increase, the liability
decreases.
The Plan’s PVVB as of December 31, 2013, calculated
using the PBGC interest rates described above, is
roughly $6.4 billion versus roughly $3.8 billion
calculated using 7.25% interest. This represents an
increase of $2.6 billion, or 70%. The Plan’s market
value of assets as of December 31, 2013 is roughly
$2.4 billion. Thus, the Plan’s UVB as of December 31,
2013, calculated using PBGC interest rates, is roughly
$4.0 billion versus roughly $1.4 billion calculated
using 7.25% interest. This also represents an increase
of $2.6 billion, but due to leveraging, the percentage
increase to the UVB is 185%.

82422 • SCHULTE • 12 EXHIBIT F

AL 3/20/20

140a
Reasons for Making the Change
Historically, the Plan has used the valuation interest
rate assumption of 7.25% to determine the PVVB and
this is a reasonable assumption for an ongoing, healthy
plan. This presumes that for each employer that leaves
the Plan, another employer will join, and having
employers leave will not seriously hurt the Plan.
However, given the information available to us at
this time, the future of the Plan is not clear. For
example:
• The active population has declined each year
since the last big merger in 2007 (a decline of
about 13%)
• The Plan is in the Red Zone and the Trustees
have determined that they have taken all reasonable measures with regard to the Legacy Plan
and that it will not recover within the legally
designated rehabilitation period. With future
benefit accruals going into the new Adjustable
Plan, it is too soon to know how well the Legacy
Plan’s revised Rehabilitation Plan will work.
• As of January 1, 2014, the Plan’s market value
funded percentage calculated on an ongoing funding basis was 66% with an unfunded actuarial
accrued liability (UAAL) of $1.2 billion. Starting
on January l, 2015, every dollar contributed to
the Legacy Plan will goes towards paying operating expenses and paying off the UAAL. It is vital
that the Plan retain as many employers as
possible to maintain its contribution base.
To put this last point in another perspective, for each
dollar that is not received from a withdrawing
employer, the remaining employers will collectively
need to contribute an additional $1.00 to help pay the

82422 • SCHULTE • 12 EXHIBIT F

AL 3/20/20

141a
Plan’s operating expenses and pay off the unfunded
liabilities, all for benefits earned in the past. Once an
employer has withdrawn and been assessed, the Plan
cannot go after additional money from that employer
– there are no second chances.
Lastly, but also importantly, when an employer withdraws from a multiemployer pension plan, that
employer transfers investment risk to the remaining
employers. Thus, we think it is reasonable to use a
lower interest rate assumption to account for
the transfer of investment risk from withdrawing
employers to continuing employers.
For an ongoing plan that provides benefit accruals,
we would be concerned that this change may make it
more difficult to get new employers to participate in
the Plan. However, since the Legacy Plan will not
accept new employers, we do not have this concern.
New employers will go into the Adjustable Plan,
which is designed to minimize the chance of withdrawal liability emerging.
Conclusion
It is our hope that the Rehabilitation Plan will
work as expected and that the Plan will recover
and all promised benefits will be paid when due.
As discussed earlier, the withdrawal liability
assumptions for a healthy ongoing plan typically
differ from those where the plan’s future is uncertain. Given that benefits will no longer accrue
under the Plan, we don’t think it is reasonable to
use the interest rate assumption of an ongoing
healthy plan for withdrawal liability purposes.
Thus, the change to use PBGC interest rates for
withdrawal liability purposes.

82422 • SCHULTE • 12 EXHIBIT F

AL 3/20/20

142a
As actuaries to the Plan, our primary responsibility is to the wellbeing of the Plan and its
participants, and we believe that making the change
from the valuation interest rate assumption to
PBGC interest rates for the determination of
withdrawal liability makes the most sense at this
time.

82422 • SCHULTE • 12 EXHIBIT F

AL 3/20/20

